Semiannual Report on the Audit,
Investigative, and Security Activities
of the United States Postal Service
October 1, 2008 – March 31, 2009
TABLE OF CONTENTS
ASSESSING PROGRESS TOWARD STRATEGIC GOALS .......................... 1
Goal 1: Focusing on What Matters Most to Customers .................................................................................................... 1
Goal 2: Leveraging the Postal Service’s Strengths .......................................................................................................... 5
Goal 3: Embracing Change ........................................................................................................................................... 9
Regulatory Studies and Reporting Obligations .............................................................................................................. 11
Preserving Integrity .................................................................................................................................................... 13
INVESTIGATIONS ................................................................................. 16
Revenue and Asset Protection..................................................................................................................................... 16
Injury Compensation Fraud ......................................................................................................................................... 19
Delay, Destruction, and Theft of Mail ........................................................................................................................... 20
Identity Theft.............................................................................................................................................................. 23
Mail Fraud ................................................................................................................................................................. 24
Contract Fraud ........................................................................................................................................................... 25
Homicides, Assaults, and Threats ................................................................................................................................ 26
Official Misconduct .................................................................................................................................................... 26
Executive Investigations and Internal Affairs ................................................................................................................. 27
Illegal Drugs and Narcotics Trafficking ......................................................................................................................... 27
Robberies .................................................................................................................................................................. 29
Burglaries .................................................................................................................................................................. 30
Dangerous Mail Investigations..................................................................................................................................... 30
Child Exploitation via the Mail...................................................................................................................................... 33
SECURITY AND CRIME PREVENTION .................................................. 34
Security ..................................................................................................................................................................... 34
Homeland Security ..................................................................................................................................................... 35
Global Security and Investigations ............................................................................................................................... 37
Cyber Intelligence ...................................................................................................................................................... 38
Consumer Education and Fraud Prevention .................................................................................................................. 40
SPECIAL FEATURES
Performance Analysis and Risk Indicator Scans.............................................................................................................. 2
Mail Processing Productivity ......................................................................................................................................... 3
OIG Risk Analysis Research Center ................................................................................................................................ 9
Postal Service’s Financial Condition............................................................................................................................. 11
Voyager Credit Cards and Pin Scams .......................................................................................................................... 18
How Much Is Your Job Worth?..................................................................................................................................... 28
Hazardous Material .................................................................................................................................................... 36
Digital Evidence Service ............................................................................................................................................. 39
APPENDICES ....................................................................................... 42
APPENDIX A — Reports Issued to Postal Service Management ..................................................................................... 42
 Reports With Quantifiable Potential Monetary Benefits ............................................................................................... 43
 Report Listing ......................................................................................................................................................... 46
APPENDIX B — Findings of Questioned Costs ............................................................................................................. 51
APPENDIX C — Recommendations That Funds Be Put to Better Use ............................................................................. 52
APPENDIX D — Reported Non-monetary Benefits ........................................................................................................ 53
APPENDIX E — Reports with Significant Recommendations Pending Corrective Actions ................................................. 54
APPENDIX F — Significant Management Decisions in Audit Resolution ......................................................................... 66
APPENDIX G — Investigative Statistics ........................................................................................................................ 67
APPENDIX H — Summary of Postal Service Investigative Activities Under Title 39 USC § 3013....................................... 68
APPENDIX I — Closed Congressional and Board of Governors Inquiries......................................................................... 69
SUPPLEMENTAL INFORMATION........................................................... 75
Freedom of Information Act......................................................................................................................................... 75
Workplace Environment .............................................................................................................................................. 75
PARIS Model .............................................................................................................................................................. 76
Jurisdiction and Laws................................................................................................................................................. 77

Cover photo by Gerald Merna and Daniel Afzal, Postal Service Photographers, depicts the National Law Enforcement Communications Center at
Dulles, VA. The NLECC supports the work of the Postal Inspection Service and the OIG.
MESSAGE FROM THE INSPECTOR GENERAL
AND THE CHIEF POSTAL INSPECTOR
In this report, the U.S. Postal Service Office of Inspector General (OIG) and the U.S. Postal
Inspection Service provide statistics and activities for the 6-month period of October 1, 2008,
through March 31, 2009.

In the first of three sections, the OIG’s Office of Audit discusses the Postal Service’s progress
towards its strategic goals to focus on what matters most to customers, leverage its strengths,
and embrace change, as outlined in Vision 2013: Five-Year Strategic Plan for 2009 – 2013,
published in October 2008. They also report on regulatory studies and reporting obligations as
well as preserving integrity. In the second section, the OIG’s Office of Investigations and the
Postal Inspection Service highlight investigations conducted to preserve the sanctity of the mail,
protect the integrity of postal personnel, and safeguard employees and customers. In the last
section, the Postal Inspection Service describes its work in providing for the protection of all
postal facilities, employees, customers, and assets, as well as the Postal Service’s information
security network.

These efforts, outlined in detail in the appendices section, resulted in a total monetary impact of
more than $640 million (savings may be for a single year, the life of a contract, or other multiyear
calculations). The Postal Service accepted 108 of our significant audit recommendations.

In addition, during this period 6,742 investigations were closed and management took
administrative action on 1,398 cases. Investigations by Special Agents and Postal Inspectors led
to 4,133 arrests and more than $5.8 billion in fines, restitutions, and recoveries, of which more
than $17.1 million went to the Postal Service.

In these tough economic times — and with the support of the Governors, Congress, and Postal
Service management — the OIG and the Postal Inspection Service will continue to help maintain
confidence in the postal system and improve the Postal Service’s bottom line.




        David C. Williams                                William R. Gilligan
        Inspector General                                Acting Chief Postal Inspector
SUMMARY OF PERFORMANCE
October 31, 2008 – March 31, 2009
    AUDIT
    Reports issued                                                                                                    216
    Significant recommendations issued                                                                                123
    Total reports with financial impact                                                                                93
       Funds put to better use                                                                             $240,028,710
       Questioned costs1                                                                                   $157,980,085
       Revenue Impact                                                                                      $244,058,728
    TOTAL FINANCIAL IMPACT2                                                                              $642,067,523


    INVESTIGATIONS (OIG & POSTAL INSPECTION SERVICE COMBINED)3
    Investigations completed                                                                                        6,742
    Arrests                                                                                                         4,133
    Indictments/informations                                                                                        1,967
    Convictions/pretrial diversions4                                                                                3,645
    Administrative actions                                                                                          1,461
    Cost avoidance                                                                                           $93,012,179
    Fines, restitutions, and recoveries                                                                  $5,813,909,158
                                  5
       Amount to Postal Service                                                                              $17,122,019


    OIG HOTLINE CONTACTS
    Telephone calls                                                                                                55,381
    E-mail                                                                                                         15,375
    Virtual Front Office calls                                                                                      6,088
    Standard Mail                                                                                                   1,169
    Voice mail messages                                                                                               728
    Facsimile                                                                                                         327
    TOTAL CONTACTS                                                                                                79,068


1
    Includes unsupported costs of $125,011,539.
2
    The Postal Service agreed to recommendations or proposed alternative corrective actions that, if implemented, could result in more than
      $642 million in savings.
3
    Statistics include joint investigations with other law enforcement agencies.
4
    Convictions reported in this frame may be related to arrests made in prior reporting periods.
5
    Amount included in fines, restitution, and recoveries.
-
                                                                                                 GOAL 1: FOCUSING ON WHAT MATTERS MOST TO CUSTOMERS




ASSESSING PROGRESS TOWARD STRATEGIC GOALS
In this section, the Office of Audit (OA) assesses the Postal Service’s progress toward its strategic
goals articulated in its Vision 2013: Five-Year Strategic Plan for 2009 – 2013, published in
October 2008. The plan emphasizes that the Postal Service’s universal service obligation remains
unchanged despite the challenging economic climate. Further, the Postal Service notes that it
intends to improve the value of mail services and sustain a financially stable enterprise that best
serves the nation’s mailing needs while providing affordable and reliable service.

The Postal Service’s strategic goals are to focus on what matters most to customers, leverage
its strengths, and embrace change. OA reports on the Postal Service’s progress towards these
goals, and on the issues of regulatory studies and reporting obligations, and preserving integrity.
Each of these strategic goals and issues present significant challenges to the Postal Service. This
section discusses audits and reviews completed during the reporting period in these areas.

GOAL 1: FOCUSING ON                                              U.S. Virgin Islands. Approximately 59 million
WHAT MATTERS MOST                                                pieces of U.S. Virgin Islands (USVI) mail are                   Management Response
                                                                 processed at the P&DC, the Air Mail Facility, and               to Audit Work
TO CUSTOMERS                                                     the Annex in San Juan, PR, annually. In response
This Postal Service strategic goal concentrates on starting      to a congressional request, Auditors reviewed mail              OA adheres to professional audit
with customer needs, providing excellent customer                service to the USVI due to complaints of delayed                standards and presents its audit
experiences, building on trusted relationships, and              mail, non-delivery of packages, communication                   work to management for comments
communicating effectively. The Postal Service’s strategy         issues between the Postal Service and federal law               prior to issuing a final report. Unless
to improve service is to provide timely, reliable delivery       enforcement agencies, inadequate staffing levels,               otherwise noted in the audit work
and improved customer service across all access points.          and inadequate delivery service standards for the               discussed in this report, management
Specifically, it is focusing on the quality and consistency of   USVI as compared to the mainland. To address                    has agreed or partially agreed with
service provided at all customer contact points as well as       these concerns, OA conducted three concurrent                   OA’s recommendations and is taking
the speed and reliability of end-to-end mail delivery across     audits of processing, transportation, and delivery              or has already taken corrective action
product lines. Improving service is challenging to do while      issues affecting service, and confirmed that                    to address the issues.
simultaneously working to significantly cut costs. OA’s          processing and transportation issues had caused
work in this area is aimed at helping the Postal Service to      substantial delays.
improve operational efficiencies related to customer service
and to decrease the risk of revenue loss.

Mail Processing, Transportation and
Delivery Operations
The Postal Service’s business environment is challenging
due to an uncertain economy, decreased mail volumes,
and an expanding delivery network. In addressing these
challenges, the Postal Service continues to seek out
automation and technology solutions, and reduce excess
capacity in the plant network and the redundancy inherent
in maintaining separate transportation networks for
different mail classes. With less mail coming in, the mail
processing infrastructure must be flexible and resources
must be adjusted to match volume. Key components
of network streamlining include mail processing plant
consolidations, plant closings, and outsourcing some
mail processing operations to eliminate excess capacity,
increase efficiency, and better use resources.

                                                                 The Postal Service has a strategic goal of focusing on what matters most to customers.




                                                                                                                                          October 1, 2008 – March 31, 2009 | 1
GOAL 1: FOCUSING ON WHAT MATTERS MOST TO CUSTOMERS




                                              PERFORMANCE ANALYSES AND                                           the negative exposure was detrimental to the Postal
                                              RISK INDICATOR SCANS (PARIS)                                       Service’s brand and reputation. Many of the concerns
                                                                                                                 raised in the allegations reviewed could have been
                                              OA uses a risk-based planning approach to identify audit           resolved through better processes, checks and balances,
                                              work. In this way, it can identify the most important work         and communications and outreach with customers,
                                              that needs to be done, and then position itself to do it.          supervisors, and labor organizations. Auditors made
                                              (The PARIS Model Matrix can be found on page 76 in                 13 recommendations to improve the timely processing
                                              the Supplemental Section.) One aspect of this approach             of mail.
                                              has been to build PARIS models that examine selected
                                              risk indicators for each Postal Service district, provide a        Further, based on FY 2008 data in OA’s PARIS
                                              drill down capability into the detailed data, and provide          Maintenance Model, the Philadelphia Customer Service
                                              assessments of Postal Service facilities and operations.           District was among the districts most at-risk for
                                              The following highlights two of these PARIS models:                having low equipment effectiveness. During the 1-year
                                              Operations and Financial.                                          period ending June 30, 2008, this district’s overall
                                                                                                                 equipment effectiveness (OEE) averaged 52.4 percent
                                              PARIS Operations Model                                             compared to the national average of 65.5 percent for
                                                                                                                 all processing modes. The district did not meet targets
                                              OA’s PARIS Operations Model uses 11 performance                    for daily and weekly preventive maintenance of mail
                                              indicators to rank Postal Service districts by overall             processing equipment. In addition, excessive pieces
                                              performance. In fiscal year (FY) 2008, the model                   at risk and reject rates lowered the quality element of
                                              identified the Philadelphia Customer Service District              OEE and indicated opportunities for both maintenance
                                              as one of the most at-risk districts. Auditors initiated           and operational functions to increase equipment
                                              fieldwork to review performance of the Philadelphia                performance. Addressing these issues at the district’s
                                              Processing and Distribution Center (P&DC); news                    two mail processing sites could decrease costs by
                                              articles began to report damaged, delayed, and                     $5 million and would be expected to decrease mail
                                              destroyed mail, as well as numerous employee                       processing costs by $10 million over the next 2 years.
                                              complaints. As part of its work in Philadelphia, OA
                                              assessed 18 allegations about mail processing,
                                                                                                                 PARIS Financial Model
                                              transportation, and delivery operations; and worked
                                              jointly with OIG Special Agents on those allegations               During this reporting period, OA produced its first PARIS
                                              that suggested the possibility of criminal intent. Of              Financial Model based on Quarter 4 FY 2008 data. Prior
                                              the allegations, one was substantiated, seven were                 to the establishment of this model, the Postal Service did
                                              partially substantiated, and 10 were not substantiated.            not assess district financial risks at a national level. This
                                                                                                                 model provides an opportunity to see trends in high-risk
                                              The substantiated allegation of delayed mail report found          financial factors on a nationwide basis, as well as the
                                              that the daily Mail Condition Reports in 2008 had been             ability to drill down into the data to see the components
                                              falsified by lowering the actual on-hand numbers, which            of each factor at the finance number or unit level.
                                              ultimately resulted in an inaccurate summary to the Postal
                                              Service. The partially substantiated allegations involved:         Using the results of the model, Auditors conducted
                                                                                                                 work in five districts. Overall, the Auditors noted
                                              ■    Inadequate processes to ensure that mail was not              significant internal control and compliance issues in
                                                   being destroyed.                                              stamp stock, cash management, and expenditures.
                                              ■    More delayed mail than the national average.                  Together these audits identified almost $700,000 in
                                                                                                                 monetary and about $14.1 million in non-monetary
                                              ■    Unprocessed mail based on a miscommunication.                 impacts and produced 12 investigative referrals that
                                              ■    Inadequate processes, equipment problems, and                 would not have necessarily been identified in the past.
                                                   insufficient labeling resulting in untimely delivery.         Two of those led to the criminal prosecution of Postal
                                                                                                                 Service employees for embezzling funds through the use
                                              The Philadelphia Customer Service District experienced             of no-fee money orders.
                                              periods of increased on-hand volumes and delayed mail
                                              from October 2007 through December 2008. These                     OA has been providing Postal Service executives with an
                                              concerns negatively affected service scores, caused                overview and results of all of the PARIS models. These
                                              customer complaints, and resulted in negative media                executives have noted the usefulness of the models in
                                              reports. While many allegations were not substantiated,            helping them to better identify and manage risks.




2 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                   GOAL 1: FOCUSING ON WHAT MATTERS MOST TO CUSTOMERS




Auditors identified opportunities to improve the timely
processing and tracking of mail at the San Juan P&DC
to include re-configuring the Universal Sorter Machine
to minimize damage to parcels, reducing or eliminating
misdirected mail, and improving mail throughput on
machines. Further, local mail could be processed at the
USVI, delayed mail needed to be accurately identified
and reported, and the Postal Service and Customs and
Border Protection needed to improve communication with
customers and each other.

Regarding transportation, in attempting to meet established
delivery service standards to and within the USVI,
the Postal Service adopted a complex transportation
network based on mail type, service, and cost. Auditors
recommended adjusting transportation modes, schedules,
and capacities at concentration points where possible;             The mail processing infrastructure needs to be flexible to adjust resources to match volume.
fully utilizing transportation containers; and addressing
other transportation process efficiencies. Finally, the
Postal Service delivered mail to customers in a timely
manner after receiving the mail in the USVI, and had
sufficient resources to do the job. OA’s three audit
reports on performance issues within USVI contained
15 recommendations to improve the timeliness of mail
service and identified about $500,000 in funds that can
be put to better use.

Chicago Customer Service District. As a follow-up
audit, Auditors reviewed the timeliness of mail processing,
transportation, and delivery operations in the Chicago
Customer Service District based on a request from the Great
Lakes Area Vice President. Auditors concluded that this district
made improvements, during FY 2008, in the timely and
efficient processing and delivery of mail, resulting in service    During the course of an audit OIG auditors observe mail being loaded on to a contract air carrier’s plane at
improvements and a reduction in customer complaints. In            St. Croix, USVI.
FY 2008, the Cardiss Collins P&DC processed more than
1.75 billion first handled pieces. Management adjusted carrier
routes to match workload and improved supervision of carrier
office and street time. In addition, the accuracy of the Address       MAIL PROCESSING PRODUCTIVITY
Management System increased. Management turnover
decreased, communication of goals and targets increased, and           The Board of Governors’ Audit and Finance Committee requested OA to benchmark
maintenance of automated equipment improved. Because of                Postal Service productivity against that of similar U.S. commercial entities. Both the
the progress made by the Chicago District, Auditors did not            Postal Service and the benchmarked companies use the following strategies to promote
make any further recommendations.                                      continuous improvement: automated processing operations, competitive intelligence
                                                                       to improve processes, closure of facilities and consolidation of operations to reduce
                                                                       costs, and the placement of industrial engineers in plants to assist managers. However,
Contractor-Operated Mail
                                                                       Auditors identified commercial entities’ best practices that offer the Postal Service
Processing Facilities                                                  opportunities to improve productivity. These best practices include: employees are
The Postal Service outsources some of its mail processing              predominantly part-time, often working 4-hour shift with staggered start times to
facilities to improve operational efficiency and reduce                accommodate workloads; employees are moved quickly among tasks to meet the
costs. Recent and planned initiatives to outsource mail                needs of changing volumes; employees are held accountable for meeting established
processing and transportation functions place added                    productivity goals; and parcels move quickly through facilities with minimal staging.
significance on the need to avoid, neutralize, or mitigate             Auditors suggested that the Postal Service review the benefits of working with unions to
potential conflicts of interest before awarding contracts. An          modify work rules and promote a more flexible, part-time workforce as existing contracts
organizational conflict of interest exists when the nature             expire, and look for opportunities to promote a continuous flow in processing operations.
of the work to be performed under a contract may give an




                                                                                                                                              October 1, 2008 – March 31, 2009 | 3
GOAL 1: FOCUSING ON WHAT MATTERS MOST TO CUSTOMERS




                                              offeror an unfair competitive advantage, or when an offeror          these controls reasonably protected the integrity of the
                                              has other interests that may impair its objectivity or ability       EXFC measurement process. Auditors recommended that
                                              to perform satisfactorily.                                           the Postal Service ensure, through periodic reviews, that
                                                                                                                   information contained in reports and computer systems
                                                                                  OA reviewed contracts that       cannot be used to identify test mailpieces or in any way
                                                                                  the Postal Service awarded       compromise the integrity of the measurement process.
                                                                                  to two major mail presorters
                                                                                  and consolidators to process     Shortpaid Postage
                                                                                  mail for the Postal Service.
                                                                                  Auditors found that at Surface   Information Based Indicia (IBI) is a digital imprint that is
                                                                                  Transfer Centers (STC) and       valid postage. IBI contains the date, class of mail, postage
                                                                                  Terminal Handling Service        amount, originating ZIP Code, and a unique device
                                                                                  (THS) facilities, procedures     identification number. Auditors found that the Postal
                                                                                  are not in place to confirm      Service is at risk of revenue loss and fraud by identifying
                                                                                  that employees have verified     $61.8 million in unrecoverable revenue and $82.4 million
                                                                                  and accepted arriving mail,      in recoverable revenue for Priority Mail and Parcel Post
                                                                                  or that the customer paid        service. Additionally, IBI stealth postage, known as
                                                                                  the applicable postage. To       nondenominated postage, can be printed on First-Class and
                                                                                  better monitor mail and          Priority Mail and Parcel Post using online postage products
                                                                                  protect revenue, Auditors        so that the actual postage amount is not visible. An audit of
                                                                                  recommended reconciling mail     IBI stealth postage identified $49.5 million in unrecoverable
The Information Based Indicia (IBI) is a digital imprint that is valid                                             revenue and $49.5 million in recoverable revenue from
postage. IBI contains the date, class of mail, postage amount,                    scans captured by STC and
                                                                                  THS contractors with scans at    shortpaid postage. (See investigative work in this area on
originating ZIP Code, and a unique device identification number.                                                   page 16.)
                                                                                  the points of mail acceptance.
                                                                                                                   Management recognized the importance of capturing
                                              Modern Service Standards                                             valid postage and preventing fraud and indicated that
                                              One of the requirements in the Postal Accountability                 technologies and processes are in place to identify
                                              and Enhancement Act (Postal Act of 2006) was for the                 duplicate IBI mailpieces through an application called
                                              Postal Service to develop and implement modern service               Information-Based Indicia — Revenue Protection (IBI-
                                              standards for market dominant products, which include                RP). The IBI-RP application is currently utilized by the
                                              First-Class Mail, Standard Mail, Periodicals, and Package            Postal Inspection Service and has been successfully
                                              Services. Auditors assessed the “business rules” — the               used to identify and prosecute IBI counterfeit/duplicate
                                              implementing criteria that determine the number of days              label abusers. Future IBI-RP enhancements are being
                                              to delivery between origin-destination 3-digit ZIP Code              evaluated to identify shortpaid mailpieces processed on
                                              pair combinations — used to develop modern service                   the Automated Package Processing System (APPS) and to
                                              standards. Auditors concluded that the Postal Service                provide a candidate list of potential shortpaid mailings to
                                              complied with statutory requirements and the mailing                 the Postal Inspection Service.
                                              industry generally supported the new standards. However,
                                              Auditors noted several strategic and operational risks in            Cooperative Mail Rule Exception
                                              establishing these standards.
                                                                                                                   The Postal Service, through its Cooperative Mail Rule
                                                                                                                   (CMR), allows nonprofit organizations (NPO) to share the
                                              External First-Class Measurement System                              cost, risk, or benefit of a mailing. Cooperative mailings
                                              The Postal Service measures and reports on its                       are entered at Nonprofit Standard Mail rates only if all
                                              effectiveness in meeting established delivery standards              cooperating NPOs are authorized to mail at Nonprofit
                                              for various classes of mail including single piece First-            Standard Mail rates. The CMR did not allow a NPO to
                                              Class Mail. Management compares the data to Postal                   share the cost, risk, or benefit of a mailing with a for-
                                              Service delivery standards based on the date mailed,                 profit organization (FPO) and mail at Nonprofit Standard
                                              date of delivery, and the geographic locations involved.             Mail rates until an exception to the rule was made in
                                              Auditors assessed whether the External First-Class (EXFC)            November 2003.
                                              measurement system’s internal controls reasonably
                                              protect the integrity of the EXFC measurement process.               At the request of a congressional committee, OA audited
                                              Examination of internal controls relating to test mail               the CMR exception and determined the Postal Service
                                              appearance, induction, recruiting and training, computer             does not have a process to monitor the CMR exception to
                                              systems, breaches, and the EXFC contractor found that                identify abuses. As written, the CMR exception policy is not




4 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                      GOAL 2: LEVERAGING THE POSTAL SERVICE’S STRENGTHS




clear and does not define cost, risk, or benefit or provide        processing. The Powered
guidance on the types of FPOs that NPOs can partner with           Industrial Vehicle Management
to raise funds.                                                    System (PIVMS) consists of
                                                                   intelligent wireless devices
Management partially agreed with Auditors’ findings and            installed on these powered
recommendation to identify the most effective means                industrial vehicles (PIV) and
to monitor the CMR exception for abuses. Management                computer software for access
stated that because there have been no reports of abuses,          control, utilization analysis,
the Consumer Advocate can only agree to work with                  real-time location tracking,
Mailing Standards, Business Mail Acceptance, and the               and many other functions. The
Postal Inspection Service to buttress the existing system          PIVMS provides automated
if abuses are revealed. Management agreed to develop               measurement, control, and
and provide training for mail acceptance employees on              compliance reporting of PIV
acceptance procedures for CMR exception mailings by                operations within a plant,
June 2009. However, management disagreed with OA’s                 resulting in optimal PIV             The Postal Service uses various types of vehicles within plants to
recommendation for the Postal Service to develop and               safety conditions, operations,       move mail from one location to another during processing. Pictured
implement a method to collect data on the use of the               supervision, and associated          here is a Powered Industrial Vehicle.
CMR exception.                                                     savings. Auditors identified
                                                                   opportunities for management
Vehicle Assets                                                     to fully implement the operational features of the PIVMS to
The Postal Service has invested more than $3 billion in            better manage workhours, conduct maintenance activities,
vehicle assets. The vehicle inventory consists of more than        and reduce vehicle inventory, and reported $1.9 million in
219,000 delivery, transport, and administrative vehicles,          funds that can be put to better use.
of which delivery and collection vehicles account for about
89 percent.                                                        GOAL 2: LEVERAGING THE
                                                                   POSTAL SERVICE’S STRENGTHS
Vehicle Maintenance Facilities. The Postal Service is
extending the service life of its delivery vehicles, so Auditors   The Postal Service intends to build on its strengths, which
assessed whether the Postal Service accomplished all               include its network, information systems, and dedicated
required scheduled preventive maintenance and also                 employees. This strategic goal concentrates on the reach
integrated both Vehicle Maintenance Facilities (VMF) and           and capability of the network, using information technology
local commercial resources for optimum efficiency. Auditors        to enhance products and performance, and empowering
recommended that management complete all scheduled                 employees to build the business.
maintenance and repairs and better optimize VMF and
commercial resources, potentially saving more than                 OA’s work in this area assisted the Postal Service in
$32.7 million over 10 years. Auditors believe this approach        identifying significant opportunities to reduce costs
provides a reasonable estimate because it accounts for that        by optimizing the mail processing network, improving
Area’s specific maintenance activities.                            transportation efficiency, and controlling facility and
                                                                   operational costs.
Vehicle Warranty Claims Process. Auditors assessed
whether the vehicle warranty claims process properly               Flats Sequencing System
reimbursed the Postal Service for work performed on
                                                                   The Flats Sequencing System (FSS) program is the Postal
vehicles covered by a manufacturer’s warranty. The
                                                                   Service’s largest current mail automation investment and
Postal Service did not always identify vehicles that had
                                                                   is expected to generate annual operational savings of
warranty work and obtain reimbursement for warranty
                                                                   $600 million. However, the FSS production machine failed
repair work conducted with its resources. This occurred
                                                                   First Article Testing by not meeting two key performance
because of ineffective vehicle warranty and reimbursement
                                                                   metrics, throughput and acceptance rate. In addition,
processes as well as weaknesses in the oversight of
                                                                   while management is attentive to system performance
these processes. As a result, the Postal Service lost more
                                                                   and schedule risks, declines in mail volume introduce a
than $2.9 million and has an opportunity to save almost
                                                                   substantial new deployment risk to the FSS program.
$620,000 in FY 2009.
                                                                   Auditors recommended the Postal Service establish a risk
Powered Industrial Vehicle Management System.
                                                                   mitigation plan for volume declines to include a reevaluation
The Postal Service uses various types of vehicles within
                                                                   of sites scheduled to receive FSS. Further, although
plants to move mail from one location to another during
                                                                   Auditors did not identify any unnecessary or inappropriate




                                                                                                                                          October 1, 2008 – March 31, 2009 | 5
GOAL 2: LEVERAGING THE POSTAL SERVICE’S STRENGTHS




                                                                                increased costs to the Postal     for HCRs provide service between Postal Service facilities,
                                                                                Service due to changes to         mailers’ plants, and similar facilities. An “extra highway
                                                                                the FSS contracts, they could     transportation trip” is an additional trip made on an
                                                                                not determine whether the         infrequent basis over the same route as the regular
                                                                                monetary amount the Postal        contract, but not included in the original terms of
                                                                                Service withheld from the         the contract.
                                                                                contractor was appropriate
                                                                                when pre-production machine       Postal Service officials could improve their monitoring
                                                                                contract requirements were        and controlling of costs of extra highway transportation
                                                                                not met. Consequently,            contract trips. Auditors calculated more than $67 million
                                                                                the Postal Service is at an       in unrecoverable unsupported questioned costs due
                                                                                increased risk of not receiving   to officials not properly authorizing extra highway
                                                                                equitable consideration for       transportation contract trip costs. Auditors also calculated
                                                                                contractor nonperformance.        almost $600,000 in unrecoverable unsupported questioned
                                                                                Auditors recommended that         costs and more than $69,000 in recoverable questioned
The Flats Sequencing System program is the Postal Service’s largest             the Postal Service require        costs due to overpayment of extra highway transportation
current mail automation investment and is expected to generate                  contracting officers to fully     contract trip costs. However, the Santa Clarita, CA, P&DC
annual operational savings of $600 million.                                     document the rationale and        used exemplary monitoring practices, which resulted in
                                                                                basis for determining whether     a $1.1 million (47 percent) cost reduction on extra trips
                                                                                withheld payment amounts          from FY 2007 to 2008. In addition, to recommendations
                                                                               are reasonable.                    to improve existing controls over extra highway trip costs,
                                                                                                                  Auditors recommended that these monitoring practices be
                                                                               Use of Contract                    considered for implementation nationwide.
                                                                               Transportation
                                                                                                                  National Trailer Lease
                                                                        Auditors assessed whether the
                                                                        Postal Service’s use of Federal           Auditors evaluated the National Trailer Lease renewal
                                                                        Express (FedEx) transportation            in the Great Lakes Area and identified opportunities to
                                                                        was effective and economical.             reduce costs. The National Trailer Lease renewal was not
                                                                        From October 2005 through                 as effective and economical as it could have been because
                                                                        December 2007, the Southwest              the Great Lakes Area did not have a comprehensive
                                                                        Area incurred about $9 million            management plan in place to accurately identify its trailer
                                                                        in unnecessary costs due to               requirements, ensure proper trailer use, and adjust trailer
                                                                        using FedEx to move mail that             inventory based on continued need. As a result, the Postal
                                                                        could have been moved on less             Service incurred almost $330,000 in unnecessary trailer
During an audit, OIG auditors observe mail being prepared for           costly surface transportation or          lease costs over a 6-month period. Auditors estimated the
transport on FedEx airplanes at the Terminal Handling Service facility  passenger airlines and to paying          Postal Service could save about $5.4 million in lease costs
in Austin, TX.                                                          FedEx to sort mail unnecessarily.         over the next 10 years, if the Great Lakes Area improves
                                                                        The Southwest Area has an                 its processes for trailer fleet management and returns
                                                                        opportunity to save about                 unneeded trailers. Management agreed to the findings, but
                                           $44.3 million over the next 10 years by not using FedEx                did not agree to the long-term monetary impacts, which
                                           to transport mail that could be transported on surface                 used a 10-year calculation period.
                                           networks, by transporting First-Class Mail on passenger
                                           airlines when capacity is available, and by sorting the mail           Non-Mail Freight Invoices
                                           before giving it to FedEx to avoid their sorting charges.              Transportation service for non-mail freight is service
                                           Management generally agreed to the findings, but did not               involved in the physical movement (from one location to
                                           agree to all monetary impacts.                                         another) of products, people, household goods, and any
                                                                                                                  other objects that is not related to the transport of mail and/
                                              Oversight of Highway Contract                                       or mail equipment, as well as activities directly relating to or
                                              Route Contracts                                                     supporting that movement. Examples of this are movement
                                                                                                                  of office equipment or relocating employee’s household
                                              Highway contract routes (HCRs) provide for several things,
                                                                                                                  goods. The Postal Service entered into contracts with two
                                              including the transportation of mail between Post Offices
                                                                                                                  suppliers for the management of global surface and air
                                              and other designated points where mail is received or
                                                                                                                  transportation services for non-mail freight in FY 2006. The
                                              dispatched. Regular highway transportation contracts
                                                                                                                  contracts allow the suppliers to self-certify their invoices




6 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                    GOAL 2: LEVERAGING THE POSTAL SERVICE’S STRENGTHS




and submit them directly to the Information Technology and      also reviewed controls over
Accounting Service Center (IT/ASC). The IT/ASC then makes       service claim payments in the
payments directly to the suppliers.                             Rail Management Information
                                                                System (RMIS) at the Capital
Auditors reviewed the contracting officials’ certification      Metro DNO. Although internal
process for these non-mail transportation invoices and          controls over claims processed
found that officials did not certify almost $42 million in      manually had improved from
invoices (unrecoverable questioned costs) paid to the           the previous audit, further
two suppliers from July 1, 2006, through June 30, 2008.         improvement is needed to
Contracting officials relied on annual post-performance         ensure RMIS service claim
invoice audits by the Defense Contract Audit Agency             payments made to rail carriers
(DCAA). While the DCAA did perform two audits on a portion      are properly authorized and
of the invoices for one of the suppliers, these audits did      recorded, and accurately entered
not — nor were they intended to — provide assurances            into RMIS. All 221 RMIS service
that suppliers were properly rendering services. As a result,   claim payments, valued at
officials cannot be assured that accurate rates are charged,    more than $415,000, manually
customers are receiving goods, deliveries are timely,           processed and paid were
and approved price schedules are being used. Auditors           not adequately supported in
recommended that management develop and implement               accordance with Postal Service
written procedures for the independent review of invoices       policy. Auditors recommended      Auditors estimated the Postal Service could save about $5.4
to confirm the receipt of goods and services and to ensure      reemphasizing supporting          million in lease costs over the next 10 years, if the Great Lakes
accurate payment.                                               documentation requirements        Area improves its processes for trailer fleet management and
                                                                to preparers and approvers in     returns unneeded trailers.
Postal Vehicle Service                                          addition to conducting current
The surface transportation network includes Postal Vehicle      and ongoing reviews of RMIS
Service (PVS) operations, made up of Postal Service             service claim packages and payments.
vehicles and employees. OA audited the effectiveness
of PVS operations at the Minneapolis, MN, P&DC and              International Air Payments
found that management could more effectively manage             Insufficient system and management controls over the
PVS processes and schedules, allowing them to remove            Surface Air Support System (SASS) resulted in payment
more than 22,000 excess workhours from existing PVS             errors to air carriers transporting international mail.
schedules and reduce related fuel costs and damage
claims, thereby saving about $9.3 million over 10 years.
Management could eliminate the workhours without
negatively affecting service because schedules contain
unassigned time when drivers were not needed for
a specific trip or related activity, duplicate trips, and
underutilized trips, which could have been consolidated.

Management agreed with the findings and
recommendations, but did not agree to the long-term
monetary impact calculation, noting that actual savings may
vary due to several factors, including the volatility in fuel
prices, contractual changes in PVS work rules, and changes
in PVS workload.

Distribution Network Office
An audit of highway transportation payment information
entered into the Transportation Contract Support System
(TCSS) at the Capital Metro Distribution Network Office
(DNO) found it was properly supported, authorized, and
accurate. However, key duties and responsibilities related
to contract administration and TCSS administration need
                                                                The surface transportation network includes Postal Vehicle Service operations, made up of Postal Service
to be separated to strengthen internal controls. Auditors
                                                                vehicles and employees.




                                                                                                                                         October 1, 2008 – March 31, 2009 | 7
GOAL 2: LEVERAGING THE POSTAL SERVICE’S STRENGTHS




                                              Additionally, the processes for paying international air           value of assets at risk alone for FYs 2005 to 2008 is
                                              transportation costs did not include control mechanisms to         more than $807 million. Further, the Postal Service spent
                                              detect and prevent payment errors. The SASS incorrectly            almost $4 million to identify and correct payment errors.
                                              calculated and paid international airmail transportation           Auditors recommended that management improve system
                                              costs to more than 100 air carriers since its implementation       functionalities, identify payment deficiencies, and pursue
                                              in August 2005. Based on the Postal Service’s preliminary          recovery of contract payments.
                                              estimates, net overpayments totaled $10.1 million for
                                              April 2006 through July 2008. The system deficiencies              Maximizing the Cost-Effectiveness
                                              place the Postal Service’s brand and assets at risk. The           of Contracts
                                                                                                                 OA issued 11 contract-related audit reports comprised
                                                                                                                 of three proposals, two incurred costs, one claim, one
                                                                                                                 equitable adjustment, one rate, one accounting system, one
                                                                                                                 settlement proposal, and one performance indicator. These
                                                                                                                 audits identified unsupported and questioned costs of more
                                                                                                                 than $9 million. Examples include:
                                                                                                                 ■   An audit of a $148 million firm fixed-price proposal
                                                                                                                     disclosed more than $6 million in questioned
                                                                                                                     costs. The contractor did not consider reductions
                                                                                                                     to subcontract proposed costs that are likely to be
                                                                                                                     achieved at negotiations. In addition, DCAA questioned
                                                                                                                     the proposed burden rates and travel costs.
                                                                                                                 ■   An audit of a $9 million firm fixed price proposal
                                                                                                                     disclosed more than $500,000 in questioned
                                                                                                                     costs. The contractor did not consider reductions
                                                                                                                     to subcontract proposed costs that are likely to be
                                                                                                                     achieved at negotiations, and the proposed direct labor
                                                                                                                     and burden rates were questioned.
                                                                                                                 ■   An audit of a $7 million firm fixed price proposal
                                                                                                                     disclosed more than $2 million in questioned and
Auditors determined that controls over the manual processing of supervisor leave were insufficient to                unsupported costs. The contractor misclassified
ensure management approved the leave, recorded it in the Time and Attendance Collection System, and                  proposed subcontract costs as material costs.
appropriately charged it to the supervisor’s leave balance.                                                          There were also differences between proposed
                                                                                                                     material prices and current purchase orders, and
                                                                                                                     differences between material spares prices and
                                                                                                                     vendor quotes. In addition, the contractor could not
                                                                                                                     provide supporting documentation for a variety of
                                                                                                                     proposed subcontract costs.

                                                                                                                 Defense Contract Audit Agency Audit Work
                                                                                                                 Auditors analyzed prior audit work to identify trends and
                                                                                                                 found systemic issues reported in 21 FY 2007 audit reports
                                                                                                                 with more than $511 million of questioned costs, and
                                                                                                                 29 FY 2008 audit reports with more than $152 million of
                                                                                                                 questioned costs, issued by the DCAA on behalf of the OIG.
                                                                                                                 These audits identified systemic issues such as inadequate
                                                                                                                 subcontract proposals, inaccurate or unsupported claims,
                                                                                                                 and unacceptable accounting systems at contractors’
                                                                                                                 facilities. Auditors recommended that management
                                                                                                                 reemphasize the important benefits of requesting
Auditors evaluated the Intelligent Mail Barcode project to determine if Information Technology project           accounting system audits of prospective contractors before
planning and Postal Service management of the application development life cycle contributed to their overall    awarding contracts and audits of significant claims filed
IMB development goals.                                                                                           against the Postal Service.




8 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                GOAL 3: EMBRACING CHANGE




Contract Postal Units                                            and profitability. Further, evolving
                                                                 customer needs, shaped by the Internet     OIG RISK ANALYSIS
Contract Postal Units (CPU) are stations, branches, and
                                                                 and a new generation of customers,         RESEARCH CENTER
community Post Offices operated under contract by non-
                                                                 are redefining expectations for service
Postal Service employees. CPUs must obtain bonds to cover
                                                                 and convenience.                           The Risk Analysis Research Center (RARC)
stamp and meter accountability to indemnify the Postal
                                                                                                            assesses risks to the Postal Service, develops
Service for any shortage that may occur. An audit of CPU         Continuous service improvement             sophisticated centers of expertise, pursues in-
bondings showed that while procedures for establishing           aligned to customer needs is essential     depth analysis, and disseminates institutional
bond amounts were sufficient to protect the Postal Service,      for all products, services, and            knowledge. Through the use of independent
existing bond amounts were not adequate, and procedures          channels. Enhancing sustainability is      research, data, and collaborative tools, the
for monitoring bond amounts and granting bond waivers            also an important challenge facing         RARC informs policy, clarifies complex postal
needed strengthening. In another audit of CPUs, Auditors         the Postal Service and by seriously        issues, and facilitates the interchange of
determined that Post Offices responsible for overseeing          addressing this issue, it demonstrates     ideas between Auditors and Special Agents.
the CPUs did not provide sufficient oversight, including         its environmental leadership. Further,     RARC staff provides multidisciplinary expertise
collection of debts and input of financial information.          the Postal Service’s approach is           in law enforcement, investigative analysis,
Auditors made three referrals to the Office of Investigations    built on the principle of integrating      auditing, data extraction, economic research,
(OI). Further, Auditors identified more than $100,000 in         environmental activities within            and learning management. Further, the RARC
monetary impact for questioned costs and recoverable             day-to-day operations and engaging         offers descriptive and predictive analyses; risk
revenue loss, and more than $1.8 million in non-monetary         employees to take responsibility for       assessments and alerts; collaborative tools
impact for accountable items at risk.                            minimizing their environmental impact.     such as blogs and forums; academic research
                                                                 The Postal Service believes that these     and papers; guest lectures; data extraction;
Controls over Supervisor Leave                                   efforts enhance the value of mail and      learning resources; and knowledge-
The Postal Act of 2006 requires the OIG to regularly             reduce waste and energy consumption.       management support.
audit the data collection systems and procedures the
Postal Service uses to prepare its reports analyzing             OA’s work in this area assessed the        The RARC directs the OIG’s blog Pushing
costs, revenues, rates, and quality of service for the           Postal Service’s communications,           the Blue Envelope (blog.uspsoig.gov/ ) that
Postal Regulatory Commission (PRC). As part of this              service initiatives and improvements       invites public comment and dialogue on
effort, Auditors determined that controls over the manual        to grow the business, and facility         topics affecting the Postal Service. The blog
processing of supervisor leave were insufficient to              recycling strategies.                      gathers and enriches ideas from a variety
ensure management approved the leave, recorded it in                                                        of perspectives to address emerging issues
the Time and Attendance Collection System (TACS), and            Intelligent Mail Barcode                   and critical challenges. The blog is also a
appropriately charged it to the supervisor’s leave balance.      The Intelligent Mail Barcode (IMB) is      channel for tips and leads for investigations.
In reviewing discrepancies in data collected for the In-Office   an ambitious program to track mail         In this reporting period, the RARC posted
Cost System, Auditors found that management did not              at all points in the delivery process      blogs on topics such as preventing workers’
put supervisor leave into the TACS 37 percent of the time;       using scans and integrating electronic     compensation fraud, the challenge of current
either supervisors did not submit leave slips, leave slips       mailing documentation on all mail and      mail volume declines, and a vote on the top
were not on file, or management did not enter the leave          containers. The Postal Service plans       10 postal stories of 2008.
into the TACS.                                                   to use IMB data to improve the value
                                                                 of mail by helping customers manage
The nationwide monetary impact of unrecorded                     business processes, track cash flows,
supervisor leave for the period October 1, 2007, through         and build and maintain customer
May 23, 2008, is estimated to be more than $1.7 million in       relationships. This project, which
unrecoverable questioned costs. Implementing the Auditors’       anticipates a $63.9 million capital
recommendations would strengthen compliance with                 investment and $52.5 million operating
proper leave accounting and save, over a 2-year period,          expenditure over an 8-year analysis
almost $5.5 million in funds put to better use.                  period, will create an infrastructure,
                                                                 support the requirements of the Postal
GOAL 3: EMBRACING CHANGE                                         Act of 2006 to measure service
                                                                 performance, and automate several
The Postal Service needs to embrace change to ensure             business mail verification activities.
that it is relevant and responsive to customer needs. This
strategic goal focuses on using the full potential of the        Auditors evaluated the IMB project to     The OIG’s blog gathers and enriches ideas from a
Internet, being a sustainability leader, and collaborating       determine if Information Technology       variety of perspectives to address emerging issues and
to grow the business. The Postal Service recognizes that         project planning and Postal Service       critical challenges. The blog is also a channel for tips
improving service is the key to increasing competitiveness       management of the application             and leads for investigations.




                                                                                                                                  October 1, 2008 – March 31, 2009 | 9
GOAL 3: EMBRACING CHANGE




                                                                           development life cycle contributed        plan does not have a strategic focus on the value of the
                                                                           to their overall IMB development          project to the Postal Service and the related financial
                                                                           goals. Auditors concluded that the        implications. Additionally, project administration activities
                                                                           Postal Service was not aware of           were insufficient and communications, risk management,
                                                                           the significant complexities and          and procurement plans were not developed in a timeframe
                                                                           extensive requirements needed for         necessary to provide full value.
                                                                           the IMB application when funding
                                                                           was obtained for development              These weaknesses increase the risk of project delay and
                                                                           and project milestones were               cost overruns, and in fact, project implementation, release
                                                                           established. Delays occurred in the       content and release schedule have been altered. Due to
                                                                           design and build phase, resulting in      significant time constraints, the Postal Service reduced the
                                                                           compressed test schedules. A more         scope of the first release in May 2009 to only encompass
                                                                           incremental approach to managing          basic functional features of IMB. A second release in
                                                                           such a complex project would better       November 2009 will provide additional features, as well as
                                                                           clarify expectations for the project,     price incentives. Not all features originally envisioned are
                                                                           resource requirements, and project        included in these two releases.
                                                                           milestone estimates. Additionally,
                                                                           better business requirements              Area Mail Processing Communication
                                                                           management could enhance mailer           The Postal Service manages one of the world’s largest and
                                                                           community acceptance of the IMB           most complex distribution and transportation networks, and
OA evaluated recycling programs at high-revenue facilities in the
                                                                           project and maintain customer faith       plant and mail consolidations make up a core element of
Pacific Area and noted that it had a profitable recycling program.
                                                                           in the Postal Service brand.              streamlining this network. The Postal Service developed
                                                                                                                     the Area Mail Processing (AMP) Communications Plan to
                                                                           Management needs to ensure
                                                                                                                     enhance stakeholder communications, address community
                                                                           the Information Systems Security
                                                                                                                     concerns, and provide more effective outreach during
                                                                           Representative is engaged in the
                                                                                                                     the plant consolidation process. Auditors analyzed AMP
                                                                           application development life cycle,
                                                                                                                     communications and assessed management’s proposed
                                                                           the Certification and Accreditation
                                                                                                                     changes to the AMP Communications Plan. Auditors
                                                                           process is completed, and all
                                                                                                                     identified opportunities for management to further mitigate
                                                                           residual risks are identified before
                                                                                                                     some stakeholder resistance and recommended that the
                                                                           deploying the IMB application.
                                                                                                                     Postal Service increase communication with employees
                                                                           Resolving these issues could
                                                                                                                     during the AMP process and broaden the use of web-based
                                                                           provide assurance that all risks and
                                                                                                                     methods for disseminating AMP details and obtaining
                                                                           mitigation alternatives have been
                                                                                                                     stakeholder input.
                                                                           thoroughly considered, formally
                                                                           documented, and diligently pursued.
                                                                                                                     Metroplex Processing and Distribution Center
                                                                           Intelligent Mail Seamless                 Activation
                                                                           Acceptance Project                        The Metroplex P&DC in Pontiac, MI, completed activation
                                                                           Management                                in July 2008. It processes about 4.8 million pieces of mail
                                                                                                                     daily for ZIP Codes 480 and 483. Management stated
                                                                           Auditors reviewed IMB project             that the new facility would alleviate space deficiencies,
                                                                           management activities and                 increase operating windows, and reduce transportation
                                                                           determined that controls were             and labor costs while increasing service and productivity.
                                                                           not adequate to ensure the                Auditors found that the activation team successfully
                                                                           Postal Service managed the IMB            complied with and completed all activation requirements
                                                                           Seamless Acceptance and Service           for mail processing.
                                                                           Performance (IMB/SASP) project
                                                                           effectively. Specifically, the Decision
                                                                           Analysis Report was approved as
During FY 2008, OA issued 203 individual and two capping                   a non-generative infrastructure
reports summarizing Post Office and Business Mail Entry Unit               upgrade and as such the project
audits. Auditors concluded that financial transactions were
reasonably and fairly presented in the accounting records and
that generally, internal controls were in place and effective.




10 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                  REGULATORY STUDIES AND REPORTING OBLIGATIONS




Revenue Generation by Automated
Postal Centers                                              POSTAL SERVICE’S FINANCIAL CONDITION
Auditors assessed whether the Postal Service is using       Amidst serious economic deterioration, the Postal Service continued to adapt to a new
best practices with its Automated Postal Centers            business model — under the Postal Act of 2006 — while implementing long-term
(APCs). Management in high-performing districts had         initiatives to further automate mail processing, cut significant costs, and adjust operations
developed and implemented a variety of best practices,      and resources.
such as active oversight, incentives to promote
APC use, and extended hours of access. Effectively          The overall operating loss for FY 2008 was $2.8 billion. The Postal Service has experienced
implementing best practices in the 10 districts that        significant losses in FY 2007 and FY 2008 and for the first quarter of FY 2009, primarily as a
collected the lowest percentage of APC-eligible revenue     result of declining revenues due to drops in mail volume, and higher operating costs related
would lead to reductions in overtime that would result      to higher retiree health benefit costs, cost of living allowances, and record fuel prices for
in an estimated $1.67 million in funds put to better use    much of FY 2008.
during the next 2 years. Management generally agreed
with the Auditors’ recommendations; however, they           Losses and rising debt issues are continuing in FY 2009.
did not agree with the suggestion to offer incentives       ■   A financially healthy Postal Service is dependent upon a healthy U.S. economy. However,
to improve APC usage, since they believed that it was           the decline in consumer spending is the most severe in three decades. Also, in its list of
the job of their staff to encourage customers to use            Top Ten economic predictions for 2009, IHS Global Insight, an economic forecasting and
the APCs and the customers received faster service by           consulting firm, stated it expected the U.S. economy to shrink 1.8 percent in 2009. In
using them.                                                     line with that, at the end of FY 2008 the Postal Service projected a revenue increase of
                                                                between 1 and 2 percent and volume decreases of 3 to 4 percent. However, in its Form
Recycling Opportunities                                         10-Q for Quarter 2, the Postal Service reported a 14.7 percent reduction in mail volume
OA evaluated recycling programs at high-revenue                 for Quarter 2, FY 2009, with an accompanying revenue decline of 10.5 percent. Also,
facilities in the Pacific Area and noted that it had a          unprecedented declines in mail volume for Quarter 1 and Quarter 2, FY 2009, are the
profitable recycling program. However, while two of             largest back to back volume declines since the Postal Reorganization Act of 1971. These
the eight Pacific Area performance clusters (PC) were           volume declines significantly contributed to the 8.3 percent reduction in operating revenues
among the top 10 recycling revenue-generating districts         compared to the first 6 months of FY 2008.
in the nation, opportunities remained to further expand     ■   The Postal Service reported a $380 million loss for Quarter 1, FY 2009. Mail volumes
these programs to other clusters. In addition, there were       declined more than 16 and 17 percent in January and February 2009 respectively from
opportunities to strengthen controls over contractor            the same periods in 2008. This illustrates the continued downward pressure on the Postal
pickups to give added assurance that recycling revenue          Service into FY 2009. Without substantial cost reductions, the FY 2009 loss could be
is properly collected and accounted for. Auditors               significantly greater than FY 2008.
recommended additional recycling training for staff
responsible for these activities, expanding recycling       ■   At the end of FY 2008, the Postal Service had $7.2 billion in debt outstanding, a $3 billion
programs throughout the area, and requiring site                increase from FY 2007. The Postal Service’s liquidity for FY 2009 will be comprised of the
personnel to certify the tonnage of recyclable material         $1.4 billion in cash on hand at the beginning of the year, the cash flows from operations,
and trash collected by contractors.                             and the $3 billion it is permitted to borrow. As was the case for FY 2008, the Postal Service
                                                                does not expect cash flow from operations to be sufficient to fund capital investments and
                                                                legislative payment requirements. Consequently, it anticipates increasing debt in FY 2009
REGULATORY STUDIES AND                                          similar to the FY 2008 $3 billion increase.
REPORTING OBLIGATIONS
                                                            ■   The Postal Service stated that if the FY 2009 loss exceeds $5 billion, it could have cash
The Postal Act of 2006 was the first major legislative          needs in excess of operating cash and borrowing capacity. Also, continuing losses in future
change to the Postal Service since 1970. Among other            years would also cause the $15 billion debt limitation to become insufficient.
things, it required the Postal Service to conduct certain
regulatory studies and mandated a number of reporting       ■   One area of focus has been the 10-year payment schedule required to fund retiree
obligations. In addition, the OIG is statutorily required       health benefits, which includes average annual payments of $5.6 billion. These payments
to conduct audits of Postal Service installations and its       represent 7.5 percent of total operating revenues and exceed the highest net income
financial statements.                                           the Postal Service has ever achieved. A large part of the Postal Service’s current debt is
                                                                a direct result of making these payments. Accordingly, the Postal Service requested that
                                                                Congress re-examine this aggressive payment schedule and most recently has proposed
                                                                that premiums for current annuitants be paid from the Postal Service Retiree Health
                                                                Benefit Fund instead of from its operating expenses. In response, Congress drafted H.R.
                                                                22 legislation that would amend the 2006 legislation and allow the Postal Service to draw
                                                                current retiree payments from the presently established fund instead of having to wait
                                                                until 2016, while continuing to fund health care for future retirees.




                                                                                                                              October 1, 2008 – March 31, 2009 | 11
GOAL 3: EMBRACING CHANGE




                                              Field Financial Audits                                              report identifying various internal control and compliance
                                                                                                                  issues at these units related to stamp accountability and
                                              Following is a summary of the financial audits performed
                                                                                                                  financial reporting. In addition, some units were not in
                                              in support of the independent accountant’s opinion on the
                                                                                                                  compliance with vending closure procedures for which
                                              Postal Service financial statements.
                                                                                                                  Auditors recommended management reinforce policy.
                                              Post Offices and Business Mail Entry Units. During                  Since similar internal control and compliance issues
                                              FY 2008, OA issued 203 individual and two capping                   were reported in prior year SSPC audits, Auditors also
                                              reports summarizing Post Office and Business Mail Entry             recommended that management develop and implement an
                                              Unit (BMEU) audits. Auditors concluded that financial               action plan to address these concerns.
                                              transactions were reasonably and fairly presented in the
                                              accounting records and that generally, internal controls            Financial Statements
                                              were in place and effective. However, Auditors identified           OA audited Postal Service financial activities and
                                              nine Post Offices and four BMEUs where major segments               accounting records at headquarters and the three IT/ASCs
                                              of the internal controls were not effective and made six            and concluded that management’s financial accounting
                                              recommendations to improve Post Office internal controls.           policies and procedures provided for an adequate
                                                                                                                  internal control structure and conformed to accounting
                                              Additionally in FY 2007, Auditors reported a significant
                                                                                                                  principles generally accepted in the United States. Further,
                                              nationwide deficiency regarding mail acceptance at
                                                                                                                  transactions affecting general ledger account balances
                                              BMEUs. Although this significant deficiency continued in
                                                                                                                  were stated in accordance with those same accounting
                                              FY 2008, the Postal Service has developed a nationwide
                                                                                                                  principles and general ledger account balances
                                              corrective action plan with measurable goals and has
                                                                                                                  conformed to the general classification of accounts on a
                                              made progress to remediate the deficiency and to comply
                                                                                                                  basis consistent with the previous year. Auditors did not
                                              with future Sarbanes-Oxley Act of 2002 requirements.
                                                                                                                  identify any instances of noncompliance with laws and
                                              Management anticipates a reduction in the occurrence of
                                                                                                                  regulations that have a direct and material effect on the
                                              these issues once the corrective actions are in place and
                                                                                                                  financial statements.
                                              fully implemented.
                                                                                                                  OA also audited the Postal Service Board of Governors’
                                              Cost and Revenue Analysis. OA issued 14 individual
                                                                                                                  travel and miscellaneous expenses and Postal Service
                                              and one capping report summarizing Cost and Revenue
                                                                                                                  Officers’ travel and representation expenses for FY
                                              Analysis test observations. Auditors concluded that the
                                                                                                                  2008 and determined that Board expenses and external
                                              Postal Service generally conducted the statistical tests
                                                                                                                  professional fees were properly supported and complied
                                              in accordance with established policies and procedures.
                                                                                                                  with Board policies. Auditors also determined that officers’
                                              However, because issues were identified that had also
                                                                                                                  travel and representation expenses were generally
                                              been reported in prior years, Auditors recommended that
                                                                                                                  supported, but did not always comply with Officers’ Travel
                                              management reinforce data collection procedures.
                                                                                                                  and Representation Expense Guidelines. The Postmaster
                                              Automated Postal Centers. The Postal Service                        General issued a memorandum, dated April 13, 2009,
                                              implemented the APC program in April 2004 to give                   notifying officers that these Guidelines had been revised in
                                              customers convenient access to Postal Service products              an effort to control cost. Auditors reviewed these guidelines
                                              and services and reduce their waiting time in line at               and although believed they should be policy, the revised
                                              Post Offices by diverting transactions that do not require          guidelines address a majority of concerns and provide
                                              assistance from a Sales and Services Associate. OA issued           better controls over the officer travel process. Also, they do
                                              11 individual and one capping report summarizing work               not conflict with the management instruction on internal
                                              conducted for 11 APCs. In general, the internal controls at         and external events released in September 2008.
                                              nine of the 11 offices were in place and effective. However,
                                              controls were not in place and effective for two APCs and           Data Quality Issues with the City Carrier
                                              there were various internal control and compliance issues           Street Time Study
                                              in areas such as stamp accountability, security, refunds,           Auditors reviewed the City Carrier Street Time Study
                                              and training at all 11 APC locations.                               (CCSTS) and determined that the sample design used in
                                                                                                                  the CCSTS conducted in 2002 was reasonable. However,
                                              Self-Service Postal Centers. Self-service postal centers
                                                                                                                  the more than 1.3 million data records from the CCSTS
                                              (SSPC) are postal units that use vending machines to
                                                                                                                  presented to the PRC contained numerous data quality
                                              provide postage stamps and other retail products and
                                                                                                                  issues, even after data cleansing was performed. There was
                                              services in Post Offices and commercial and off-site
                                                                                                                  uneven participation in the CCSTS by facilities and carriers
                                              locations. OA issued 12 individual and one SSPC capping
                                                                                                                  and inconsistent data collection by the carriers. Additionally,




12 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                PRESERVING INTEGRITY




the Postal Service did not document the steps taken to
cleanse the data files. Finally, the CCSTS survey data is
more than 6 years old and does not reflect changes in city
carrier street activities.

According to management, despite the missing and
erroneous data, the study and their data cleansing
effort produced more than adequate data sets. Auditors
recommended that management update the CCSTS to
improve future studies.

Workplace Injury Reduction Goals
Auditors issued a report concluding that four mail
processing facilities in the Capital Metro Area achieved
some of their FYs 2007 and 2008 injury reduction goals.
However, the achievements for three facilities were
overstated for both years, while the achievements for one
facility were understated for both years.

Management at three of the four facilities needs to improve
its leadership to correct safety deficiencies. In addition,
one PC’s oversight of one of the four facilities’ safety
program was adequate; however, the second PC and                Overall, the Postal Service prevented or detected refunds for used Click-N-Ship labels and collected funds from
area management did not adequately oversee safety and           customers for invalid refunds. However, the Postal Service can better monitor the Click-N-Ship refund process.
health programs at the remaining three facilities. Also, one
district did not recover $63,200 of continuation of pay from    the Postal Service avoid, among other things, payments
employees as required by Postal Service policy after the        to letter carriers for time that did not involve legitimate
Office of Workers’ Compensation Programs (OWCP) denied          activities and the potential damage to the Postal Service’s
the claims. Auditors made 10 recommendations to improve         brand and reputation.
the facilities’ safety and health programs.
                                                                Auditors recommended several solutions to management,
                                                                including modifying existing policies and procedures
PRESERVING INTEGRITY                                            related to Delivery Operations Information System reports,
The OIG works to preserve the integrity of Postal Service       reinforcing the importance of holding performance
processes and personnel. By focusing on key vulnerabilities     discussions with letter carriers, conducting street
of Postal Service installations, Auditors show how the Postal   observations, and taking corrective actions for misconduct
Service can further protect the integrity of the mailstream,    issues. Auditors also recommended deploying additional
and assessing the integrity and accuracy of management          GPS technology for more effective monitoring and tracking
data helps to maintain a stable and sound Postal Service.       during street delivery, and reported more than $1 million
                                                                in funds put to better use by deploying 400 GPS devices in
Carrier Observation Program                                     the Chicago District (where GPS usage was being piloted).

In the last several years, a small percentage of letter
                                                                Click-N-Ship Refunds
carriers engaged in misconduct while delivering mail.
Management was not always aware of the misconduct               Click-N-Ship (CNS) is an Internet application that allows
occurring on routes because city letter carriers are usually    users to purchase postage and print domestic and
unsupervised during street delivery. Further, management        international shipping labels online for Priority Mail,
did not always effectively use controls, such as street         Express Mail, Global Express Guaranteed, and Priority Mail
observations and reviews of operational reports, which          International products. Overall, the Postal Service prevented
could identify these situations. There are also opportunities   or detected refunds for used CNS labels and collected
for the Postal Service to use controls, such as Global          funds from customers for invalid refunds. However, the
Positioning Systems (GPS) and letter carriers national labor    Postal Service can better monitor the CNS refund process.
agreement provisions for discipline and compensation, to        The CNS program office relied on computers to issue
thwart these occurrences. More attention to preventing and      Postage Due notices for invalid refunds but did not review
identifying these incidents when they do occur may help         the results. The program office believed the computerized




                                                                                                                                          October 1, 2008 – March 31, 2009 | 13
PRESERVING INTEGRITY




                                              controls over the refund process were adequate, and that            working meals and did not perform the required monthly
                                              sufficient manual reviews were performed daily when                 reconciliation procedures.
                                              processing manual refunds. However, management needed
                                              to take a more active role in monitoring these controls to          Auditors tested 513 high risk transactions representing
                                              ensure their effectiveness and to prevent loss of revenue.          $1.7 million in expenses from 148 cardholders and found
                                              Auditors recommended management request periodic                    purchases that were not properly authorized or supported
                                              reports of refunds issued, analyze trends across periods to         with bona fide receipts; purchases of prohibited items and
                                              identify anomalies in refund data, and periodically compare         unjustified working meals; and purchases that were split to
                                              refund data from the CNS database to Product Tracking               remain under the $10,000 spending limit. Some purchases,
Auditors found SmartPay card                  System scans to ensure that automated Postage Due                   while not in violation of policy, were imprudent given the
purchases in seven Postal Service             notifications were generated for any used labels for which          severe financial condition of the Postal Service. These
areas were generally supported and            refunds were issued.                                                purchases conflicted with the Postal Service’s objective
employees complied with Postal                                                                                    of driving down costs in all operations and processes.
Service policies and procedures.              Maintenance Facility Repairs                                        Some of the items given as awards for performance were
However, there were instances                                                                                     GPSs, designer watches, game consoles, camcorders,
                                              The Postal Service’s maintenance function’s control                 digital cameras, personal computers, printers, an espresso
where employees did not adequately
                                              over facility repairs could be more effective. Specifically,        machine, and a TIVO system.
document justifications for working
                                              Field Maintenance Offices were accepting work and
meals and did not perform the
                                              then inappropriately using credit cards to procure repair
required monthly reconciliation                                                                                   Access Controls in the Enterprise
                                              services they could not perform, and the Postal Service
procedures.
                                              did not use the Facilities Single Source Provider System            Data Warehouse
                                              to track all facility maintenance and repair work and               An Enterprise Data Warehouse (EDW) is a collection of
                                              disbursements. Auditors reported almost $3 million in               data from many sources, stored in a single place for
                                              unsupported questioned costs. Management agreed with                reporting and analysis. Since the Postal Service’s EDW
                                              the findings and recommendations, but did not agree with            contains sensitive and proprietary data, Auditors evaluated
                                              the unsupported questioned costs.                                   computer software controls that govern access to the data.
                                                                                                                  When working properly, these safeguards, termed access
                                              Radio Frequency Identification Technology:                          controls, ensure EDW data is only available to those having
                                              Asset Management                                                    a legitimate business need.
                                              The Postal Service has opportunities to adopt radio                 Although the Postal Service is knowledgeable about
                                              frequency identification (RFID) technology to better manage         access controls and made efforts to implement EDW
                                              assets and decrease operational costs, particularly                 access controls, the controls were not as rigorous as
                                              in managing mail transport equipment inventories                    they should be. Specifically, there were access control
                                              and minimizing long-standing pallet losses. Auditors                weaknesses surrounding contract employees whose
                                              recommended the Postal Service explore opportunities to             higher level “non-standard’ access remained in place
                                              employ RFID technology to reduce the amount of losses in            even after work contracts justifying their access had
                                              pallet inventories and adopt RFID technology to control and         expired. In addition, Business Impact Assessments on
                                              improve overall asset management, if the Postal Service             those systems responsible for delivering data to the EDW
                                              invests in RFID infrastructure to mitigate pallet losses.           were out of date, making the EDW Information Security
                                              Management is exploring RFID along with GPS technology              Assurance certification also out of date. Lastly, the means
                                              for pallet losses, and stated that prior to selecting a             of distributing and managing the actual access rights had
                                              solution, interested stakeholders would work together to            grown cumbersome and was in need of simplification.
                                              define data requirements and corresponding actions.
                                                                                                                  Electronic Travel Voucher System Controls
                                              SmartPay Purchase Card                                              The Electronic Travel Voucher System (ETVS) is a web-
                                              The Postal Service utilizes the government-wide SmartPay            based travel expense voucher management system that
                                              purchase card program for paying for the day-to-day                 facilitates the collection, verification, approval, tracking,
                                              operational needs under local buying authority. The Postal          auditing, and payment of travel expenses. For the 16-month
                                              Service earns cash refunds based on purchase card                   period February 1, 2007, through May 31, 2008, the ETVS
                                              charge volume. Auditors found SmartPay card purchases               application processed and paid 826,604 travel expense
                                              in seven Postal Service areas were generally supported              vouchers comprised of more than 4.4 million expense
                                              and employees complied with Postal Service policies                 records with the approved amount totaling more than
                                              and procedures. However, there were instances where                 $256 million.
                                              employees did not adequately document justifications for




14 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                 PRESERVING INTEGRITY




Auditors assessed whether manual and automated controls        Auditors recommended that management provide
associated with the ETVS adequately support the approval       annual training for employees to ensure they understand
of travel expenses and concluded that management can           procedures for handling suspicious mail, unknown
improve the controls and clarify the policy associated with    substances, and hazardous materials. Management
the approval of lodging expenses.                              partially agreed with this recommendation and stated
                                                               they will provide refresher training as situations identify
Handling of Suspicious Mail                                    a need. Further, management stated the Huntsville P&DF
                                                               management team has begun a training initiative, which
Huntsville Processing and Distribution Facility (P&DF)
                                                               will include suspicious package training for all employees
personnel did not follow Postal Service policies and
                                                               and Hazardous Waste Operations and Emergency
response procedures for handling suspicious mail and
                                                               Response training for all Executive and Administrative
unknown substances found at the facility on July 25, 2008.
                                                               Service employees and hazardous material team members.
Specifically, responsible Huntsville P&DF personnel did not
                                                               (Investigations in this area are noted on page 30.)
initially contact the Postal Inspection Service, but instead
called the local fire department. Further, they improperly
cleaned up the unknown spilled substance and improperly
handled and moved the suspicious package. Since policies
and procedures for handling suspicious mail were not
followed, and personnel at the Huntsville P&DF were
not appropriately trained, there was an increased risk of
disruption to operations and to the safety and security of
employees, the mail, and other critical assets.




                                                               As part of a nationwide OIG campaign, this poster was distributed to all postal facilities to provide Hotline
                                                               contact information.




                                                                                                                                           October 1, 2008 – March 31, 2009 | 15
REVENUE AND ASSET PROTECTION




                                              INVESTIGATIONS
                                              To maintain America’s trust in the postal system, the Postal Service relies on the U.S. Postal
                                              Inspection Service and the OIG’s Office of Investigations (OI). Federal law enforcement officers
                                              — U.S. Postal Inspectors and OIG Special Agents — support and protect postal employees
                                              and postal customers, secure the mail, safeguard revenue and assets, and maintain the
                                              integrity of postal personnel.

                                              REVENUE AND ASSET                                                   of postal funds or money orders, and theft and misuse of
                                              PROTECTION                                                          postal-issued credit cards.

                                              Postal Inspectors investigate revenue fraud committed by            Revenue Protection
                                              business mailers, mail preparation firms, and individual
                                              mailers who attempt to counterfeit or manipulate postage.           Working directly with Postal Service personnel in various
                                              Special Agents investigate employee misconduct and crimes           functional areas, Postal Inspectors increasingly are
                                              committed by postal employees involving theft and misuse            identifying postal revenue losses by using data-mining
                                                                                                                  software and taking advantage of ongoing software
                                                                                                                  enhancements of revenue-fraud detection systems.

                                                                                                                  One system in particular — the Information Based Indicia-
                                                                                                                  Revenue Protection (IBI-RP) System — has immediately
                                                                                                                  yielded positive results, enabling Postal Inspectors’ early
                                                                                                                  detection of revenue fraud resulting from the use of
                                                                                                                  duplicate indicia.

                                                                                                                  The Postal Service derives much of its revenue — nearly
                                                                                                                  50 percent — from Permit Imprint mail. This type of mail
                                                                                                                  class represents one of the agency’s most vulnerable areas
                                                                                                                  of revenue risk. Working with staff from Intelligent Mail and
                                                                                                                  Address Quality, Postal Inspectors are developing software
                                                                                                                  enhancements to help them more quickly and easily identify
                                                                                                                  revenue losses from schemes involving Permit Imprint mail.

                                                                                                                  A related project also underway, the Revenue Exception
                                                                                                                  Database (RED) System, will combine information culled
                                                                                                                  from mailings into a single clearinghouse of data, not
                                                                                                                  only from the Permit Imprint System, but also from other
                                                                                                                  revenue systems. By centralizing the data, Postal Inspectors
                                                                                                                  can address losses that occur from multiple sources, such
                                                                                                                  as shortpaid parcels, which represent another growing
                                                                                                                  revenue concern.

                                                                                                                  Postal Inspectors have established working relationships
                                                                                                                  with Postal Service business mail entry units (BMEUs)
                                                                                                                  across the country, where large quantities of Permit
                                                                                                                  Imprint mail are received. The relationships encourage
                                                                                                                  postal employees to promptly notify Postal Inspectors
                                                                                                                  when they suspect fraud. (See related audit work in this
                                                                                                                  area on page 12.)

                                                                                                                  Revenue Fraud Investigations
                                                                                                                  Postal Inspectors investigated 286 cases of revenue fraud
                                                                                                                  in the past 6 months. Following are examples of their
                                                                                                                  investigations from the reporting period.




16 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                               REVENUE AND ASSET PROTECTION




■   As a result of their test of a proposed new Permit
    Revenue Protection System, Postal Inspectors identified
    and arrested the owner and operator of a New York
    mailing business for defrauding the Postal Service
    of more than $290,000. Acting on information that
    indicated the company failed to make proper payments
    for postage, Postal Inspectors executed a search
    warrant at the mailer’s place of business. Their analysis
    of files recovered from the company’s computer
    revealed that, from June 2003 through June 2008,
    the owner kept records showing the dates of mailings
    made by his company and whether or not they were
    paid for. By comparing postage statements he had
    submitted to the Postal Service with his computer
    records, Postal Inspectors determined the man had
    underreported more than 960,000 mailpieces.
■   Two suspects in New Jersey were sentenced in
    January for conspiring to defraud the Postal Service
    of more than $2 million by misusing a postage meter.
    Postal Inspectors learned the suspects had been using
    a Pitney Bowes meter reported as being withdrawn
    from service and destroyed in 2002. They identified
                                                                Postal Inspector puts evidence tags on counterfeit postage.
    six suspects who continued to use the meter and affix
    counterfeit postage to mailings. All six pled guilty,
    and five have been sentenced. The two sentenced in          for appropriate administrative action. In cases that warrant
    January received terms of up to 2 years in prison, and      criminal prosecution, offenders not only face the loss of
    both were ordered, with their co-conspirators, to pay       their jobs but also may face jail time and court-ordered
    more than $2 million in restitution.                        restitution. Following are examples of financial fraud
                                                                cases the OIG investigated.
■   The owner of a direct mail company in Mt. Pleasant,
    MI, was sentenced in February to 2 years in prison and      ■   In January, a Missouri
    was ordered to pay more than $428,000 in restitution            Postmaster was
    for conspiring to defraud the Postal Service. Postal            sentenced in the
    Inspectors initiated an investigation based on a tip from       Western District of
    postal managers, revealing the owner had failed to              Missouri to 5 months
    make proper payments for postage. Postal Inspectors             in prison for misusing
    also learned the owner had a co-conspirator who was             postal funds and
    an employee at the Mt. Pleasant Post Office. The owner          was ordered to pay
    paid the employee to process mailings with insufficient         more than $42,700
    postage. The two suspects were indicted in May                  in restitution to the
    2008, and the employee was removed from the Postal              Postal Service. Special
    Service at that time.                                           Agents, investigating
                                                                    losses at a Missouri
Embezzlements and Financial Crimes                                  Post Office, uncovered
                                                                    multiple schemes
Employee embezzlements may involve postal employees
                                                                    the Postmaster used
stealing money from cash drawers, using sophisticated                                            Below shows evidence (passport applications) seized at the scene. A box
                                                                    to embezzle postal
schemes to manipulate postal money orders or money                                               containing the applications was hidden within a plant in the Puerto Rico
                                                                    funds, such as stealing
order funds, or falsifying financial retail records. When                                        Letter Carrier’s backyard.
                                                                    money from his till,
Post Offices experience unusual or significant shortages,
                                                                    not reporting money
Special Agents employ various investigative techniques
                                                                    order sales in a timely
to uncover embezzlements, and improper or lax
                                                                    manner, issuing multiple money orders never reported
procedures are reported to management for corrective
                                                                    as sold, and selling postage without reporting the funds
action. When employees are found to be responsible for
                                                                    received. Special Agents determined the loss to the
missing postal funds, they are reported to management
                                                                    Postal Service was approximately $53,000.




                                                                                                                                      October 1, 2008 – March 31, 2009 | 17
REVENUE AND ASSET PROTECTION




                                                                    ■   In November 2007, Caribbean               Voyager credit card fraud this reporting period, resulting
    VOYAGER CREDIT                                                      District management informed              in 12 arrests and 20 administrative actions. Following are
    CARDS AND PINS                                                      the OIG that numerous postal              some case examples.
                                                                        customers had not received their
    During 2008, drivers witnessed at the pump                          passports. After reviewing postal         ■   In October, management issued a Letter of Demand
    the highest gas prices ever recorded in our                         records, Special Agents identified            for $315,338 to a Texas HCR company. Special
    nation’s history. To ease the impact on their                       a suspect — the Letter Carrier                Agents investigating a former driver of the company
    wallets, many drivers reduced consumer                              responsible for processing passport           determined the supplier failed to stop the usage of
    spending while others went “green” by                               applications during the time in               62 “lost” Voyager credit cards or to notify the Postal
    carpooling, teleworking, or purchasing                              question. Special Agents determined           Service. The former driver misused six credit cards
    fuel-efficient cars. Some dishonest postal                          the Letter Carrier stole passport fees        reported as lost, stealing more than $25,000 in fuel.
    employees and gas station employees,                                and buried 103 related documents,             In June, he was sentenced to a year and a day in
    however, offset high fuel prices by misusing                        including passports and birth                 prison and ordered to pay restitution to the Postal
    Voyager credit cards, a scheme that cost                            certificates, in his backyard. Special        Service. Also, during their investigation, Special Agents
    the Postal Service nearly $1 million this                           Agents recovered the buried items.            identified a self-employed driver who misused one
    reporting period. These individuals viewed                          The Postal Service reimbursed                 of the lost Voyager cards and two PINs he found at a
    Voyager credit cards and PINs as a way                              customers the cost of duplicating             local gas station. He made approximately $10,000 in
    to get “free” fuel and funds gained from                            photographs, birth certificates, and          fraudulent purchases and was arrested in January on
    fraudulent purchases or schemes. Special                            associated documents, resulting in a          theft charges. The demand amount covers fraudulent
    Agents determined many dishonest postal                             $19,000 loss. Special Agents and the          and unauthorized transactions made on the lost cards
    employees abusing Voyager credit cards                              U.S. Department of State Diplomatic           during 2007 but excludes transactions made by the
    and PINs not only fraudulently purchased                            Security Service (DSS) arrested a             former company driver and the self-employed driver.
    fuel for themselves but fraudulently                                Puerto Rico Letter Carrier in January     ■   An Illinois Letter Carrier resigned from the Postal
    purchased fuel for others in exchange for                           for embezzling passport fees of               Service, in early November, after Special Agents
    cash, which they pocketed. In fact, some                            approximately $7,200. A federal               substantiated an allegation that she stole four Voyager
    individuals frequented truck stops, where                           grand jury indicted the Letter Carrier        credit cards and associated PINs from the postal facility
    they misused stolen Voyager credit cards to                         for misappropriation of postal funds          where she worked. Earlier that month, Special Agents
    refuel trucks that hold 60 to 70 gallons of                         on January 21, 2009.                          and local police arrested the Letter Carrier’s son for
    fuel, in exchange for hundreds of dollars in                                                                      using a fraudulent Voyager credit card. The Letter
    cash per purchase.                                              Financial Fraud —                                 Carrier allegedly allowed several family members and
                                                                    Voyager Credit Card                               friends to use the Voyager credit cards and PINs, for
    While a dishonest postal employee may                                                                             which they paid her 60 percent of each fuel purchase.
    conduct fraudulent activity at the pump, a                      The Postal Service uses approximately
                                                                                                                      These individuals allegedly made more than 750 out-
    dishonest gas station employee may rake in                      219,000 vehicles — one of the largest
                                                                                                                      of-area purchases of approximately $49,000 on the
    fraudulent proceeds behind the register or at                   fleets in the United States — to deliver
                                                                                                                      four cards. Prosecution of the Letter Carrier is pending.
    the credit card machine. In fact, the recent                    mail across the nation. Through a
    periods of higher gas prices created vast                       partnership with U.S. Bank and Voyager        ■   In March, a Texas gas station employee pled guilty to
    opportunities for these individuals to steal                    Fleet, the Postal Service issues one credit       misusing Voyager cards; the plea involved eight counts
    funds using Voyager credit cards and PINs.                      card per vehicle for refueling, routine           for wire fraud, identity theft, and fraud in connection
    For example, higher gas prices meant more                       maintenance, and vehicle washing and              with credit and debit cards. When Special Agents
    postal drivers and postal contractor drivers                    polishing. Under no circumstances are             arrested the employee in July, he had in his possession
    reached their Voyager credit card purchasing                    postal employees or contractors allowed           44 Voyager (eFleet and eFuel) credit card numbers and
    limit more frequently. At a gas station where                   to disclose their personal identification         approximately 50 PINs. Special Agents determined that
    there were no credit card machine readers                       numbers (PINs) to non-postal entities;            from January 2006 through June 2008, the employee
    on the diesel pumps, a driver might rely                        use the card for personal uses; exceed            made approximately $135,000 in fraudulent charges.
    on the gas station employee to call the                         the daily purchase limit without proper           He maintained the PINs for later use.
    Voyager credit card company to request an                       authorization; or transfer purchasing
    increase to the purchase limit. To request                      authority to a non-postal entity. However,    Tort Claims
    the limit increase, the dishonest gas station                   some dishonest postal employees,
                                                                                                                  The Postal Service established the Tort Claims Program
    employee would have access to the Voyager                       contractors, and other individuals misuse
                                                                                                                  to monitor and resolve claims filed against the Postal
    credit card and PIN, which he or she could                      these credit cards for personal gain.
                                                                                                                  Service by customers seeking compensation for injuries or
    retain for misuse, such as occurred in the                      Special Agents investigated 52 cases of
    previously discussed Voyager Fraud case
    involving a Texas gas station employee.




18 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service                                    April 1 – September 30, 2008 | 18
                                                                                                                                  INJURY COMPENSATION FRAUD




losses incurred while using postal facilities. According to      Special Agents initiate criminal
an agreement with the Postal Service’s Law Department,           investigations when they suspect
Special Agents investigate tort claim cases suspected of         individuals or healthcare providers
fraud and cases for which the U.S. Attorney’s Office has         of defrauding the DOL’s Federal
requested an investigation. Following is an example of one       Employees’ Compensation
such case.                                                       Act benefits fund. Criminal
                                                                 prosecutions are an effective
In November, management sent a settlement letter to a            deterrent to fraud and may
Florida customer, offering her approximately $6,700 for          permanently prevent the payment
vehicle damage and personal injuries she sustained in            of additional compensation. Cases
an accident with a Letter Carrier, while denying her civil       that may require administrative
claim for approximately $761,000. Management cited               action are referred to the Postal
evidence that contradicted the customer’s claim of knee          Service and the DOL. Special
and shoulder injuries sustained in the accident. Special         Agents work closely with Injury
Agents observed the customer bartending, reaching with           Compensation Specialists from         The OIG and the Social Security Administration executed a search
both arms, reaching above her head, walking, bending, and        the Postal Service on all phases of   warrant at a New York Clerk’s home and found her in the kitchen
driving. The Postal Service obtained a cost avoidance of         these investigations. Following are   cutting a woman’s hair. (She was allegedly totally disabled from a
approximately $754,000.                                          examples of injury compensation       work related neck injury.) They seized cosmetologist licenses, bank
                                                                 fraud cases investigated.             records, and business cards.
INJURY COMPENSATION FRAUD                                        ■   A former New York Mail
The Postal Service funds workers’ compensation benefits              Processing Clerk, who
for employees who sustain job-related injuries. The                  operated a hair salon business while receiving
monetary and medical benefits paid by the Postal Service             OWCP benefits, pled guilty in November to two
to workers’ compensation claimants totaled more than                 felony charges, one for Fraud in Obtaining Federal
$1.2 billion in 2008. At the end of 2008, the Postal                 Employee’s Compensation, and the second for False
Service’s estimated total liability for future workers’              Statements to Obtain Social Security Administration
compensation costs was nearly $8 billion. Administered               Disability Benefits. The Clerk, who was allegedly
by the U.S. Department of Labor (DOL), the Office of                 totally disabled from a work related neck injury,
Workers’ Compensation Programs (OWCP) provides direct                made false statements to receive about $164,000
compensation to providers, claimants, and beneficiaries.             in workers’ compensation and disability benefits.
The Postal Service later reimburses the OWCP in a process            The DOL removed the Clerk from the periodic rolls,
known as “charge-back billings.”                                     realizing a cost avoidance of approximately $900,000
                                                                     for the Postal Service. The OIG and the Social
The OIG’s mission for injury compensation fraud                      Security Administration executed a search warrant
investigations is both proactive and reactive. Depending on          at the Clerk’s home in March 2007, and found her
the case type, Special Agents focus on the prevention and            in the kitchen cutting a woman’s hair. They seized
deterrence of workers’ compensation fraud and detecting              cosmetologist licenses, bank records, and business
and investigating an allegation of a fraudulent claim.               cards. Special Agents interviewed several individuals
                                                                     who, in exchange for payment, had their hair cut or
The results of OIG investigative efforts during this reporting       styled by the Clerk at her home. Special Agents also
period included $88 million in cost savings or avoidances,           determined the Clerk regularly cut and styled hair at a
18 arrests, and 134 administrative personnel actions,                local nursing home. The Clerk faces a 10-year prison
including removals, suspensions, and letters of warning.             sentence and agreed to pay approximately $180,000
                                                                     in restitution based on the charges.
Injury Compensation — Claimant Fraud
                                                                 ■   In December, a former New York Distribution Clerk
Most employees who receive workers’ compensation                     pled guilty to making false statements to obtain
benefits do so because of legitimate job-related injuries.           federal employees’ compensation and to conceal her
However, a small percentage of postal employees and                  employment. A federal judge sentenced the Clerk to
healthcare providers abuse the system. These schemes                 1 year of probation and ordered her to pay restitution
cost the Postal Service millions of dollars each year in             of approximately $25,600. The Clerk’s guilty plea
compensation payments, medical costs, administrative                 stemmed from an investigation in which Special Agents
expenses, and enforcement costs.                                     observed the Clerk working as a home healthcare
                                                                     assistant, violating her OWCP benefits. While she
                                                                     vacationed in Florida, Special Agents also observed




                                                                                                                                     October 1, 2008 – March 31, 2009 | 19
DELAY, DESTRUCTION, AND THEFT OF MAIL




                                                   the Clerk carrying luggage, loading the luggage in
                                                   and out of a vehicle, holding her hands above her                 Workers’ Compensation Fraud
                                                   shoulders without obvious pain or difficulty, walking             Investigative Results
                                                   without obvious pain or difficulty and without a knee
                                                   brace, all of which exceeded the Clerk’s documented               October 1, 2008 – March 31, 2009
                                                   physical restrictions. In September, the DOL terminated
                                                                                                                     ■    513 fraud investigations resolved
                                                   the Clerk’s benefits, and the Postal Service avoided
                                                   approximately $962,000 in OWCP payments.                          ■    $88,295,624 in compensation
                                                                                                                          payments avoided
                                              ■    A federal judge sentenced a former New York Letter
                                                   Carrier, in January, to 3 years’ probation for working            ■    18 arrests
                                                   numerous jobs while receiving OWCP benefits.
                                                   The judge also ordered the Letter Carrier to pay                  ■    20 indictments
                                                   about $64,000 in restitution to the DOL and the                   ■    16 convictions
                                                   Postal Service. The sentencing stemmed from an
                                                   investigation in which Special Agents determined the              ■    134 personnel actions taken by
                                                   former postal employee — who claimed a debilitating                    postal management
                                                   on-the-job back injury and was unable to perform
                                                   his postal duties —– was active in various business            DELAY, DESTRUCTION, AND
                                                   ventures: a personal training business, real estate,
                                                   coffee sales, and a male escort service. Additionally,         THEFT OF MAIL
A former New York Letter Carrier —                 the Letter Carrier was pursuing a fitness specialist           To protect the mail during all points of delivery,
who claimed a debilitating on-the-                 degree at a local community college. In January, the           Postal Inspectors and Special Agents deploy security
job back injury and was unable to                  DOL terminated the Letter Carrier’s benefits. As a             countermeasures and follow proven investigative protocols.
perform his postal duties —– was                   result, the Postal Service realized a cost avoidance of        Postal Inspectors investigate mail theft by criminals who
active in various business ventures:               approximately $1 million.                                      attack the postal system, including contractors who
a personal training business, real                                                                                transport mail to postal facilities. OIG Special Agents
estate, coffee sales, and a male              OWCP Medical Provider Fraud                                         investigate mail theft by postal employees, as well as
escort service. In January, the DOL           Special Agents investigate allegations of fraud committed           contractors who deliver mail.
terminated the Letter Carrier’s               by medical providers who treat Postal Service OWCP
benefits. As a result, the Postal             claimants. Following is one such case.                              External Mail Theft
Service realized a cost avoidance of
                                              ■    Four qui tam complaints filed against a Pennsylvania           Because mail can contain any number of valuables — not
approximately $1 million.
                                                   pharmaceutical company were investigated jointly by            just jewelry or other expensive items, but personal and
                                                   the OIG and representatives from the Department of             financial information such as credit card applications —
                                                   Health and Human Services, the Office of Personnel             criminals will try to steal it. Postal Inspectors work hard to
                                                   Management, and the Food and Drug Administration               thwart mail theft and proactively educate postal employees
                                                   (FDA) Office of Criminal Investigations. The                   and the public about the endless number of new mail theft
                                                   investigation discovered the company consistently              scheme variations.
                                                   marketed three drugs for uses not approved by the
                                                                                                                  In the first half of FY 2009, Postal Inspectors arrested
                                                   FDA. In October, the pharmaceutical company pled
                                                                                                                  1,239 suspects for mail theft, and 1,092 mail theft
                                                   guilty to distributing misbranded drugs and agreed
                                                                                                                  suspects were convicted in cases originating in this and
                                                   to pay a $40 million fine and forfeit $10 million in
                                                                                                                  prior reporting periods.
                                                   assets to resolve a criminal information. The Postal
                                                   Service received $4 million from the criminal fines.           Volume Attacks. Postal vehicles, collection and relay
                                                   The company also agreed to pay $375 million to                 boxes, apartment mailbox panels, cluster box units (CBUs),
                                                   resolve False Claims Act allegations filed by various          and neighborhood delivery and collection box units
                                                   federal programs and agencies. The Postal Service              (NDCBUs) are targeted by thieves seeking large volumes of
                                                   received approximately $767,000 for civil damages              mail. These “volume attacks” constitute a threat to postal
                                                   and investigative costs for payments made for postal           employees and customers.
                                                   employees on worker’s compensation and who used
                                                   the drugs. The asset forfeiture amount to be paid to
                                                   the Postal Service has yet to be determined.




20 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                    DELAY, DESTRUCTION, AND THEFT OF MAIL




Postal Inspectors report that customers' confidence in the           To correct future problems, Postal Inspectors visited
mail is justified, as volume mail attacks in this reporting          postal facilities in the area and conducted stand-up
period, totaling 1,408, were down nearly 18 percent from             talks on security procedures for employees. They
the same period last year, when 1,716 volume attacks were            advised Letter Carriers to secure mail in the rear
recorded. Postal Inspectors investigate these thefts and             of their vehicles out of view, to always check their
work closely with Postal Service staff to develop and install        surroundings for suspicious activity, and to make sure
neighborhood delivery units with stronger security features.         they lock their postal vehicles.

Following are examples of volume mail thefts investigated        Mail Theft by Contractors
during the reporting period.
                                                                 The Postal Service contracts the movement of some of
■   In October, the leader of a Colorado mail theft ring         the nation’s mail to businesses that work diligently to
    was found guilty at trial on charges of mail theft,          transport mail to postal facilities. Like postal employees,
    counterfeiting securities, possession of implements          these individuals take their responsibilities seriously.
    to counterfeit documents, fraud and related activity         Unfortunately, a small percentage of contractors abuse the
    in connection with ID documents, credit card fraud,          public’s trust. In this reporting period, Postal Inspectors’
    and aggravated identity theft. Prior to his trial, five      investigations of mail theft by contractors who transport
    co-defendants pled guilty and agreed to testify              mail resulted in 41 arrests and 42 convictions.
    against him. Postal Inspectors found the group had
    been breaking into NCDBUs and apartment panels               ■   In December, a former HCR driver in Oklahoma was
    to obtain personal and financial information, which              sentenced to 5 years’ probation and was ordered
    they used to create counterfeit IDs in victims’ names            to pay restitution to the Postal Service of $5,273.
    and then defraud victims and financial institutions.             The sentencing was the culmination of a 9-month
    Postal Inspectors recovered evidence affecting more              investigation by Postal Inspectors for the theft of a
    than 400 victims, who suffered potential losses                  bank remittance.
    exceeding $330,000. The ringleader is scheduled to be        ■   Following several months of investigation, Postal
    sentenced in July 2009 and is facing up to 20 years in           Inspectors arrested an airline baggage handler for
    prison. His co-defendants received sentences ranging             theft or possession of stolen mail. Postal Inspectors
    from 3 years’ probation to 20 months in federal prison.          identified him as one of several suspects who was
■   Following an investigation and arrest by Postal                  receiving credit cards stolen from mail at the George
    Inspectors, four suspects charged in Florida in October          Bush Intercontinental Airport in Texas. He surrendered
    pled guilty to bank fraud. The suspects were part of             to Postal Inspectors in October and was terminated
    an organized ring that stole mail containing checks              from his job. In February, he pled guilty to one count
    from curbside mailboxes. They negotiated the checks              of mail theft.
    using fraudulent IDs, causing losses to victims of nearly    ■   A ramp service clerk at the Honolulu International
    $260,000. A fifth suspect, already in state custody,             Airport was sentenced to 5 years’ probation and 400
    was transferred to federal custody in February. One              hours of community service, and was ordered to pay
    suspect was sentenced in February to 4 months                    restitution of $1,184 in January. Postal Inspectors
    in prison and 8 months of home confinement with                  arrested him in May 2008 for stealing mail containing
    electronic monitoring, to be followed by 4 years of              10 laptop computers and six parcels at an airport
    supervised release. He was ordered to pay restitution            warehouse. The clerk was terminated from his job.
    of approximately $32,900.
■   Postal Inspectors arrested a man in Washington State         Employee Mail Theft
    in February for mail theft, access-device fraud, and         The overwhelming majority of Postal Service employees
    aggravated identity theft. They initiated an investigation   work conscientiously to move the nation’s mail to its proper
    in early October following five volume mail thefts from      destination. Unfortunately, a small number of employees
    postal vehicles. During each incident, the suspect           abuse the public’s trust. It is the job of Special Agents to
    and an associate gained access to postal vehicles by         identify dishonest employees and take proper investigative
    defeating the door locks. Each attack resulted in the        steps to have them prosecuted and removed from the
    theft of one to two trays of mail and several parcels.       Postal Service.
    One theft involved mail addressed to federal, state, and
    local elected officials. Postal Inspectors later arrested
    the second man, and both were indicted and pled
    guilty in March; sentencing was scheduled for June.




                                                                                                                                October 1, 2008 – March 31, 2009 | 21
DELAY, DESTRUCTION, AND THEFT OF MAIL




                                                                                                                  ■   A task force of Special Agents, Postal Inspectors,
                                                                                                                      FBI, and IRS Criminal Investigations Division (CID)
                                                                                                                      agents arrested a New York Letter Carrier and two
                                                                                                                      accomplices for masterminding a massive tax-refund
                                                                                                                      scheme to defraud the IRS of more than $90 million.
                                                                                                                      At the time of arrest, the Letter Carrier had 75 bogus
                                                                                                                      refund checks in his possession. The scheme involved
                                                                                                                      the electronic filing of tens of thousands of federal
                                                                                                                      tax returns. In January, some 8,000 tax returns were
                                                                                                                      electronically filed from the Dominican Republic using
                                                                                                                      Social Security numbers (SSN) assigned to residents
                                                                                                                      of Puerto Rico. The IRS determined the refunds on
                                                                                                                      3,300 of those tax returns, ranging from $2,000
                                                                                                                      to $23,000 and totaling $32 million, were bogus
                                                                                                                      and were never sent out. The refund checks for the
                                                                                                                      remaining returns were mailed to various New York
An Illinois Mail Processing Clerk stole mail (including DVDs and videos) from the workroom floor using                addresses, where they were intercepted from the mail
his “personal” bag. The OIG Special Agent said Postal Service managers must continue to be diligent in                by the Letter Carrier and given to his accomplices,
addressing the usage of personal bags on workroom floors.                                                             who in turn, paid the employee a “per-check fee.”
                                                                                                                      In the Dominican Republic, local authorities arrested
                                                                                                                      19 individuals and seized more than a dozen
                                              Following are examples of cases in which postal employees               computers in relation to the scheme.
                                              stole mail for personal gain.
                                                                                                                  Delay or Destruction of Mail by Employees
                                              ■    In January, Special Agents arrested an Illinois Mail
                                                   Processing Clerk after a one-count felony Information          Special Agents investigate postal employees who delay,
                                                   was filed against him for stealing mail. Later that            desert, or steal mail from the mailstream. The following
                                                   month, the Clerk waived indictment and pled guilty.            cases were investigated during this period.
                                                   He cited his obsessive-compulsive disorder as the              ■   In December, Special Agents arrested a Tennessee
                                                   reason for the thefts. In September, Special Agents                Rural Carrier Associate (RCA) after he was indicted
                                                                               had observed the Clerk                 by a federal grand jury for stealing, delaying, or
                                                                               rifling and stealing mail              destroying mail. Over a 5-year period, the RCA
                                                                               from the P&DC where he                 allegedly stole more than 33,000 First-Class
                                                                               worked. They searched the              mailpieces, including approximately 300 DVDs and
                                                                               Clerk’s residence and seized           six CDs. In September 2007, management alerted
                                                                               approximately 14,600 stolen            the OIG about the RCA’s alleged misconduct. The
                                                                               mail items, including more             RCA resigned from the Postal Service.
                                                                               than 9,300 movie DVDs and
                                                                               numerous video games and           ■   In January, a former Michigan RCA, who stored
                                                                               magazines. On the same day             approximately 10,000 mailpieces in a rented mini
                                                                               as the recovery, the Clerk             storage unit, pled guilty to desertion of the mail. In
                                                                               resigned from the Postal               September 2008, postal management contacted the
                                                                               Service. He faces a 5-year             OIG regarding the stockpiled mail, some of which
                                                                               sentence, a $250,000-fine,             dated back to 2005. The OIG investigation determined
                                                                               and 3 years’ probation.                the RCA was the renter of the storage unit, which
                                                                                                                      was filled with undelivered First-Class and Priority
                                                                                                                      Mail, Periodicals, and Parcel Post addressed to local
                                                                                                                      Michigan residents. Special Agents arrested the RCA
OIG agents were told several thousand pieces of mail was being                                                        after she told them that she placed the mail in the
concealed at a storage facility in Mississippi. A subsequent search                                                   storage unit because she could not deliver it on time.
warrant recovered approximately 22,000 pieces of First-Class Mail                                                     Special Agents returned the mail to the Postal Service
and Standard Mail. The unit’s lease holder later identified as a former                                               for delivery.
Tennesee postal employee who was indicted by a federal grand jury on
five counts of theft or receipt of stolen mail matter.




22 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                   IDENTITY THEFT




IDENTITY THEFT                                                       suspect had opened checking and savings accounts at
                                                                     banks in the Chicago area using fraudulent IDs in the
Identity theft occurs when a criminal steals someone’s               names of identity theft victims. The suspect deposited
identifying information, such as a name, date of birth or            counterfeit checks into victims’ accounts, stole checks
SSN, and uses it to fraudulently apply for credit or take over       from the mail, and withdrew money from victims’
someone’s credit or bank accounts. The Postal Inspection             accounts via ATMs. He also used fraudulent IDs and
Service is the lead agency in investigating incidents of             fraudulent debit cards to buy Postal Service money
identity theft when criminals misuse the nation’s postal             orders. He either deposited the money orders into
system to defraud the American public.                               fraudulent accounts and withdrew the funds, or cashed
                                                                     the money orders at Post Offices. He will be deported
Funded by the Postal Inspection Service, the National                once he completes his prison sentence.
Identity Crimes Law Enforcement (NICLE) improves the
coordination of identity theft investigations between law        ■   In January, Postal Inspectors arrested two suspects
enforcement agencies. It provides a central repository               in New York on charges of conspiracy to commit bank
for identity crime information, allowing law enforcement             fraud and aggravated identity theft. In July 2008,
agencies to learn immediately whether a particular piece of          Postal Inspectors received a tip about the suspects
identification — such as an SSN or bank account — was                related to identity theft, account takeover, and
reported stolen or used elsewhere in the course of a crime.          fraudulent credit application schemes. The suspects
The data is now available to local, state, and federal law           allegedly directed victims’ account information, checks,
enforcement agencies, allowing them to link related cases            and credit cards to various addresses they controlled
across jurisdictions.                                                in the Bronx. Most of the victims had been contacted
                                                                     by fraudulent Internet phishing sites or had home
In the first half of FY 2009, Postal Inspectors arrested             equity lines of credit taken over by the suspects, who
746 suspects, and 787 identity thieves were convicted in             then transferred money into accounts they controlled.
cases from this and prior reporting periods. Following are           Postal Inspectors identified more than 30 victims who
examples of identity theft cases they investigated during            suffered more than $400,000 in losses.
this period.
                                                                 OIG Special Agents also investigate certain identity theft
■   In October, Postal Inspectors and officers from the          cases. For example, in October, Special Agents arrested a
    Houston, TX, Police Department and Ft. Bend County           Michigan Mail Processing Clerk at a gas station where they
    Sheriff’s Office executed a federal search warrant at        saw him swipe a stolen credit card to purchase fuel for
    a suspect’s home. He was later taken into custody            another postal employee. Earlier, Special Agents observed
    and charged with identity fraud and wire fraud. Postal       the Clerk hide mail in his pants while he worked at a
    Inspectors had received a tip from an investment             Michigan P&DC. During a break, the Clerk left the postal
    services firm concerning 20 accounts that were               facility and got into the car of another postal employee who
    compromised by someone who changed address and               drove him to the gas station. Special Agents recovered
    contact numbers for the accounts and then wired the          120 stolen credit cards after searching the Clerk, his
    funds to institutions in Korea and to other U.S. firms.      vehicle, and his home. Special Agents revealed the Clerk
    The investment company suffered losses of more than          was involved in a conspiracy with other postal employees
    $5 million. Postal Inspectors identified the suspect and,    and other individuals to obtain fuel from local gas stations
    during a search of his home, seized computers, cell          using the stolen credit cards. The Clerk charged the
    phones, and numerous incriminating records indicating        individuals 50 percent or less of the fuel retail price, making
    the mail had been used extensively in the course of the      $250 to $750 a day, 5 days-a-week over a 4-month period.
    crime. He pled guilty, and sentencing was scheduled          In February, the Clerk was charged with aggravated identity
    for April.                                                   theft. Special Agents notified the issuing banks and the
■   In November, a Nigerian national was sentenced to            postal customers whose credit cards were stolen.
    41 months in prison and 3 years’ supervised release
    for an identity theft scheme involving the fraudulent
    use of six mailing addresses belonging to some
    30 victims. He was also ordered to pay restitution of
    more than $1.1 million to financial institutions and
    credit card issuers. Postal Inspectors determined the




                                                                                                                                   October 1, 2008 – March 31, 2009 | 23
MAIL FRAUD




                                              MAIL FRAUD                                                          convinced gemstone investors to liquidate their portfolios
                                                                                                                  to overseas buyers. Victims paid money upfront to cover
                                              Countless illegal schemes violate the nation’s first                transfer taxes, customs fees, or performance bond fees,
                                              consumer protection law — the Mail Fraud Statute. As the            but when they demanded the return of their portfolios
                                              agency responsible for fighting criminals who misuse the            or refused to pay yet additional fees, the scammers
                                              postal system to defraud the American public, the Postal            terminated all further communications. This closes out
                                              Inspection Service employs this statute — which remains             a joint investigation conducted by Postal Inspectors and
                                              the most effective tool available to fight fraud — to the           various Canadian law enforcement agencies.
                                              maximum extent possible. The objective of the agency’s
                                              Mail Fraud Program is to ensure public trust in the mail and        In January, Postal Inspectors arrested a New York man in
                                              to protect Americans from fraudulent schemes in which the           connection with a Ponzi scheme in which he was alleged
                                              mail is used.                                                       to have fraudulently solicited approximately $400 million
                                                                                                                  from 5,000 investors via the mail. The man and his
                                              Complex and noteworthy mail fraud cases may include                 brokers allegedly told investors their money would be
                                              new twists on old scams, such as Ponzi schemes, to those            loaned to third-party commercial entities for periods of
                                              involving investments and telemarketing fraud. As the               30 to 77 days. He promised rates of return of between
                                              schemes continue to evolve and scammers’ ranges expand              60 and 80 percent per year and a return of 4 percent
                                              via the Internet, the Postal Inspection Service requests            per month, if investors allowed their funds to be used for
                                              assistance from other law enforcement entities to leverage          2 years. In fact, Postal Inspectors alleged the suspect
                                              resources and maximize expertise. Postal Inspectors                 did not lend funds to commercial entities; instead, he
                                              employ civil and administrative remedies as necessary to            converted $130 million of victims’ money to his personal
                                              combat deceptive mailing practices.                                 use and paid more than $50 million of their money
                                                                                                                  to his brokers. He transferred at least $100 million of
                                              Postal Inspectors also protect postal customers by                  investors’ funds to futures trading firms, without investors’
                                              educating them about mail fraud, which may include                  knowledge, and lost more than $80 million. Postal
                                              investment fraud, mortgage fraud, and lottery or                    Inspectors purported that he used new investors’ money
                                              sweepstakes schemes, all of which were prominent during             to repay earlier investors; when he mailed money to his
                                              the first half of FY 2009.                                          victims, he falsely represented the payments as interest
                                              During this period, Postal Inspectors investigated 2,871            on repaid loans when, in fact, the payments came from
                                              fraud cases, and Postal Inspection Service analysts                 money paid by new victims. The investigation is continuing.
                                              prepared more than 23,402 letters and informative                   Mortgage Fraud. Following a 13-day trial in December,
                                              postcards in response to mail fraud complaints. Postal              a Colorado real estate broker was sentenced to 7 years in
                                              Inspectors also arrested 550 mail fraud suspects, and               federal prison after a jury convicted him on eight counts of
                                              504 were convicted as a result of investigations conducted          mail fraud, five counts of wire fraud, and three counts of
                                              during this period and in prior fiscal years. In some of the        witness tampering. Postal Inspectors found he fraudulently
                                              cases highlighted below, Postal Inspectors and Inspector-           obtained money and property from mortgage companies
                                              Attorneys relied on criminal and administrative remedies            that funded federally insured loans. While doing business
                                              for resolution.                                                     as Reserve Capital Funds, Inc.; Fairfax Homes, Limited;
                                              Investment Fraud. In January, the last of six Canadian              and other entities, the man bought and sold numerous
                                              nationals indicted for a gemstone scam operating by mail            single-family homes in the Denver area at below-market
                                              from Toronto waived extradition and entered a plea in U.S.          prices. After making a few improvements, he sold the
                                              District Court in Harrisburg, PA. He pled guilty to one count       homes months later at substantially higher prices to
                                              of conspiracy and was sentenced to a year of probation; he          unsophisticated, low-income buyers. He mailed victims
                                              was also ordered to pay a $13,120 fine and was deported.            fraudulent paperwork, giving the impression he met
                                              Two of the five other defendants already pled guilty; one           Federal Housing Administration qualifications, and mailed
                                              was sentenced to 10 months’ incarceration and was                   mortgage companies and the Department of Housing and
                                              ordered to pay $66,000 in restitution, and the other was            Urban Development false information about his victims
                                              sentenced to 18 months’ incarceration and was ordered to            to ensure their loans would be approved. The scheme
                                              pay restitution of $107, 230. Postal Inspectors identified          also relied on the mail to send fraudulent mortgage loan
                                              39 victims of the scheme who together lost approximately            applications and paperwork related to property titles, credit
                                              $816,000. Operators of this telemarketing-type “boiler              letters, and payments.
                                              room” sold colored stones and metals, via the mail, as
                                              investments to unsuspecting Americans. The scammers




24 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                            CONTRACT FRAUD




Deceptive Mail. In December, a Cease and Desist Order           ■   A Missouri construction contractor entered into a
was issued against an Indiana man and his credit company            $3.4 million civil agreement with the U.S. Attorney’s
for false representations. The order stipulated that the man        Office, in October, following an OIG investigation
refrain from falsely representing to consumers that they            into the contractor’s false adjustment claims. The
had won a substantial sum of money, which they would                agreement was the result of a civil forfeiture complaint
receive only if they mailed him their personal information,         filed against the contractor by the U. S. Attorney’s
such as dates of birth and credit card numbers. Postal              Office alleging the company violated mail fraud and
Inspectors determined that none of his customers received           money laundering statutes and requested that the
the money as promised. He signed a Consent Agreement                company be ordered to pay the U.S. Government
to Cease and Desist in October. The solicitations were              approximately $2.3 million and related costs. An OIG
mailed from Canada with a return address of a Post Office           investigation uncovered evidence the contractor knew
box in Crane, IN.                                                   the proposed construction site was riddled with large
                                                                    boulders before contract award. The investigation also
CONTRACT FRAUD                                                      revealed the contractor submitted questionable claims
                                                                    for payroll, equipment rental, and material costs
The Postal Service presently manages more than                      as well as unallowable charges. As part of the civil
$40 billion in contracts, ranging from multi-million dollar         agreement, the Postal Service received $1 million as
national contracts for services such as transportation              a result of the forfeiture.                                Special Agents arrested three
networks and IT infrastructures, to local contracts for                                                                        former Texas executives on a
                                                                ■   Prompted by a lead received from management in
supplies and services at individual postal facilities. The                                                                     37-count indictment charging them
                                                                    November, Special Agents investigated the financial
sheer volume of contracts and the huge dollar value                                                                            with violating two postal contracts
                                                                    records of a Florida HCR Carrier who had a materials,
provide opportunities for contractors and employees                                                                            by outsourcing portions of the
                                                                    time, and equipment contract with the Postal Service.
to defraud the Postal Service. The OIG aids the Postal                                                                         contracts to two subcontractors.
                                                                    Management alleged the contractor had been double-
Service by investigating allegations of contract fraud,                                                                        Neither subcontractor hired blind
                                                                    paid for its services. An OIG investigation determined
waste, and misconduct. When contract improprieties                                                                             or severely disabled employees to
                                                                    that from July 2006 to November 2008, the Postal
are documented, Special Agents present the evidence                                                                            produce the postal product, which
                                                                    Service double-paid the contractor $4.3 million via the
for criminal and civil prosecution and administrative                                                                          also violated the terms of contracts.
                                                                    Postal Service Form 5429, Certification of Exceptional
remedies. Contract fraud is defined as any intentional,
                                                                    Contract Service Performed, and the annual contract.
unlawful deception designed to deprive the U.S.
                                                                    As a result, in January, management issued to the
Government of something of value or to secure from
                                                                    contractor a demand letter for the overpayment plus
the United States for individuals a benefit, privilege,
                                                                    interest, approximately $4.5 million.
allowance, or consideration to which they are not entitled.

During this reporting period, the OIG completed 67 contract     Money Laundering
fraud investigations, resulting in 5 arrests and more than      The Postal Inspection Service investigates criminals who
$8 million in funds returned to the Postal Service. Following   attempt to use postal money orders to launder illicit funds
are examples of contract fraud investigations Special           and avoid federal reporting requirements in violation of the
Agents conducted.                                               Money Laundering Control Act and the Bank Secrecy Act.
                                                                Illicit proceeds may include money gained through narcotic
■   In October, Special Agents of the OIG, FBI, U.S. Army
                                                                sales, smuggling illegal aliens, tax evasion, or selling
    Criminal Investigative Command, and General Services
                                                                counterfeit merchandise. During the first half of FY 2009,
    Administration arrested three former Texas executives
                                                                Postal Inspectors arrested 25 suspects on charges related
    whose company violated postal contracts. Special
                                                                to money laundering, and 53 convictions were reported
    Agents arrested the trio on a 37-count indictment
                                                                during the same period.
    charging the former executives with conspiracy, theft
    of program funds, false statements to obtain credit,        In one example from the reporting period, Postal Inspectors
    false statement, bank fraud, mail fraud, and wire           initiated an investigation of a couple based on a review       An OIG investigation uncovered
    fraud. The OIG investigation revealed the company           of the Postal Service’s Bank Secrecy Act database. They        evidence a contractor knew the
    violated two postal contracts by outsourcing portions       alleged that, from 2006 through 2007, the suspects had         proposed construction site was
    of the contracts to two subcontractors. Neither             purchased about 1,600 Postal Service money orders worth        riddled with large boulders before
    subcontractor hired blind or severely disabled              approximately $1.5 million. By splitting the purchases, the    contract award. The investigation also
    employees to produce the postal product, which also         couple kept each transaction below the $3,000 reporting        revealed the contractor submitted
    violated the terms of contracts. The OIG investigation      threshold, so no financial reports were required. Postal       questionable claims for payroll,
    determined the Postal Service overpaid the company          Inspectors alleged the couple would make multiple trips        equipment rental, and material costs
    approximately $290,000.                                     each day to buy the money orders. The pair was indicted        as well as unallowable charges.




                                                                                                                               October 1, 2008 – March 31, 2009 | 25
HOMICIDES, ASSAULTS, AND THREATS




                                              in November in the Southern District of Texas on 20 counts              state criminal and motor vehicle violations. He remains
                                              related to structuring the purchases of Postal Service                  in custody on a $500,000 bond and has resigned from
                                              money orders.                                                           the Postal Service.
                                                                                                                  ■   Postal Inspectors arrested a man in January for
                                              HOMICIDES, ASSAULTS,                                                    violating a protective order issued in October after he
                                              AND THREATS                                                             twice threatened a Postmaster in Puerto Rico. The case
                                                                                                                      began in 2007, when the man entered the Post Office
                                              The Postal Inspection Service is committed to ensuring                  and began yelling obscenities and throwing items,
                                              employee safety in the workplace. Postal Inspectors                     such as small stones and coins, over the counter at the
                                              investigated 270 postal-related assaults and credible                   Postmaster. Following the recommendations of a Postal
                                              threats during the first half of FY 2009, down from 398                 Inspector, the Post Office installed a Plexiglas window
                                              in the previous fiscal year, and arrested 138 suspects.                 at the counter. In October 2008, the Postmaster
                                              Postal Inspectors seek prosecution in assault cases,                    reported a second visit by the suspect, who repeated
                                              when appropriate.                                                       his earlier behavior, but left before police and Postal
Here is the tax form used in
                                                                                                                      Inspectors arrived. Postal Inspectors filed a formal
the fraud.                                    To ensure employees have a safe place to work, the Postal
                                                                                                                      complaint against him and obtained a protective
                                              Service relies on several proactive strategies and tools for
                                                                                                                      order banning him from approaching the Postmaster.
                                              reducing workplace violence. Integral to this effort are its
                                                                                                                      On the morning of January 26, the suspect violated
                                              Threat Assessment Teams (TATs), which operate at each
                                                                                                                      the protective order and threatened the Postmaster.
                                              postal district. TATs use a cross-functional, multidisciplinary
                                                                                                                      Postal Inspectors and police presented him with a
                                              approach to assess and manage risks, help reduce
                                                                                                                      court summons for violating the protective order. He
                                              incidents of inappropriate behavior, and resolve conflicts.
                                                                                                                      failed to appear in court, and a warrant was issued
                                              In addition to conducting investigations, Postal Inspectors             for his arrest. Postal Inspectors and police arrested
                                              serve as advisors to the TATs by assisting them in                      him, and he was remanded to custody at the Bayamon
                                              assessing situations, determining the risk of violence,                 Correctional Facility. Bail was set at $20,000.
                                              and developing risk-abatement plans. Another prevention
                                              strategy used by both Postal Inspectors and postal                  OFFICIAL MISCONDUCT
                                              supervisors is "stand-up" talks on violence prevention,
                                              which they present to employees at postal facilities.               Misconduct on the part of Postal Service employees
                                              Postal Inspectors also offer a video they produced, titled          includes: misuse of Postal Service computers, destruction
                                              "Workplace Violence: Stop it Before it Happens," as an              or theft of Postal Service property, falsification of official
                                              additional tool to help employees learn how to resolve              documents and forgery, theft of funds, abuse of authority,
                                              conflicts before they escalate to violence.                         sabotage of operations, narcotics usage or sale of
                                                                                                                  drugs while on duty, and alcohol abuse. Following are
                                              Following are investigations conducted during the first half        few examples of cases the OIG investigated involving
                                              of FY 2009.                                                         employee misconduct.

                                              ■    On the morning of October 24, Postal Inspectors                ■   In October, a former Pennsylvania Letter Carrier pled
                                                   were notified of a shooting involving a Maintenance                guilty to one count of Theft by Deception and one count
                                                   Mechanic who worked at a Connecticut P&DC.                         of insurance fraud. A Pennsylvania court sentenced the
                                                   While on official duty, the Mechanic allegedly drove               Letter Carrier to 5 years’ probation and ordered him
                                                   a postal van to the home of a man he suspected of                  to pay more than $50,000 in restitution to the Postal
                                                   being involved with his girlfriend. The Mechanic fired             Service. In an investigation conducted with a local
                                                   several shots at the man, who was sitting in a car.                police department, Special Agents revealed the Letter
                                                   The victim raced off in the car and was unhurt. The                Carrier took extended sick leave and leave without pay
                                                   Mechanic drove back to work, dropped off the postal                from the Postal Service (last day of work was June
                                                   van, and drove away in his personal vehicle. The man               13, 2006) while attending a police academy and later
                                                   called police, who notified Postal Inspectors of the               working full time for a police department. Management
                                                   incident. Postal Inspectors and local police immediately           removed the Letter Carrier from the Postal Service in
                                                   responded to the P&DC and secured the facility.                    February 2007.
                                                   State police found the Mechanic more than 40 miles             ■   Colorado Special Agents arrested two postal employees
                                                   away and followed him in a high-speed chase before                 and one former postal employee, in November, after
                                                   stopping him at a road block. A revolver was recovered             they were indicted for their involvement in a tax
                                                   at the scene. The Mechanic was taken to a hospital for             fraud scheme; one postal employee was removed in
                                                   psychological evaluation and was later charged with




26 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                EXECUTIVE INVESTIGATIONS AND INTERNAL AFFAIRS




    March for Unacceptable Conduct. The trio worked at a      Generally, the misconduct is a violation of law, rule, or
    company (a side job for the full-time postal employees)   regulation, and/or a direct threat to public interest —
    that allegedly fraudulently amended state and federal     fraud, health, safety violations, and corruption are just a
    tax returns for 66 postal employees. The trio utilized    few examples. The employee must reasonably believe his
    the company’s tax services and provided fraudulent        or her employer has committed a violation of some law,
    tax return checks to postal employees while on duty       rule, or regulation; testify or commence a legal proceeding
    and on postal property. Five others were also indicted    on the legally protected matter; or refuse to violate the law.
    and arrested in connection with this scheme. All 66
    employees receiving refunds were required to give         Allegations received ....................................................96
    the company 50 percent of their fraudulent refunds,       OIG investigations initiated ..........................................20
    which ranged from hundreds of dollars to more than
                                                              Investigations closed with no finding of retaliation or
    $16,000 per employee. All 66 employees denied
                                                                   deferred to other adjudicative body ......................17
    knowledge of the fraudulent nature of the tax returns,
    although they had signed the amended forms. This          Allegations closed with no action .................................73
    investigation was conducted jointly with the IRS’ CID     Open investigations ....................................................23
    and the Colorado Department of Revenue, Criminal Tax
    Enforcement Section. In addition to the indictments in    OIG found reprisal ........................................................0
    this case, the IRS assessed $723,000 in back taxes,
    penalties and interests to individuals involved in this   ILLEGAL DRUGS AND
    scheme, and the Colorado Department of Revenue also       NARCOTICS TRAFFICKING
    assessed the participants approximately $614,000 in
    tax repayments, interest and penalties.                   Postal Inspectors investigate mailings of illegal drugs and
                                                              drug proceeds, and Special Agents investigate postal
■   In January, management removed three New York             employees who use or sell narcotics while on postal
    Letter Carriers from the Postal Service after Special     property or on duty.
    Agents determined one Letter Carrier paid the
    others to deliver mail on his route while he worked       Narcotics Trafficking
    at a horse racetrack and an upholstery business.
    Special Agents also determined the Letter Carrier         The Postal Inspection Service interdicts mailings of illegal
    falsified Managed Service Point scans and Time            drugs and drug proceeds to protect employees and
    and Attendance Collection System clock rings to           customers from the violence related to drug trafficking
    perpetuate his scheme.                                    and to preserve the integrity of the mail. Postal Inspectors
                                                              also investigate organized narcotic distribution groups, and
                                                              individuals, who use the mail to traffick in illegal drugs.
EXECUTIVE INVESTIGATIONS
AND INTERNAL AFFAIRS                                          Often working with other law enforcement officials, Postal
                                                              Inspectors arrested 651 suspects for drug trafficking via the
The OIG’s Office of Investigations conducts criminal and
                                                              mail in this reporting period. Their investigations resulted in
administrative investigations of Postal Service executives,
                                                              the seizure of approximately 12.2 tons of illegal narcotics
and OIG and Postal Inspection Service personnel, as well
                                                              found in the mail, as well as more than $1.9 million in cash
as whistleblower reprisal investigations.
                                                              and monetary instruments related to ongoing investigations.
                                                              Following are examples of their investigations from the
Whistleblower Reprisal Activity                               reporting period.
The Postal Service is not covered by the Whistleblower
Protection Act, but has its own policy governing              ■    Postal Inspectors initiated an investigation of three
whistleblower retaliation. The policy prohibits retaliation        Arizona residents suspected of mailing marijuana to
against an employee because the employee (or applicant             Florida, Michigan, and New York. They intercepted
for employment) disclosed information the employee                 numerous parcels containing marijuana as well
reasonably believes concerns: 1) a violation of any                as at least 65 suspicious mailings weighing more
rule, law or policy, or 2) a gross waste of funds, gross           than 800 pounds. Postal Inspectors conducted a
mismanagement, abuse of authority or a substantial and             surveillance of three suspects seen mailing suspect
specific danger to public health or safety.                        drug parcels to New York from various Arizona Post
                                                                   Offices. They obtained a federal search warrant
                                                                   and found the intercepted parcels to contain nearly




                                                                                                                                             October 1, 2008 – March 31, 2009 | 27
ILLEGAL DRUGS AND NARCOTICS TRAFFICKING




                                                   45 pounds of marijuana. In January, Postal Inspectors          ■   Postal Inspectors on the Organized Crime Drug
                                                   in New York executed a controlled delivery of two                  Enforcement Task Force (OCDETF), along with Special
                                                   suspect drug parcels mailed from Arizona, while in                 Agents from the Drug Enforcement Administration and
                                                   Arizona they executed a search warrant at a home                   IRS CID, identified five suspects for distributing drugs
                                                   believed to be the source of the mailings. Postal                  via the mail. The five men were indicted in February
                                                   Inspectors seized more than 50 Postal Service, FedEx,              on charges of conspiracy to distribute, and possession
                                                   and DHL mailing receipts, as well as paraphernalia                 with the intent to distribute, the illegal drug known
                                                   known to be used to mail illegal drugs. They arrested              as Ecstasy and marijuana. Postal Inspectors from
                                                   two men in Arizona, one on four counts of possessing               three field divisions working with other federal agents
                                                   marijuana for sale and the other for misconduct                    executed 11 search warrants at suspects’ homes and
                                                   involving a weapon and possessing marijuana. Charges               arrested 12 suspects associated with the scheme in
                                                   against a third suspect are pending.                               California, Tennessee, and Kentucky on January 26.
                                                                                                                      Two California suspects planned to leave the country
                                              ■    Postal Inspectors in New York investigated a cocaine-
                                                                                                                      later that day and had already purchased tickets and
                                                   trafficking ring responsible for mailing hundreds of
                                                                                                                      obtained passports to travel to Laos. Investigators
                                                   kilograms of cocaine from Puerto Rico to New York
                                                                                                                      alleged that the men conspired to mail Ecstasy and
                                                   via Express Mail service. They arrested one of the
                                                                                                                      marijuana to Tennessee and Kentucky, and had
                                                   ringleaders in January, who allegedly used his position
                                                                                                                      received at least $150,000 as payment (via the mail)
                                                   as superintendent of multiple Bronx, NY, apartment
                                                                                                                      for nearly 5,000 Ecstasy pills and several shipments of
                                                   buildings to help move the drugs. The ringleader
                                                                                                                      marijuana. More than 200 mailings were linked to the
                                                   purportedly had drug packages mailed to vacant
                                                                                                                      ring. The defendants face a maximum of 20 years in
                                                   apartments, where ring members waited for delivery.
                                                                                                                      prison and a fine of $1 million for their involvement in
                                                   Postal Inspectors executed a search warrant at the
                                                                                                                      interstate drug trafficking activities.
                                                   ringleader’s home in October and seized approximately
                                                   $20,000 in cash, along with a handgun. Also in
                                                   October, U.S. Marshals arrested a second suspect after
                                                                                                                  Employee Drug Investigations
                                                   he was allegedly found to receive via the mail more            Special Agents investigate postal employees selling
                                                   than 27 kilograms of cocaine; he was also suspected            narcotics while on postal property or while on duty.
                                                   of mailing Express Mail parcels from Puerto Rico to            Information on the possession or personal use of illegal
                                                   ring members in New York. Postal Inspectors identified         drugs by postal employees is referred through management
                                                   the second suspect through fingerprints recovered on           to the Employee Assistance Program for attention. Illegal
                                                   two Express Mail boxes.                                        drugs in the workplace can negatively impact employee
                                                                                                                  productivity and safety, affect employee judgment and
                                                                                                                  increase stress levels, leading to acts of violence or hostility.
                                                                                                                  Use and sale of narcotics on duty by employees can also
                                                                                                                  contribute to other crimes such as theft, embezzlements,
    HOW MUCH IS YOUR JOB WORTH?                                                                                   and fraudulent workers’ compensation claims.
    Crime prevention is the responsibility of every postal employee. To get the word out,                         For the 6-month period, Special Agents investigated
    Chicago’s OIG Special Agent in Charge teamed up with management in the Great Lakes                            54 cases of postal employees suspected of possessing
    Area and the OIG Communications team to create, “How Much Is Your Job Worth,” a short                         or using illegal drugs on duty, and 19 employees were
    video highlighting OIG cases and stressing the preservation of integrity within America’s                     removed from the Postal Service. Following are examples
    postal system.                                                                                                of OIG investigations of narcotics-related offenses by postal
                                                                                                                  employees.
    The video includes re-enactments of past investigations conducted by Special Agents
    from the Great Lakes Area to educate viewers on the consequences of financial                                 ■   In October, in a joint investigation with Postal
    embezzlements, mail thefts, time and attendance frauds, on-the-job drug use, and other                            Inspectors and a Pennsylvania police department,
    misconduct issues.                                                                                                Special Agents arrested a Letter Carrier for possession
                                                                                                                      of marijuana. The Letter Carrier attempted to deliver
    In the video, District Managers from each of the nine Great Lakes clusters are featured                           parcels he knew contained 64 pounds of marijuana
    discussing the importance of abiding by rules and regulations. The Special Agent in                               in exchange for payment. In November, management
    Charge also appears in the video and discusses what happens when employees cross the                              placed the Letter Carrier in an off-duty status. Federal
    line and violate the law.                                                                                         prosecution is pending.
    With support from the Great Lakes Area Vice President, the video will be shown to every
    employee in the area.




28 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                     ROBBERIES




■   In November, based on information from postal               ■   On April 7, 2008, a man entered the back of the
    customers, Special Agents and local police officers             Bergen Station Post Office in Jersey City, NJ, and held
    arrested a Wisconsin Letter Carrier after she told them         three female employees at gunpoint. He forced the
    she had cocaine in her purse. She also told the law             women into the safe and then fled with stolen cash.
    enforcement officers that she had purchased $100                On May 14, a federal arrest warrant was issued for the
    worth of cocaine from a dealer, gave part of it to her          suspect, but he remained a fugitive in the Atlantic City
    daughter and smoked the rest, all while on duty. Earlier,       area until Postal Inspectors located and arrested him
    Special Agents and local police officers observed               on August 7. The suspect pled guilty in February to the
    the Letter Carrier enter the cargo area of her postal           armed robbery of a Post Office.
    vehicle and close the door. When they opened the
                                                                ■   On December 3, a Letter Carrier was robbed and
    vehicle’s door, they saw the Letter Carrier sitting in
                                                                    assaulted at gunpoint while attempting to enter his
    the rear of the vehicle with a lighter in her hand and
                                                                    personal vehicle parked on the employee lot at a postal
    smoke emanating from her mouth. In March, she was
                                                                    annex in California. The Letter Carrier sustained minor
    sentenced to 1 year in jail and 3 years’ of probation
                                                                    injuries and was robbed of personal items, including
    after she pled guilty to one count of possession and
                                                                    his vehicle. Postal Inspectors responded to the scene
    one count of intent to distribute cocaine.
                                                                    and determined the incident had been captured on a
■   In March, a New York Metro area Sales and Service               surveillance video. They recovered the Letter Carrier’s
    Distribution Associate and Letter Carrier were                  vehicle and, on December 8, learned the suspect
    sentenced to 5 years’ probation after both pled                 had carjacked another vehicle at gunpoint. While the
    guilty for possession of marijuana. Special Agents              suspect sat in the second stolen car counting money
    and local police arrested the pair in August 2008               taken during the carjacking, he was approached by two
    after discovering 56 pounds of marijuana in the                 men. An altercation broke out and the suspect shot and
    Associate’s vehicle. Earlier, Special Agents and local          severely wounded both men, then fled the scene. Law
    police observed the Associate give three parcels to             enforcement officers saw the suspect fleeing and gave
    the Letter Carrier, who took them on his route where            pursuit, until the suspect crashed his vehicle. Police
    the Associate later retrieved them. The parcels were            arrested the man, who was charged with seven counts,
    mailed from a California address to fake New York               including assault with a deadly weapon and unlawfully
    addresses as their destination. The Associate told              driving or taking a vehicle.
    Special Agents and local police that a third party paid
                                                                ■   In July 2008, a Letter Carrier standing at the rear of
    him $200 for each parcel he collected at the Post
                                                                    his postal vehicle in California was approached by two
    Office and delivered to the third party. In turn, the
                                                                    men who shouted at him to move away. One of the
    Associate paid the Letter Carrier $100 for each parcel
                                                                    men seemed to have a weapon, so the Letter Carrier
    he helped deliver. In 2007, they delivered two to three
                                                                    complied with their demands. After grabbing several
    parcels on approximately 25 occasions.
                                                                    containers of mail, the men jumped into a Ford pickup
                                                                    driven by a cohort and took off. The Letter Carrier
ROBBERIES                                                           provided a detailed description of the suspects and a
Robberies pose a threat to postal employees, jeopardize             partial license plate number to Postal Inspectors, who
the public’s trust in the mail, and undermine the financial         broadcast the information over a police radio band.
integrity of the Postal Service. Thieves who attack Letter          Local police caught sight of the car and attempted
Carriers seek mail containing valuables — such as                   a felony car stop. The suspects failed to yield, and
jewelry, checks, or financial information. Those who target         officers began a high-speed pursuit while Postal
Postal Service facilities are usually after cash and money          Inspectors monitored the situation. The suspects’ car
orders. During the first half of FY 2009, the Postal Service        crashed approximately seven miles from the crime
experienced 30 robberies or attempted robberies of postal           scene, and they fled from the car. Postal Inspectors
employees or Post Offices.                                          and officers set up a Command Post and requested
                                                                    additional officers, K-9s, and air support. Along with
The investigation of robberies continued to be a priority for       Postal Inspectors, more than 50 law enforcement
Postal Inspectors as shown in the following examples from           officers from seven jurisdictions assisted over the
the first half of FY 2009.                                          next 4 hours, searching a heavily wooded area.
                                                                    They captured two suspects hiding in the brush, and
                                                                    the third remained a fugitive. On November 6, one




                                                                                                                               October 1, 2008 – March 31, 2009 | 29
BURGLARIES




                                                   man was sentenced to 46 months in federal prison               substances, a response by Postal Inspectors ensure
                                                   and 3 years’ supervised release, and the other was             employees can depend on having a safe and secure
                                                   sentenced to 37 months in federal prison with 3 years’         workplace and that postal facilities are kept open rather
                                                   supervised release.                                            than being needlessly evacuated. The result is fewer lost
                                                                                                                  workhours, better employee morale and productivity, and
                                              BURGLARIES                                                          improved delivery performance for the Postal Service.

                                              Postal Inspectors in the first half of FY 2009 reported             During this period, Postal Inspectors delivered more than
                                              57 burglaries at postal facilities nationwide. Due to               656 educational seminars to employees, business owners,
                                              increased security countermeasures and aggressive                   and other law enforcement and government agencies
                                              investigations, roughly 61 percent of burglaries in the             addressing mail safety and handling protocols.
                                              past reporting period resulted in only minor losses of less
                                              than $1,000.                                                        The results have been dramatic — the number of
                                                                                                                  unnecessary postal facility evacuations were reduced by
                                              ■    Postal Inspectors responded to a burglary and what             29 percent from the same period last year. The change
                                                   they deemed a suspicious fire at a Kansas Post Office          translated to reductions in lost workhours (fewer than
                                                   in July 2008. They determined someone had stolen               7.6 percent) in delayed mail and in operating costs
                                                   a digital postal scale and personal items belonging to         associated with evacuations. Further, unnecessary requests
                                                   the Postmaster. Postal Inspectors canvassed the area           for emergency responses by local first responders were
                                                   and, after distributing reward posters to residents and        reduced, freeing responders to be available in the event of
                                                   businesses, they identified and arrested a suspect in          other emergencies.
                                                   March. He was charged with two counts of burglary,
                                                   three counts of criminal damage to property, and two           Suspicious Substances in the Mail
                                                   counts of felony theft.
                                                                                                                  Postal Inspectors respond rapidly to reports of unidentified
                                              ■    A Florida Post Office was burglarized in late December         substances in the mail and threats involving chemical or
                                                   2007 and again in January 2008. Postal Inspectors              biological material. Although the incidents may not involve
                                                   determined two men had stolen mail containing checks           criminal intent, a rapid response ensures that Postal
                                                   and money orders, some of which they were able to              Inspectors are on hand at the earliest opportunity when
                                                   cash. Postal Inspectors located and arrested one of the        mail is intentionally used to convey chemical, biological,
                                                   men in March 2008. He pled guilty and was sentenced            radiological, or explosive substances.
                                                   to 2 years in prison. They arrested his cohort in
                                                   February, and the man is being held without bond.              Postal Inspectors trained as Dangerous Mail Investigations
                                                   Losses caused by the fraudulent transactions totaled           Specialists use screening equipment, along with
                                                   about $14,622.                                                 established threat-assessment protocols, to respond to mail
                                                                                                                  and mail facilities reporting suspicious substances. They
                                              DANGEROUS MAIL                                                      determine whether the substances are hazardous and could
                                                                                                                  pose a threat to postal employees, customers, or facilities.
                                              INVESTIGATIONS
                                              Dangerous mail refers to mail containing explosives or              During the reporting period, Postal Inspectors responded
                                              biological, chemical, or radiological substances. Postal            to 1,748 incidents nationwide involving unidentified
                                              Inspectors receive specialized training and equipment to            suspicious powders and liquids reported by postal
                                              address these threats and to protect postal employees,              employees, customers, or other federal agencies.
                                              customers, and the mail system. They develop protocols              Their investigations resulted in eight arrests and seven
                                              for, and coordinate responses to, reports of alleged or             convictions (some from cases in prior reporting periods).
                                              suspected dangerous items in the mail or at mail facilities.        The unidentified substances were found in the Postal
                                              The Postal Inspection Service also partners with other              Service’s critical infrastructure, at postal facilities, or in the
                                              agencies in the homeland security community and assists             mail. Postal Inspectors determined that all of the suspicious
                                              with national security programs.                                    substances reported were nonhazardous material such as
                                                                                                                  talcum powder or detergent.
                                              The Postal Inspection Service’s screening program has
                                              proven to be enormously successful for the Postal Service.
                                              While the majority of incidents involve nonhazardous




30 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                   DANGEROUS MAIL INVESTIGATIONS




Following are examples of suspicious substance
investigations during the reporting period.
■   Postal Inspectors and other members of the Joint
    Terrorism Task Force in Sacramento, CA, arrested
    a man in October for allegedly mailing 120 letters
    containing hoax anthrax threats to media and news
    outlets, congressional offices, and McDonald’s and
    Starbucks stores nationwide. The letters contained
    a compact disk labeled “Anthrax Shock and Awe
    Terror,” with a small packet attached, marked “Anthrax
    Sample.” Task force members had contacted the man
    in January 2007 about a similar letter he mailed to
    the Sacramento News and Review, which claimed to
    contain anthrax. He voluntarily agreed not to mail other
    threats. On October 27, however, staff at the Atlantic
    Monthly magazine in Washington, DC, received a
    threatening letter that bore the man’s return address,
    and similar letters were mailed throughout that
    week, resulting in hazmat responses by the Postal
    Inspection Service, FBI, and other agencies. At the
    time of his arrest, he was preparing to mail additional
    threatening letters. He appeared in U.S. District Court     Miami Postal Inspectors worked with postal managers and members of the Miami-Dade Police Department
    in Sacramento and was released on a $25,000 bond,           (MDPD) Bomb Squad to conduct a mail bomb test scenario at the Postal Service’s Miami International
    on the condition that he was prohibited from using          Service Center (ISC). The drill tested procedures for a full evacuation of the ISC, and Bomb Squad members
    the mail (except for personal correspondence). On           used robots to remove a parcel mocked up as an IED and to conduct a controlled blast of the parcel.
    November 3, he was charged with 10 counts of mailing
    an anthrax hoax, one count of transferring a biological     ■   Following a guilty plea in November, a man was
    agent or toxin for use as a weapon, and three counts of         sentenced in January to 7 years in prison and 3 years’
    mailing threatening communications. He pled not guilty,         supervised release for mailing threatening letters.
    and a trial was scheduled for August. As members                Postal Inspectors and FBI Special Agents found that,
    of the Joint Terrorism Task Force, Postal Inspectors            between February and April 2007, he had mailed
    were able to promptly alert their colleagues across the         letters from the Indiana Department of Correction,
    country about the hoax mailings, ensuring there was             where he was an inmate, containing threats to kill two
    no nationwide panic related to the incidents.                   judges and court staff. The letters contained a powdery
■   In February Postal Inspectors and FBI Special                   white substance as well as razor blades.
    Agents arrested a man in New Mexico based on an
    investigation of the October mailing of 65 threatening      Suspicious Items in the Mail
    letters, 64 of which contained an unknown substance,        Dangerous Mail Investigations Specialists also respond to
    to offices of Chase Bank, the Federal Deposit Insurance     reports of suspicious items in the mail, such as mail bombs
    Corporation (FDIC), and the Office of Thrift Supervision.   or improvised explosive devices (IEDs). Fortunately, mail
    Postal Inspectors and FBI Agents executed search            bombs are exceptionally rare. Over the past 6 months,
    warrants on a storage unit and a vehicle related to         Postal Inspectors reported no incidents involving IEDs sent
    the man and recovered evidence of the mailing. The          via the mail.
    man claimed he mailed the letters after the FDIC was
    named receiver of his bank, Washington Mutual Bank,         If a mail bomb detonates, the life and safety of those in
    and the value of his stock fell to less than $1 per         the vicinity of the explosion are the first priorities of Postal
    share, causing him about $63,000 in losses. He was          Inspectors and other responders. Once these priorities are
    indicted on February 24 and pled guilty on March 16 to      addressed, Postal Inspectors secure the crime scene and
    two counts, mailing threats and hoaxes and mailing a        process the area for evidence.
    bomb threat.




                                                                                                                                        October 1, 2008 – March 31, 2009 | 31
DANGEROUS MAIL INVESTIGATIONS




                                              In the first half of FY 2009, Postal Inspectors responded to            well as a typewriter used to write the threatening
                                              847 incidents of explosive devices placed in private mail               letters. They also seized a typewriter ribbon bearing
                                              receptacles, hoax bomb devices, suspicious items found                  the impression of the wording used in the letter
                                              in postal facilities or equipment, and mailed explosive                 mailed to the FBI. Investigators determined the couple
                                              devices. Their investigations resulted in 89 arrests and 97             began manufacturing and mailing the devices when a
                                              convictions (some from cases in prior reporting periods).               restaurant failed to renew their contract for window-
                                              Most of the incidents involved false alarms or items                    cleaning services.
                                              inadvertently left behind by customers; the remainder
                                                                                                                  ■   A Florida man was sentenced in December to 25 years
                                              involved hoax devices or homemade explosives used to
                                                                                                                      in prison and 3 years’ probation for mailing firearms
                                              vandalize mailboxes. Postal Inspectors investigate even the
                                                                                                                      from Florida to Puerto Rico. During sentencing,
                                              threatened use of dangerous material in the mailstream
                                                                                                                      Postal Inspectors and ATF Special Agents testified
                                              and other miscellaneous misuses of the mail. Following are
                                                                                                                      as to the severity of the crimes committed by the
                                              examples of their investigations of suspicious items during
                                                                                                                      man, who headed a firearms trafficking ring. Postal
                                              the reporting period.
                                                                                                                      Inspectors showed photos of weapons seized in Florida
                                              ■    A Kansas man pled guilty in February to destruction                and Puerto Rico while executing search warrants
                                                   of government property by means of an explosive; he                of packages he mailed, including high-powered
                                                   agreed not to contest or appeal his sentencing, which              semiautomatic weapons, AK-47 rifles, and handguns
                                                   carries a mandatory minimum of no less than 5 years’               with high-capacity magazines. Already sentenced in the
                                                   imprisonment. The investigation began in November,                 case were 11 ring members, who received terms of up
                                                   when Postal Inspectors, agents from the Bureau of                  to 14 years in prison. The judge imposed the maximum
                                                   Alcohol, Tobacco, Firearms, and Explosives (ATF), and              penalty allowed under sentencing guidelines for the
                                                   Lawrence, KS, Police Officers responded to a report                ringleader, noting he was concerned for “the safety and
                                                   of an explosion of an IED that destroyed a Postal                  tranquility of the people living in the Commonwealth
                                                   Service parcel locker and cluster box in the area. It also         of Puerto Rico.” The case, which became known as
                                                   caused significant damage to a nearby vehicle. Postal              Operation Tropical Firepower, uncovered the trafficking
                                                   Inspectors were able to link the man to that incident as           of more than 200 weapons.
                                                   well as multiple other IED explosions in Lawrence. They
                                                   executed a search warrant on his home and seized 56            Mail Screening at National
                                                   IEDs, a large bag of potassium perchlorate, a coil of          Special Security Events
                                                   fuse cord, and videos documenting his use of IEDs.
                                                                                                                  The Department of Homeland Security (DHS) designates
                                              ■    Following guilty pleas filed in March 2008, a husband          certain public events as National Special Security Events.
                                                   and wife were sentenced in November on charges                 The events receive this designation because they are seen
                                                   of manufacturing, mailing, and placing IEDs in South           as attractive targets for terrorists or assassins due to their
                                                   Carolina and North Carolina. The husband was                   visibility or political connection.
                                                   sentenced to serve 8 years and 9 months in prison,
                                                   and his wife was sentenced to serve 5 years and 6              During the first 6 months of FY 2009, Postal Inspectors
                                                   months in prison. Both were ordered to participate             were designated as members of the operational security
                                                   in a mental health treatment program following their           plan for the National Football League’s Super Bowl XLIII.
                                                   release, as well as 3 years’ supervised probation              The Postal Inspection Service was tasked with providing
                                                   and, further, must have no contact, direct or indirect,        security for mail and mail-related matter at selected
                                                   with any of their victims. The case began in February          sites, and with providing investigative and intelligence
                                                   2005, when Postal Inspectors and other members of              support during the event. Postal Inspectors coordinated
                                                   a Joint Terrorism Task Force investigated a package            mail-screening activities for the four largest carriers: the
                                                   containing an IED delivered to a restaurant in Rock Hill,      Postal Service, the United Parcel Service, FedEx, and DHL
                                                   SC. They linked three additional IEDs mailed by the            International. They additionally coordinated mail-screening
                                                   couple to financial institutions and private citizens in       for smaller messenger and courier services with the
                                                   2006 and 2007, as well as threatening letters mailed           Secret Service.
                                                   to a financial institution and an FBI office. One letter
                                                   indicated a bomb would be detonated at the Charlotte-          Postal Inspectors assigned to the event performed these
                                                   Douglas International Airport, in March 2007. Postal           activities as part of their work with the FBI’s National Joint
                                                   Inspectors and other investigators executed a search           Terrorism Task Force and their Intelligence Operations
                                                   warrant at the couple’s home and found numerous                Center, as well with DHS’s National Operations Center.
                                                   items connecting them to the crime, including
                                                   materials used to make the destructive devices as




32 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                        CHILD EXPLOITATION VIA THE MAIL




CHILD EXPLOITATION                                              ■   Following a federal indictment in December, Postal
VIA THE MAIL                                                        Inspectors arrested a California man at his home
                                                                    for producing child pornography, receiving child
Postal Inspectors arrested 79 suspects and identified               pornography via the mail, and possessing child
eight child molesters in this reporting period as part of the       pornography. He appeared before a U.S. Magistrate
Postal Inspection Service’s continuing efforts to bring to          the next day and was deemed to be a danger to the
justice those who unlawfully use the mail to traffic in child       community and held without bond. Postal Inspectors
pornography or otherwise sexually exploit children. Postal          initiated the case after finding the man had ordered
Inspectors also identified and rescued 20 children from             and received DVDs mailed by a former international
incidents of sexual abuse and exploitation.                         distributor of child pornography. The suspect
                                                                    consented to a search of his home computers, where
Because nearly all cases of child exploitation investigated         Postal Inspectors found images of child pornography,
by Postal Inspectors involve the Internet as well as the            as well as photos of young children at parks and
mail, the Postal Inspection Service has become an integral          beaches in Los Angeles. Postal Inspectors later
partner in the DOJ’s Project Safe Childhood initiative. The         identified more than 20 images of a young female
DOJ initiative is aimed at preventing the sexual exploitation       victim being photographed while her clothing was
of children through the Internet by using a well-coordinated,       removed. At the time the photos were taken, the victim
multi-pronged approach involving federal, state, and local          was 11 years old.
law enforcement agencies.
                                                                ■   A man pled guilty in December to distributing and
During the first 6 months of FY 2009, Postal Inspectors             attempting to receive child pornography in the
initiated 102 new investigations involving child                    Northern District of California. He was a registered
exploitation. The investigations included high-impact,              sex offender on probation for molesting a 9-year-old
quality casework that emphasized the identification and             girl when he was arrested by Postal Inspectors, and
dismantling of major commercial distribution enterprises            was held in custody without bail until his sentencing,
that relied on the mail and the Internet to conduct illegal         scheduled for May. The investigation began in
activities. Postal Inspectors worked in close cooperation           September 2007, when the suspect responded to an
with trial attorneys of DOJ’s Child Exploitation and                undercover Postal Inspector and distributed 40 photos
Obscenity Section, where a Postal Inspector was assigned            and a video depicting infants and prepubescent
full time on all cases of national and international                minors engaged in sexually explicit conduct. In trade,
significance. Following are examples of investigations              the suspect requested that the Postal Inspector mail
conducted from the reporting period.                                him six DVDs of child pornography, including two
                                                                    rape videos, to an address in Santa Cruz. Postal
■   Following a request for assistance from a detective             Inspectors determined the suspect was a transient
    with the East Pennsboro, PA, Police Department in               who was using the address of a homeless shelter as
    April 2008, Postal Inspectors investigated a state              well as various public sites with free Internet access
    prison inmate on allegations of child exploitation via          to receive and distribute child pornography. Postal
    the mail. The man was in prison on nonrelated charges           Inspectors also alleged the man had distributed child
    when he heard, from his cellmate, about the sexual              pornography over the Internet to numerous individuals.
    abuse of a 15-year-old girl, which began when the               Further, he purportedly had arranged a meeting with
    girl was only 13 and resulted in two pregnancies.               a man who claimed he would allow the suspect to
    Postal Inspectors learned the man began writing to his          sexually assault his 7-year-old daughter.
    cellmate’s victim in hopes of initiating his own sexual
    relationship with her. The girl’s mother intercepted the
    first letter and forwarded it to police, who contacted
    Postal Inspectors. In an undercover investigation with
    Pennsboro detectives, Postal Inspectors determined
    the inmate tried to mail the victim an additional 30
    sexually explicit letters, in which he claimed he “loved”
    the girl, had significant finances, and would take care
    of her and her two babies. He was indicted by the U.S.
    Attorney’s Office for the Middle District of Pennsylvania
    for attempted enticement of a minor via the mail and,
    in March, was sentenced to 12 years in federal prison
    and 10 years of supervised release.




                                                                                                                             October 1, 2008 – March 31, 2009 | 33
SECURITY




                                              SECURITY AND CRIME PREVENTION
                                              As Chief Security Officer for the Postal Service, the Chief Postal Inspector is responsible for the
                                              physical protection of all postal facilities, personnel, and assets, as well as the Postal Service’s
                                              information security program. The Chief Postal Inspector maintains liaison with other investigative
                                              and law enforcement agencies, including DHS, the Federal Emergency Management Agency
                                              (FEMA), and other national emergency coordinators.

                                              SECURITY                                                            Personnel Security
                                                                                                                  The Postal Inspection Service’s Security Investigations
                                              Security of Postal Assets                                           Service Center processed approximately 55,000
                                              Postal Inspectors and staff from the Postal Service’s               applications for security clearances in the first 6 months
                                              Mail Transportation Equipment (MTE) office worked on                of FY 2009. The majority of applications were from
                                              the Equipment Recovery Project during the first half of             postal contractors, who are required to have some level
                                              FY 2009. The goal of the project is to recover stolen               of security clearance before they gain access to mail or
                                              or misused postal pallets and flat tubs from nonpostal              postal facilities. Postal Inspection Service staff initiates all
                                              locations across the country.                                       background investigations for employees and contractors.
                                                                                                                  Once the investigations are complete, they digitize them
                                              Postal Inspectors found that existing procedures lacked             for speedy access and archiving. On its completion, it is
                                              adequate accountability and tracking. Some offices                  estimated that this will save the Postal Service hundreds
                                              dispatched equipment to customers without verifying                 of thousands of dollars in records storage, retrieval, and
                                              their needs or without being requested to do so. Postal             supply costs.
                                              Inspectors presented management with recommendations
                                              to improve current procedures. In addition to successfully          Security Force
                                              recovering equipment, they also initiated three criminal
                                              investigations in San Francisco and Miami related to the            The Postal Inspection Service maintains an armed,
                                              illegal sale of stolen pallets and tubs.                            uniformed security force of Postal Police Officers (PPOs)
                                                                                                                  to provide ongoing protection for postal employees, mail,
                                              In the Miami case, a CEO and his pallet company pled                and property. PPOs are assigned to facilities considered
                                              guilty in March to theft of postal property after Postal            most at risk for crime. The presence of officers serves as
                                              Inspectors found his company had misappropriated                    a deterrent to criminal activity and creates an environment
                                              and resold more than 21,000 Postal Service pallets,                 conducive to the safety of postal employees and customers.
                                              valued at $19.95 each. The CEO cooperated with the
                                              investigation and returned thousands of the pallets,                Access Control Protection for Postal Facilities
                                              reducing the net loss to the Postal Service. Sentencing             The Postal Inspection Service teamed with Postal Service
                                              is scheduled for June, with a recommended order of                  staff from the Information Technology and Facilities
                                              restitution set at nearly $420,000, which includes the              offices to deploy the Enterprise Physical Access Control
                                              cost of the investigation.                                          System (ePACS). ePACS is a security system that links
                                              As internal controls for MTE have improved and awareness            the Postal Service’s computerized access control systems
                                              of the problem grows, more postal equipment is being                nationwide through its local area network. When actions
                                              located and returned to circulation. To date in FY 2009,            are taken in one system, such as an employee termination
                                              Postal Inspectors have recovered 52,559 plastic pallets             or a suspension of access, they are reflected system-
                                              and other postal equipment with an estimated total value            wide. ePACS significantly enhances the security of postal
                                              of more than $1.9 million.                                          employees, facilities, and assets.




34 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                           HOMELAND SECURITY




Postal Inspectors and postal staff pilot-tested ePACS at          In the event of an electrical outage, each NLECC facility
four facilities in the Great Lakes Area, and it has since         has uninterruptible power supplies and diesel generators to
been installed at more than 175 facilities nationwide. In         provide power for extended coverage. The NLECC design
the first half of FY 2009, work began on updating the             reflects critical post-9/11 coverage in support of the Postal
access control system at National Headquarters to meet            Service’s Integrated Emergency Management Plan (IEMP),
the new ePACS standard. The new system will be one                which provides for continuity of operations for the Postal
of the largest ePACS sites nationally, comprising more            Service in the event of a power grid outage or a regional or
than 3,500 employees, 1,000 contractors, and 130                  national disaster.
card readers.
                                                                  During the past 6 months, staff at NLECC alerted Postal
Facility Security Reviews                                         Inspectors and local police to the scene of a homicide
                                                                  that occurred on postal property. Further, they assisted in
Postal Inspectors worked with staff from the Postal               apprehending three suspects who were caught in the act of
Service’s Facilities office during the first half of the fiscal   burglarizing postal sites.
year to conduct risk assessments of new postal facilities.
The assessments are designed to ensure that appropriate
security measures are incorporated into construction plans        HOMELAND SECURITY
for the facilities. This practice assures that facilities offer
appropriate protection for postal employees, customers,           National Preparedness
and assets.                                                       During the first 6 months of FY 2009, the National
                                                                  Preparedness group continued to perform responsibilities
Infrastructure Security Assessment Program                        related to incident management, infrastructure protection,
                                                                  hazmat security, and aviation mail security — all key
The Infrastructure Security Assessment Program was
                                                                  activities in preparing for, responding to, and assisting with
developed during the first half of FY 2009. It uses
                                                                  recovery from major incidents affecting postal employees
standardized methodology to assess security and measure
                                                                  and operations.
compliance with Postal Service and Postal Inspection
Service security initiatives at postal installations throughout   The goal of the Postal Inspection Service is to offer
the country.                                                      protection to employees and customers, provide for the
                                                                  security of the mail and the postal infrastructure, and
The program consists of a series of questions used by
                                                                  ensure business continuity by anticipating threats to the
Postal Inspectors concerning such issues as physical
security, mail security, and internal security, which they
answer through onsite observations, document reviews,
and interviews of facility personnel. At the conclusion of
each assessment, the reviewer and the facility manager
develop an improvement plan to mitigate any deficiencies
identified in the assessment. Postal Inspectors and
Homeland Security Coordinators visited 6,053 installations
during FY 2009 as part of this initiative.

National Law Enforcement
Communication Center
Under the Joint Mission Support Center, Postal Inspection
Service staff operates the two National Law Enforcement
Communication Center (NLECC) facilities at Dulles, VA,
and Ft. Worth, TX. The facilities feature a national law
enforcement radio network, which staff uses to monitor
intrusion-detection systems at Postal Service facilities.
The NLECC also provides after-hours emergency phone
coverage for all Postal Inspection Service and OIG offices.
Staff has access to law enforcement and intelligence
information, such as the National Crime Information Center
(NCIC), the International Justice and Public Safety Network
(known as “Nlets”), and other confidential sources.               National Law Enforcement Communication Center




                                                                                                                                   October 1, 2008 – March 31, 2009 | 35
HAZARDOUS MATERIAL




                                               Postal Service. Managers at each of the nine postal areas          capabilities of individuals and functions; determine the
                                               and Homeland Security Coordinators for each district               effectiveness of command, control, and communications
                                               synchronize their work with Postal Inspectors nationwide to        processes; and assure that all systems are appropriate.
                                               ensure readiness for all hazards, implement risk-mitigation
                                               plans and procedures, and deliver prompt, effective                The Postal Service participated in local and national
                                               incident-response and recovery operations across the               emergency response tests to assess the integration of its
                                               country. To accomplish this goal, the staff maintains a high       facilities’ plans with other emergency response providers
                                               level of national preparedness through coordinated planning        by testing local preparedness and continuity-of-operations
                                               and oversight.                                                     plans. The activities were designed to improve coordination
                                                                                                                  among Postal Service functional areas, minimize duplication
                                               The Postal Inspection Service continued to implement,              of planning, and establish a standardized emergency
                                               manage, and refine emergency resources, including the              management process.
                                               Emergency Preparedness and Response-and-Recovery
                                               Services contracts; the Large-Capacity Power Generator             In December, the Postal Inspection Service conducted
                                               Program; critical-reserve stockpile; Geo-Spatial Information       Tabletop Exercises at three locations in Connecticut to test
                                               Systems; and Test, Training, and Exercises. These resources        Postal Inspectors’ abilities to respond to multiple incidents.
                                               guarantee “24-7-365” emergency coverage for all postal             The exercises condensed a 7-hour simulation into a 3-hour
                                               personnel and assets.                                              period and tested Postal Inspectors’ use of the Incident
                                                                                                                  Command System, communications, resources and assets,
                                                                                                                  and strategic and tactical decision-making.

                                                                                                                  Natural and Man-Made Disasters
    HAZARDOUS MATERIAL
                                                                                                                  The Postal Inspection Service responds to emergencies
    The Postal Inspection Service’s Hazmat Communications Plan promotes awareness                                 related to hurricanes, floods, fires, and other incidents
    of hazmat protocols and procedures for postal employees and customers. A series of                            affecting Postal Service operations. Staff coordinates the
    hazmat-related articles and media tools were distributed during the first half of the fiscal                  deployment of emergency equipment and supplies and
    year via the Postal Bulletin, internal newsletters, the USPS News Link e-mailed to all                        assists with damage assessments and recovery, including
    postal employees, and training.                                                                               hazardous and toxic-material removal. Safely removing
                                                                                                                  hazardous materials from the postal system and educating
    The Postal Inspection Service continually reviews and re-evaluates its hazmat-related                         employees and customers about nonmailable items are
    communications to ensure they reflect current needs. During the fiscal year to date, staff                    priorities of the Postal Inspection Service.
    created Poster 318, Civil Penalties for Hazardous Mail, to make postal customers aware
    of the Postal Service’s right to assess civil penalties against customers who mail or cause                   To ensure compliance with security measures, Postal
    to be mailed hazardous material. The poster was distributed to every postal retail lobby                      Inspectors and National Preparedness staff each year
    in January. The Postal Inspection Service is responsible for investigating any incidents                      conducts security-assessment reviews at postal facilities
    related to the enforcement of civil penalties.                                                                nationwide. The staff evaluates compliance with security
                                                                                                                  requirements for building and vehicle security, accountable
                                                                                                                  mail handling, and the local enforcement of employee
                                                                                                                  identification requirements. Both before and after disasters,
                                               Test, Training, and Exercise Program                               National Preparedness staff employs a wide array of tools
                                                                                                                  and processes to establish performance measures that will
                                               This program ensures that Postal Service personnel,
                                                                                                                  ensure effective and cost-efficient security for employees,
                                               equipment, and procedures are in a constant state of
                                                                                                                  assets, and business operations.
                                               readiness to manage an emergency without interruption.
                                               The Postal Inspection Service conducts, reviews, and
                                               evaluates training on proper procedures for emergency
                                               management personnel and other essential staff. Testing
                                               ensures that essential equipment and information systems,
                                               and the processes and procedures needed to use them,
                                               conform to proper specifications and are viable. The
                                               exercises promote preparedness; improve response




36 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                      GLOBAL SECURITY AND INVESTIGATIONS




GLOBAL SECURITY AND                                                  arrested them after finding one in possession of a box
INVESTIGATIONS                                                       cutter. A third Associated Labor Services employee
                                                                     was seen taking a mail sack to a receptacle labeled
The mission of the Global Security and Investigations                “rejects,” which was later sliced open and rifled. Task
Division is to protect the Postal Service’s international and        force members arrested two employees and identified
military mail operations and related assets worldwide.               15 contractors for theft of mail. As of January, all had
In support of this mission, division personnel conduct               lost their jobs.
domestic and international investigations and liaison with
foreign postal administrations, security personnel, and other    U.S. National Central Bureau of Interpol
law enforcement agencies.
                                                                 The Global Security and Investigations Division supports
Postal Inspectors engage in mail security and prevention         international police cooperation through the contributions
initiatives and investigative work in support of this mission.   of two Postal Inspectors assigned to the U.S. National
Postal Inspectors continue to work closely with the Postal       Central Bureau of Interpol in Washington, DC. An Assistant
Service’s offices of Global Business and International Postal    Inspector in Charge stationed there acts as Assistant
Affairs, as well as other stakeholders worldwide. Their          Director for Interpol’s Economic Crimes Division, overseeing
efforts include security consulting and investigations with      an improved case assignment and management initiative
foreign postal administrations through the Postal Security       that has resulted in significant reductions in active,
Group (PSG) of the Universal Postal Union (UPU) and other        unprocessed cases. He manages agents from the IRS,
international postal unions.                                     Secret Service, Environmental Protection Agency, and
                                                                 Immigration and Customs Enforcement, as well as senior
Investigations also continue at the five gateway cities:         analysts, all of whom coordinate the investigation of
Miami, San Francisco, Los Angeles, Chicago, and New              international financial crimes.
York, where Postal Inspection Service gateway task
forces comprising Postal Inspectors and Special Agents           Also assigned at this location is a Postal Inspector who
work together to prevent mail theft, stop revenue loss,          acts as a fraud representative and International Fugitive
and ensure the security of international mail. Task force        Coordinator. Since October, he has issued six “red notices”
investigations have resolved significant security issues both    for wanted fugitives and responded to more than 45
in the United States and abroad. Following are examples of       requests for assistance from Postal Inspectors related to
work conducted during the first half of FY 2009.                 suspects being sought in other countries. Interpol’s red
                                                                 notices allow a warrant to be circulated worldwide, and
■   In December, Postal Inspectors on the JFK Gateway            request that the wanted person be arrested with a view
    Task Force arrested a contract employee of a cargo           to extradition. Four Postal Inspection Service red notice
    company for theft of mail. They had received numerous        fugitives have been extradited or otherwise returned to the
    complaints regarding the non-receipt of international        United States in the past fiscal year.
    parcels; a majority involved military mail dispatched
    from the Newark Liberty International Airport and            International Security Agreements
    destined to overseas countries. Task force members
    quickly identified the contractor as a suspect and           The Postal Service generates more than 40 percent of
    observed him wearing a jacket that appeared unusually        the world’s mail, requiring a robust international security
    bulky. Hidden inside they found three laptops that had       program to ensure that customers’ correspondence is
    been stolen from rifled parcels. The man’s employment        protected from pickup to delivery. The Global Security
    was terminated by the company.                               and Investigations Division partners with foreign law
                                                                 enforcement stakeholders and global security organizations
■   In November and December, Postal Inspectors on               in support of this important goal.
    the Chicago Gateway Task Force investigated reports
    of mail theft at O’Hare International Airport. Losses        As a strategic center of commerce and business in Asia,
    included thefts of electronics and other mailed items        Singapore represents a significant global connection to
    originating on United Airlines flights destined to, or       the United States. The Singapore Ministry of Home Affairs’
    transferring through, Frankfurt, Germany. Task force         Home Team Academy is responsible for training the
    members identified two temporary airline employees as        Singapore Police Force, Singapore Civil Defense Force,
    suspects in the case. In January, task force members         Central Narcotics Bureau, Singapore Prison Service,
    conducted an operation to verify that all mail leaving on    Immigration and Checkpoints Authority, and the Internal
    two United Airlines flights was intact. They determined      Security Department.
    one dispatch had been opened and rifled. Postal
    Inspectors immediately stopped the two suspects and




                                                                                                                                October 1, 2008 – March 31, 2009 | 37
CYBER INTELLIGENCE




                                              The Postal Inspection Service hosted officials from                 National Cyber Forensics and
                                              Singapore to formalize a bilateral security agreement with          Training Alliance
                                              that country. The agreement signals the start of a new
                                              partnership designed to ensure the security of financial            During the first half of FY 2009, the Postal Inspection
                                              instruments mailed between the United States and Asia-              Service continued its partnership with the National Cyber
                                              Pacific nations. The Postal Inspection Service also agreed          Forensics and Training Alliance (NCFTA), a nonprofit
                                              to provide airport mail security training for public and            organization that works with law enforcement agencies,
                                              private sector organizations whose activities affect the            private industry, and academia to research cyber attacks.
                                              security of U.S. Mail.                                              One initiative focused on malicious software.

                                              This security agreement furthers the international security         An analysis of malware by Postal Inspection Service
                                              objectives of the Postal Inspection Service in Asia-Pacific         analysts at NCFTA led to the identification and arrests of
                                              and supports the aggressive growth strategy of the Postal           26 members of a Romanian organized crime ring. The
                                              Service’s international business in the region.                     investigation was led by the FBI in collaboration with
                                                                                                                  Postal Inspectors and the Romanian National Police, with
                                                                                                                  assistance from the Computer Incident Response Team,
                                              CYBER INTELLIGENCE                                                  IT, and OIG Special Agents. The investigators alleged that
                                              The mission of the Postal Inspection Service’s Cyber                35 postal employees, including senior executives, had
                                              Intelligence Division is to proactively address cyber crime         been targeted by malware attacks, also known as spear
                                              affecting the Postal Service and its customers, and to develop      phishing. The employees received e-mails with attachments
                                              solutions to mitigate threats through the following actions:        that appeared to be from organizations such as the Better
                                                                                                                  Business Bureau, DOJ, IRS, Monster.com, SunTrust Bank,
                                              ■    Targeting high-value crime affecting the Postal Service        or the Federal Trade Commission. Once recipients opened
                                                   and postal customers.                                          the attachments, embedded malware allowed senders to
                                                                                                                  capture recipients’ key strokes, giving scammers access
                                              ■    Building and maintaining relationships with foreign and
                                                                                                                  to personal information such as bank account passwords.
                                                   domestic law enforcement and intelligence agencies,
                                                                                                                  The criminals then executed wire transfers to move money
                                                   businesses, and academic institutions.
                                                                                                                  from victims’ accounts to accounts under their control,
                                              ■    Providing timely, accurate reporting of cyber crime            and stole sensitive information from the Postal Service
                                                   risks to Postal Service business ventures.                     and other entities. Further, the criminals opened private
                                                                                                                  mailboxes and Post Office boxes to receive fraudulent
                                              ■    Mitigating risks related to new postal products and            passports and other international IDs, fraudulently withdrew
                                                   business planning.                                             money from U.S. financial institutions, and wired the funds
                                              The Postal Service owns the third largest information               to accomplices in Romania. Losses were estimated to
                                              technology (IT) infrastructure in the world. Similar to many        exceed $1 million. The case, which is in various stages of
                                              other U.S. businesses, the Postal Service’s international           prosecution, is being handled by DOJ’s Computer Crimes
                                              operations continue to expand.                                      and Intellectual Property Section, the Racketeering and
                                                                                                                  Organized Crime Section, and the U.S. Attorney’s Office in
                                              All Postal Service operations — including mail processing,          Cleveland, OH.
                                              accounting, and payment systems — rely on its IT
                                              infrastructure. Further, postal customers rely on numerous          Counterfeit Financial Document Initiative
                                              web-based products, such as Click-N-Ship, change-of-                The Postal Inspection Service continues to lead efforts in
                                              address and “hold mail” services, and Post Office box               the prevention of schemes involving fraudulent financial
                                              payments. Given the size of its IT infrastructure, the Postal       transactions. The agency’s Counterfeit Document Initiative
                                              Service faces thousands of network attacks daily by                 was conceived to protect the integrity of mailed financial
                                              criminals seeking access to its computers to create havoc           instruments and protect Americans from related schemes.
                                              or steal assets.                                                    Over the past several years, fake check scams have become
                                                                                                                  a major consumer fraud concern in the United States.




38 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                        CYBER INTELLIGENCE




Postal Inspection Service investigations and information
gleaned from intelligence databases, customer complaints,
and interdiction efforts continue to identify mail containing
counterfeit postal money orders, traveler’s checks, gift          DIGITAL EVIDENCE SERVICE
checks, and bank checks. The mailings typically originate         The Digital Evidence Service (DES) provides computer forensic and computer crime
in Nigeria and Ghana and, to a smaller extent, Benin and          support to Special Agents and Postal Inspectors. In addition to offering computer
Togo. Individuals can become unwitting co-conspirators,           forensic services, DES members also investigate various computer crimes, such as
in the United States and overseas, who are paid to re-ship        unauthorized computer access to Postal Service computers and networks.
fraudulently obtained items.
                                                                  Computer forensic labs are located in 19 Postal Inspection Service and OIG facilities
A common tactic used by scammers to disseminate fake              across the United States. These labs are equipped with computer forensic hardware
checks without detection by U.S. authorities is to send bulk      and software and have access to specialized forensic data infrastructure.
packages of counterfeits to the United Kingdom, where
co-conspirators separate them into individual letters and         DES members forensically capture and analyze digital information. This valuable
mail them to the United States. From April 2008 through           technical information is captured via state-of-the-art forensic methodologies both on-
December 2009, Postal Inspectors seized $572 million              site and across computer networks. The data is collected in an evidentiary manner that
worth of counterfeit financial documents.                         can be produced in federal courts and administrative hearings and is supported by the
                                                                  expert testimony of DES personnel.
As a direct result of ongoing seizures of counterfeit financial
documents and the Postal Inspection Service’s active role         Core services offered by DES include:
in consumer-awareness campaigns, the Postal Service
                                                                  ■    Forensic copying (imaging) of data from computer hard drives or other media (both
reported a decline in the number of counterfeit postal
                                                                       on-site and from across networks). Capture of data may require immediate trips to
money orders received at the Federal Reserve Bank —
                                                                       postal facilities or corporations in order to collect the information from computers.
from 5,058 money orders, totaling $4.2 million, in October
                                                                       The imaging of the data may be surreptitious or overt. Such support may entail
2006, to 1,078 money orders, totaling $936,984, in
                                                                       imaging one computer or may involve support of a significant search warrant and
October 2008.
                                                                       the imaging of more than 50 computers across multiple facilities simultaneously.
Reshipping Initiative                                             ■   Forensic analysis of the collected data can be triaged on-site, but is routinely taken
                                                                       to the forensic labs for comprehensive analysis. Forensic reports are produced that
A Postal Inspection Service initiative that began in FY
                                                                       highlight the findings.
2008 to stop reshipping scams has resulted in improved
protections for the Postal Service, business mailers,             ■   Unauthorized access or denial of access to Postal Service computer systems
financial institutions, and individual consumers. As part              triggers investigations by the DES.
of the initiative, Postal Inspectors blocked certain online
shipments to countries with high levels of shipping fraud         Specialized forensic services are provided in support of a wide variety of investigations
and implemented controls to detect parcels bearing                involving Postal Service personnel such as:
counterfeit, duplicate, or altered mailing labels.                ■      e-Mail extraction and analysis of Postal Service e-mails.
Based on collective intelligence, analyses of criminal            ■      Postal web log (web surfing) analysis.
behavior, and results compiled from the Reshipping
Initiative, Postal Inspection Service staff provided              ■      Real-time monitoring of computer activity.
recommendations to postal managers on the development             ■      Collection and analysis of Internet-based data using special techniques.
of fraud software to protect the Postal Service’s online
products and services. The Postal Service implemented             ■      Technical undercover support.
some of the recommendations in FY 2009 and, to date,              ■      Technical Inspector General subpoenas for network information.
more than 10,000 fraudulent accounts were prevented.
Additionally, in November and December, Postal Inspectors         ■      Technical interrogation/interviewing of subjects and witnesses.
prevented more than 12,000 fraudulent transactions
                                                                  The Postal Service Computer Incident Response Team, located in Raleigh, NC, is a unit
totaling approximately $1.7 million.
                                                                  with which the DES is fully integrated, responding to computer security investigative
                                                                  inquiries and other investigations of OIG or Postal Inspection Service interests.




                                                                                                                               October 1, 2008 – March 31, 2009 | 39
CONSUMER EDUCATION AND FRAUD PREVENTION




                                                                  Project Phoenix                                  2009 National Consumer Protection Week
                                                                  The Postal Service is developing new             During National Consumer Protection Week (NCPW),
                                                                  and replacement products and services            federal, state, and local agencies; private-sector
                                                                  via its Internet website, www.usps.com.          organizations; and consumer advocacy groups band
                                                                  Postal Inspection Service personnel              together to encourage Americans to learn about legal
                                                                  contributed to the planning and design           protections available and to take full advantage of the
                                                                  of these services, offering security-            resources that can help consumers of every age. This
                                                                  related recommendations to mitigate              year’s NCPW, held March 1 through 7, featured the
                                                                  cyber crimes that target vulnerabilities in      theme, “Survive Today’s Economy: Avoid ID Theft and
                                                                  purchase and payment systems and exploit         Fraudulent Schemes,” and was designed to educate
                                                                  customers’ financial information. Postal         consumers about making wise purchase decisions and
                                                                  Inspection Service recommendations               avoiding scams. The FTC organized a coalition of public-
                                                                  ensure the appropriate authentication of         and private-sector organizations to provide practical tips
                                                                  user registration credentials, minimize          on a wide range of topics. The tips were made available
                                                                  opportunities for criminals to take over         at www.consumer.gov/ncpw.
                                                                  accounts of registered users, and capture
                                                                  information that can detect fraud. The           The Postal Service, working with the Postal Inspection
                                                                  Postal Inspection Service is continuing          Service and the FTC, augmented the national theme
                                                                  to seek new investigative tools that can         through its events, titled “Nuts and Bolts: Tools for Today’s
                                                                  effectively and rapidly respond to criminal      Economy,” to warn customers about the dangers of
                                                                  exploits of postal systems.                      identity theft and fraudulent mailing schemes. Throughout
                                                                                                                   the week, Postal Inspectors and other postal employees
                                                                                                                   worked to educate customers by hosting hundreds of
                                                                  CONSUMER                                         events at postal facilities nationwide, as well as at senior
                                                                  EDUCATION AND                                    centers, libraries, community centers, and churches. Postal
                                                                  FRAUD PREVENTION                                 Inspectors also spoke with media representatives and
                                                                                                                   distributed DVDs and brochures explaining steps to avoid
                                                                  Postal Inspectors lead anti-fraud projects
                                                                                                                   threats posed by identity theft and mail fraud.
                                                                  and work with other agencies and groups
                                                                  to teach Americans how to protect
                                                                  themselves from fraudulent scams that            Fraud-Prevention Information for Postal
                                                                  involve the mail. An educated public is the      Employees and Customers
                                                                  first line of defense against con artists, and   The Postal Inspection Service offers consumer-fraud
                                                                  Postal Inspectors are committed to helping       information, fraud alerts, wanted and reward posters,
                                                                  Americans learn about fraud prevention.          and related information on its website: www.usps.com/
                                                                  Programs led by the Postal Inspection            postalinspectors. Postal customers can report suspected
                                                                  Service, often working with Postal Service       identity theft, mail theft or tampering, mailbox vandalism,
The Postal Inspection Service published Notice 129,               staff, draw attention to recent fraud trends     and mail fraud online at the site.
Don’t Be the Victim of a Reshipping Scam, in November             to help postal customers become more
2009 to help educate the American public about                    aware of fraudulent products, materials,         In the first half of FY 2009, the Postal Inspection Service
these scams, conducted via the mail that can result               and services that may rely on the mail, and      published an updated edition of Publication 162, Because
in thousands of dollars in victim losses. In November             to improve the public’s knowledge of how         the Mail Matters, which provides an overview of the
and December, Postal Inspectors prevented more than               to combat fraud.                                 agency to inform postal customers and employees about
12,000 fraudulent transactions, totaling approximately                                                             its broad range of services. Postal Inspection Service staff
$1.7 million.                                                                                                      also published a new guide for consumers, Notice 129,
                                                                                                                   Don’t Be the Victim of a Reshipping Scam. These and a
                                                                                                                   host of other fraud-prevention publications are available
                                                                                                                   online for viewing and printing at the Postal Inspection
                                                                                                                   Service’s website.




40 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                              CONSUMER EDUCATION AND FRAUD PREVENTION




Victim-Witness Assistance Program
Federal legislation mandating certain rights for victims and
witnesses of crime was initially passed in 1982. As part of
the Victim Witness Protection Act, Congress instructed the
Attorney General to assure that all federal law enforcement
agencies adopt guidelines consistent with the purpose of
the act and related legislation. The Crime Victim Rights Act
added the most far-reaching legislation to date supporting
victim rights.

The Postal Inspection Service works with the DOJ and
the law enforcement community to support the Attorney
General’s Guidelines for Victims and Witnesses. The Postal
Inspection Service’s responsibility is to identify potential
victims related to its criminal investigations, provide them
with timely notification of their rights, and inform them of
the services available to assist them.

Beyond legal mandates, victims may require the personal
attention of a trained staff member — which often
proves to be the service most valued and remembered by
customers. By identifying victims at the beginning of the
investigation, the U.S. Attorney’s Office can keep victims
apprised of significant events during the judicial process.
If defendants are incarcerated, the Bureau of Prisons          In announcing plans for the NCPW, the Acting Chief Postal Inspector said “Spreading awareness about fraud
continues to keep the victims apprised of incarcerated         makes a criminal’s job harder. The best way for customers to protect themselves is to learn how to avoid
events up to the defendant’s release.                          fraudulent schemes such as reshipping scams, fraud on the Internet, and work-at-home schemes.”

The Postal Inspection Service is only the second federal
law enforcement agency to gain direct access to DOJ’s
Victim Notification System. Access was granted due to the
high volume of Postal Inspection Service investigations that
affect large numbers of victims.

 Victim Outreach               First 6 Months of FY 2009
 Notifications                                       48,758
 Information and Referrals                            1,457
 Criminal Justice Support                             1,652
 Identity Theft Assistance                              952
 Senior Assistance                                      100
 Victim Advocacy                                        480




                                                                                                     Publication 162, Because the Mail Matters, provides a snapshot of
                                                                                                     the history, mission, and operations of the Postal Inspection Service. It
                                                                                                     cites Postal Inspector arrests and convictions related to investigations
                                                                                                     of mail fraud, mail theft, identity theft, and other crimes with a mail
                                                                                                     nexus. To view this and many other publications from the Postal
                                                                                                     Inspection Service, visit www.usps.com/postalinspectors.




                                                                                                                                         October 1, 2008 – March 31, 2009 | 41
APPENDIX A




APPENDICES
The Inspector General Act of 1978 requires semiannual reports on the immediately preceding 6-month periods ending September 31
and March 31. These reports are sent to Congress and made available to the public.

This report summarizes OIG and Postal Inspection Service activities and illustrates significant problems, abuses, and deficiencies,
along with recommendations and corrective actions related to the administration of U.S. Postal Service programs and operations
during the reporting period.

The appendices on the following pages fulfill the requirements of the Act.


APPENDIX A
Reports Issued to Postal Service Management
For the period October 1, 2008 – March 31, 2009

OIG audit teams conduct performance and financial audits, evaluations, and other reviews to address the business of the Postal Service. Each team issues audit
reports (AR) or management advisory reports (MA) in accordance with the identified needs of the project.



   Definitions:
   Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etc.

   Unsupported Costs. A cost that is not supported by adequate documentation. Unsupported costs are included with the amounts shown as
   Questioned Costs.

   Funds Put to Better Use. Funds that could be used more efficiently by implementing recommended actions.

   Revenue Impact. Amounts from revenue generating functions such as retail sales, rent, leases, or fees that were underpaid or not realized. In addition,
   this category includes increased revenue from existing functions and generating revenue from new sources.



                                                                                   Funds Put                                        Unsupported
 Management Goals                      Number of Reports                        to Better Use              Questioned Costs      Questioned Cost    Revenue Impact
 Focusing on What Matters
                                                             27                   $45,939,192                       $8,631,780          $112,921       $243,267,335
 to Customers
 Leveraging the Postal
                                                             22                   $64,512,332                      $66,754,774       $43,443,315                 –
 Service's Strengths
 Embracing Change                                             7                     $1,674,953                              –                  –                 –
 Regulatory Studies and
                                                           138                         $70,572                      $5,119,076        $4,604,605           $791,393
 Reporting Obligations
 Preserving Integrity                                        22                  $127,831,661                      $77,474,455       $76,850,698                 –
 TOTAL                                                     216                   $240,028,710                     $157,980,085       $125,011,539      $244,058,728




42 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                     APPENDIX A




Reports With Quantifiable Potential Monetary Benefits
                                                                                                     Funds Put    Questioned    Unsupported             Revenue
                                                                                                  to Better Use        Costs          Costs              Impact
 FOCUSING ON WHAT MATTERS TO CUSTOMERS
 Delivery
 Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Capital Metro Area;
                                                                                                    $17,951,396            –                 –                   –
 DR-AR-09-003; 1/27/2009
 Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Northeast Area;
                                                                                                    $14,817,650            –                 –                   –
 DR-AR-09-001; 12/9/2008
 Vehicle Warranty Claims Process; DR-AR-09-004; 1/30/2009                                             $619,279     $2,920,451                –                   –
 Engineering
 Philadelphia Metropolitan District: Overall Equipment Effectiveness; DA-AR-09-003; 1/14/2009       $10,073,884    $5,036,942                –                   –
 Field Financial
 Baltimore District Financial Risk Audit; FF-AR-09-123; 3/20/2009                                            –       $179,124         $14,097                    –
 Bay-Valley District Financial Accountability Audit; FF-AR-09-087; 2/9/2009                                  –      $351,227          $86,613             $13,705
 Olivette Branch and Automated Postal Center — St. Louis, MO; FF-AR-09-040; 12/11/2008                       –        $8,098           $8,098                    –
 Sierra Coastal District — Risk-Based Financial Audit; FF-AR-09-072; 1/15/2009                               –      $135,938            $4,113                   –
 Network Processing
 Powered Industrial Vehicle Management System at the Louisville, KY,
                                                                                                     $1,981,643            –                 –                   –
 Processing and Distribution Center; NO-AR-09-001; 12/3/2008
 Sales & Service
 Shortpaid Information-Based Indicia Stealth Postage; MS-AR-09-005; 3/17/2009                                –             –                 –        $98,951,714
 Shortpaid Postage — Information-Based Indicia Parcel Post Mail; MS-AR-09-002; 10/14/2008                    –             –                 –        $47,672,280
 Shortpaid Postage — Information-Based Indicia Priority Mail; MS-AR-09-001; 10/10/2008                       –             –                 –       $96,629,636
 Transportation
 U.S. Virgin Islands Delayed Mail — Transportation Issues; NL-AR-09-003; 3/19/2009                    $495,340             –                 –                   –
 LEVERAGING THE POSTAL SERVICE'S STRENGTHS
 Cost, Revenue, & Rates
 Controls Over International Air Transportation Payments; CRR-AR-09-003; 3/5/2009                            –     $3,951,771                –                   –
 Controls Over Supervisor Leave; CRR-AR-09-002; 1/23/2009                                            $5,442,928    $1,759,631                –                   –
 Financial Reporting
 Capital Metro Distribution Office; FT-AR-09-008; 1/30/2009                                                  –      $415,200         $415,200                    –
 Supply Management

 Audit of a Proposal Submitted by Lockheed Martin Systems Integration; CA-CAR-09-007; 2/10/2009              –      $522,127                 –                   –

 Audit of Portions of a Termination for Convenience Settlement Proposal Submitted by Northrop
                                                                                                             –      $475,322                 –                   –
 Grumman Electronic Systems Company; CA-CAR-09-011; 3/16/2009

 Audit of Proposal Submitted by Key Handling Systems, Incorporated; CA-CAR-09-003; 11/20/2008                –     $2,157,744      $1,111,401                    –

 Systems Integration, Owego, Distribution Technologies Proposal Submitted by Lockheed Martin;
 CA-CAR-09-004; 12/24/2008                                                                                   –     $6,230,881                –                   –
 The Postal Service’s Certification Process for Non-Mail Freight Transportation Invoices;
                                                                                                             –    $41,916,714     $41,916,714                    –
 CA-AR-09-002; 2/18/2009




                                                                                                                                October 1, 2008 – March 31, 2009 | 43
APPENDIX A




                                                                                                                     Funds Put    Questioned    Unsupported    Revenue
                                                                                                                  to Better Use        Costs          Costs     Impact
 Transportation
 Air Networks — Federal Express Transportation Agreement — Southwest Area;
                                                                                                                    $44,309,475    $8,995,521             –          –
 NL-AR-09-002; 3/3/2009
 Postal Vehicle Service Transportation Routes — Minneapolis Processing and Distribution Center;
                                                                                                                    $9,343,066             –              –          –
 NL-AR-09-001; 2/13/2009
 Vehicle Management — National Trailer Lease Renewal — Great Lakes Area;
 NL-AR-09-004; 3/26/2009                                                                                             $5,416,863     $329,863              –          –
 EMBRACING CHANGE
 Sales & Service
 Revenue Generation by Automated Postal Centers; MS-AR-09-003; 11/7/2008                                             $1,674,953            –              –          –
 REGULATORY STUDIES AND REPORTING OBLIGATIONS
 Fiscal Year 2008 Financial Installation Audit
 Cumberland Post Office — Cumberland, MD; FF-AR-09-041; 12/12/2008                                                           –             –              –      $1,358
 Fiscal Year 2008 Postal Service Financial Statement Audits
 Control Issues; FT-MA-09-002; 1/20/2009                                                                                     –      $244,046       $244,046     $53,475
 St. Louis Information Technology and Accounting Service Center; FT-AR-09-009; 2/23/2009                               $35,080         $8,122             –          –
 Fiscal Year 2009 Financial Installation Audit
 Akron Business Mail Entry Unit — Akron, OH; FF-AR-09-119; 3/17/2009                                                         –        $3,791         $3,791          –
 Alderson Business Mail Entry Unit — Alderson, WV; FF-AR-09-070; 1/13/2009                                                   –     $2,041,675     $2,041,675         –
 Alton Business Mail Entry Unit — Alton, IL; FF-AR-09-075; 1/15/2009                                                         –             –              –     $11,529
 Anson Jones Station — Houston, TX; FF-AR-09-054; 12/23/2008                                                                 –        $5,570         $5,391          –
 Arlington Station — Jacksonville, FL; FF-AR-09-125; 3/19/2009                                                               –        $9,775         $9,775       $445
 Asbury Park Business Mail Entry Unit — Asbury Park, NJ; FF-AR-09-106; 2/27/2009                                             –        $3,480         $3,480          –
 Bellingham Post Office — Bellingham, MA; FF-AR-09-039; 12/10/2008                                                           –       $33,661         $1,921      $5,830
 Boerne Business Mail Entry Unit — Boerne, TX; FF-AR-09-121; 3/18/2009                                                       –      $331,835       $331,835          –
 BOI-Five Mile Station V — Boise, ID; FF-AR-09-053; 12/23/2008                                                               –        $5,941         $4,554          –
 Bryant Station — Long Beach, CA; FF-AR-09-110; 3/5/2009                                                                     –       $12,862              –          –
 Buffalo Business Mail Entry Unit — Buffalo, NY; FF-AR-09-022; 11/20/2008                                                    –             –              –      $5,851
 Champaign Post Office — Champaign, IL; FF-AR-09-018; 11/20/2008                                                             –         $3,618         $1,125      $321
 Cincinnati Business Mail Entry Unit — Cincinnati, OH; FF-AR-09-098; 3/26/2009                                               –       $69,382        $69,382     $17,318
 Colchester Post Office — Colchester, VT; FF-AR-09-010; 11/7/2008                                                            –             –              –      $1,665
 Conway Business Mail Entry Unit — Conway, SC; FF-AR-09-131; 3/26/2009                                                       –             –                     $1,685
 Denver General Mail Facility — Denver, CO; FF-AR-09-047; 12/17/2008                                                         –        $5,326         $5,326    $322,781
 Downingtown Post Office — Downingtown, PA; FF-AR-09-069; 1/9/2009                                                           –       $51,370         $1,093          –
 Durham Business Mail Entry Unit — Durham, NC; FF-AR-09-091; 2/10/2009                                                       –             –              –      $2,523
 El Monte Main Post Office — El Monte, CA; FF-AR-09-095; 2/17/2009                                                           –         $7,934             –      $1,469
 Fallon Main Post Office — Fallon, NV; FF-AR-09-130; 3/26/2009                                                         $19,393             –              –          –
 Forest Post Office — Forest, VA; FF-AR-09-103; 2/24/2009                                                                    –       $29,707              –     $24,118
 Fort Lauderdale Main Post Office — Fort Lauderdale, FL; FF-AR-09-046; 12/17/2008                                            –        $2,255         $2,255     $3,368




44 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                 APPENDIX A




                                                                                                 Funds Put    Questioned    Unsupported             Revenue
                                                                                              to Better Use        Costs          Costs              Impact
Frederick Post Office — Frederick, MD; FF-AR-09-115; 3/16/2009                                           –       $12,649           $1,739             $11,888
Glen Mills Business Mail Entry Unit — Glen Mills, PA; FF-AR-09-128; 3/25/2009                            –      $209,541        $209,541                 $582
Helena Business Mail Entry Unit — Helena, MT; FF-AR-09-078; 1/23/2009                                    –             –                 –             $1,392
High-Risk Contract Postal Units; FF-MA-09-003; 3/31/2009                                                 –      $101,883          $25,240                    –
Industry General Mail Facility Business Mail Entry Unit — City of Industry,
                                                                                                         –             –                 –              $2,120
CA; FF-AR-09-068; 1/8/2009
LaFayette Business Mail Entry Unit — LaFayette, GA; FF-AR-09-114; 3/16/2009                              –             –                 –             $1,690
Latrobe Business Mail Entry Unit — Latrobe, PA; FF-AR-09-076; 1/15/2009                                  –             –                 –           $121,654
Los Angeles Airport Station — Los Angeles, CA; FF-AR-09-012; 11/13/2008                                  –         $5,418                –             $2,307
Lukeville Post Office — Lukeville, AZ; FF-AR-09-094; 2/17/2009                                           –         $1,158           $1,158               $589
Main Office Window Service Post Office — Trenton, NJ; FF-AR-09-061; 1/8/2009                             –             –                 –            $15,517
Marysville Business Mail Entry Unit — Marysville, CA; FF-AR-09-073; 1/13/2009                            –        $41,319         $41,319               $1,182
Merrifield Business Mail Entry Unit — Merrifield, VA; FF-AR-09-014; 11/19/2008                           –             –                 –              $3,103
Moncks Corner Business Mail Entry Unit — Moncks Corner, SC; FF-AR-09-011; 11/6/2008                      –             –                 –              $1,120
New York Main Post Office — New York, NY; FF-AR-09-060; 12/29/2008                                       –      $172,579          $14,454             $40,920
Norman Main Post Office — Norman, OK; FF-AR-09-097; 2/18/2009                                            –       $83,788          $83,788              $7,545
North Dartmouth Post Office — North Dartmouth, MA; FF-AR-09-056; 12/26/2008                              –       $39,407          $39,407                    –
Olive Branch Business Mail Entry Unit — Olive Branch, MS; FF-AR-09-093; 2/12/2009                        –       $18,590          $18,590                    –
Ontario Business Mail Entry Unit — Ontario, CA; FF-AR-09-065; 1/6/2009                             $16,099      $266,404        $266,404                     –
Perkins Branch — Sacramento, CA; FF-AR-09-096; 2/18/2009                                                 –        $11,626            $605             $12,619
Pittsburgh General Mail Facility Finance Station — Pittsburgh, PA; FF-AR-09-133; 3/31/2009               –             –                 –            $66,639
Poughkeepsie Business Mail Entry Unit — Poughkeepsie, NY; FF-AR-09-108; 3/3/2009                         –             –                 –            $12,542
Princeton Post Office — Princeton, MO FF-AR-09-062; 12/30/2008                                           –             –                 –             $1,442
Red Bank Business Mail Entry Unit — Eatontown, NJ; FF-AR-09-082; 2/2/2009                                –       $717,965        $717,965              $2,902
San Bernardino General Mail Facility Window Service — Redlands, CA; FF-AR-09-009; 11/6/2008              –        $8,810                 –               $841
San Luis Rey Station — Oceanside, CA; FF-AR-09-104; 2/26/2009                                            –         $1,028                –             $2,608
St. Petersburg Main Post Office — St. Petersburg, FL; FF-AR-09-089; 2/18/2009                            –        $2,509           $2,000                    –
Sterling Main Post Office — Sterling, VA; FF-AR-09-111; 3/5/2009                                         –        $4,969             $476                    –
Tempe Main Post Office — Tempe, AZ; FF-AR-09-100; 2/23/2009                                              –          $794             $794             $10,505
Van Nuys Main Post Office — Van Nuys, CA; FF-AR-09-085; 2/5/2009                                         –       $29,594                 –            $12,461
Versailles Business Mail Entry Unit — Versailles, KY; FF-AR-09-099; 2/20/2009                            –      $448,189         $448,189                    –
Wapato Main Post Office — Wapato, WA; FF-AR-09-042; 12/10/2008                                           –             –                 –               $950
Westgate Branch Post Office — Rochester, NY; FF-AR-09-134; 3/31/2009                                     –        $5,704           $5,704              $1,856
Yuma Foothills Station — Yuma, AZ; FF-AR-09-126; 3/20/2009                                               –         $1,602          $1,583                $683
Human Capital
Workplace Safety and Injury Reduction Goals in Selected Capital Metro Area Facilities;
HM-AR-09-001; 2/27/2009                                                                                  –       $63,200                 –                   –




                                                                                                                            October 1, 2008 – March 31, 2009 | 45
APPENDIX A




                                                                                                                     Funds Put      Questioned      Unsupported           Revenue
                                                                                                                  to Better Use          Costs            Costs            Impact
 PRESERVING INTEGRITY
 Delivery
 Management of City Letter Carriers' Street Performance; DR-MA-09-001 ( R ); 2/23/2009                               $1,040,235               –                 –                  –
 Radio Frequency Identification Technology: Asset Management; DA-AR-09-002; 12/24/2008                             $126,791,426                –                –                  –
 Field Financial
 Fiscal Year 2008 Eastern Area SmartPay® Purchase Card Program; FF-AR-09-002; 10/21/2008                                     –          $26,745           $13,403                  –
 Fiscal Year 2008 New York Metro Area SmartPay® Purchase Card Program; FF-AR-09-028;
 11/28/2008                                                                                                                  –          $63,000           $63,000                  –
                                              ®
 Fiscal Year 2008 Northeast Area SmartPay Purchase Card Program; FF-AR-09-001; 10/22/2008                                    –          $36,263           $36,263                  –
 Inspection Service & Facilities
 Maintenance Facility Repairs; SA-AR-09-002; 12/16/2008                                                                      –        $2,927,732       $2,927,732                  –
 National Leased Facility Maintenance Responsibility; SA-AR-09-003; 3/31/2009                                                –         $520,938                 –                  –
 Supply Management
 Controls Over Delegation of Authority for Medical Agreements; CA-AR-09-001; 10/17/2008                                      –        $5,866,413       $5,846,330                  –
 Postal Service Oversight of Extra Highway Transportation Contract Trips; CA-AR-09-003; 2/27/2009                            –      $68,033,364       $67,963,970                  –
 TOTAL                                                                                                            $240,028,710     $157,980,085      $125,011,539     $244,058,728


Report Listing
For the period October 1, 2008 – March 31, 2009

Complete listing of all OIG reports issued to Postal Service management.

FOCUSING ON WHAT MATTERS                                           Philadelphia Metropolitan District:                            Sierra Coastal District — Risk-Based Financial
TO CUSTOMERS                                                       Overall Equipment Effectiveness;                               Audit; FF-AR-09-072; 1/15/2009
                                                                   DA-AR-09-003; 1/14/2009
Delivery                                                                                                                          Network Optimization
                                                                   Retail Technology Strategy: Automated Postal
Timeliness of City Delivery in the U.S. Virgin                     Centers; DA-AR-09-004; 1/26/2009                               Benchmarking Postal Service Parcel Productivity;
Islands; DR-AR-09-002; 12/31/2008                                                                                                 EN-MA-09-002; 3/31/2009
                                                                   Field Financial
Vehicle Maintenance Facilities — Scheduled                                                                                        Business Rules for Modern Service Standards;
Maintenance Service in the Capital Metro Area;                     Baltimore District Financial Risk Audit;                       EN-AR-09-002; 3/12/2009
DR-AR-09-003; 1/27/2009                                            FF-AR-09-123; 3/20/2009
                                                                                                                                  Time-Definite Surface Network Risk Mitigation;
Vehicle Maintenance Facilities — Scheduled                         Bay-Valley District Financial Accountability Audit;            EN-MA-09-001; 3/20/2009
Maintenance Service in the Northeast Area;                         FF-AR-09-087; 2/9/2009
DR-AR-09-001; 12/9/2008                                                                                                           Network Processing
                                                                   Briarcliff and Midtown Station Self-Service
Vehicle Warranty Claims Process;                                   Postal Centers — Atlanta, GA;                                  Allegations Concerning Operations and Service
DR-AR-09-004; 1/30/2009                                            FF-AR-09-038 ( R ); 12/11/2008                                 in the Philadelphia Customer Service District;
                                                                                                                                  NO-MA-09-001; 3/30/2009
Engineering                                                        Fiscal Year 2008 Limited Scope Audit —
                                                                   Brentwood Retail Branch — Brentwood, MO;                       External First-Class Measurement System;
New York District Building Equipment Maintenance;                  FF-AR-09-027; 11/28/2008                                       NO-AR-09-003; 2/6/2009
DA-AR-09-006; 3/31/2009
                                                                   Olivette Branch and Automated Postal Center —                  Follow-Up Audit on the Timeliness of Mail
                                                                   St. Louis, MO; FF-AR-09-040; 12/11/2008                        Processing and Delivery Operations in the
                                                                                                                                  Chicago District; NO-AR-09-005; 2/26/2009




46 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                   APPENDIX A




Powered Industrial Vehicle Management System         Audit of a Forward Pricing Rate Proposal Submitted    Postal Vehicle Service Transportation Routes —
at the Louisville, KY, Processing and Distribution   by Siemens Energy and Automation Incorporated,        Minneapolis Processing and Distribution Center;
Center; NO-AR-09-001; 12/3/2008                      Infrastructure Logistics Division;                    NL-AR-09-001; 2/13/2009
                                                     CA-CAR-09-010; 3/4/2009
Timeliness of Mail Processing at the                                                                       Vehicle Management — National Trailer
San Juan Processing and Distribution Center;         Audit of a Proposal Submitted by Lockheed Martin      Lease Renewal — Great Lakes Area;
NO-AR-09-002; 1/29/2009                              Systems Integration; CA-CAR-09-007; 2/10/2009         NL-AR-09-004; 3/26/2009

Sales & Service                                      Audit of an Equitable Adjustment Claim Submitted      EMBRACING CHANGE
                                                     by Thoroughbred Direct Intermodal Services,
Cooperative Mail Rule Exception;                     Incorporated; CA-CAR-09-009; 2/19/2009                Engineering
MS-AR-09-004; 2/20/2009
                                                     Audit of Incurred Costs by Noblis, Incorporated for   Recycling Opportunities — Pacific Area;
Management Controls at Contractor-                   Fiscal Year 2006; CA-CAR-09-008; 2/10/2009            DA-AR-09-005; 3/31/2009
Operated Mail Processing Facilities;
MS-MA-09-001; 10/22/2008                             Audit of Incurred Costs of Electronic Data            Information Systems
                                                     Systems, Federal Segment for Fiscal Year 2006;
Shortpaid Information-Based Indicia Stealth                                                                Intelligent Mail Barcode Project Planning
                                                     CA-CAR-09-006; 1/26/2009
Postage; MS-AR-09-005; 3/17/2009                                                                           and Application Development Life Cycle;
                                                     Audit of Portions of a Termination for Convenience    IS-AR-09-006; 3/31/2009
Shortpaid Postage — Information-Based Indicia        Settlement Proposal Submitted by Northrop
Parcel Post Mail; MS-AR-09-002; 10/14/2008                                                                 Network Optimization
                                                     Grumman Electronic Systems Company;
                                                     CA-CAR-09-011; 3/16/2009                              Area Mail Processing Communications;
Shortpaid Postage — Information-Based Indicia
Priority Mail; MS-AR-09-001; 10/10/2008                                                                    EN-AR-09-001; 2/4/2009
                                                     Audit of Proposal Submitted by Key
                                                     Handling Systems, Incorporated;                       Network Processing
Transportation
                                                     CA-CAR-09-003; 11/20/2008
U.S. Virgin Islands Delayed Mail — Transportation                                                          Metroplex Processing and Distribution Center
                                                     Equitable Adjustment Proposal Submitted by            Activation; NO-AR-09-004; 2/13/2009
Issues; NL-AR-09-003; 3/19/2009
                                                     Northrop Grumman Electronic Systems Company;
LEVERAGING THE POSTAL                                CA-CAR-09-002; 11/4/2008                              Sales & Service
SERVICE’S STRENGTHS
                                                     Management of Contract Changes — Flats                Intelligent Mail/Seamless Acceptance Project
Cost, Revenue, & Rates                               Sequencing System; CA-MA-09-002; 12/1/2008            Management; MS-AR-09-006; 3/31/2009

Controls Over International Air Transportation       Procurement Savings and Performance Indicators        Revenue Generation by Automated Postal Centers;
Payments; CRR-AR-09-003; 3/5/2009                    at Ryder Integrated Logistics Incorporated for        MS-AR-09-003; 11/7/2008
                                                     the Period September 1, 2006 through June 30,
Controls Over Supervisor Leave;                      2007; CA-CAR-09-001; 10/10/2008                       Stamp Distribution Operations;
CRR-AR-09-002; 1/23/2009                                                                                   MS-MA-09-002; 1/12/2009
                                                     Systems Integration, Owego, Distribution
Engineering                                          Technologies Proposal Submitted by Lockheed           REGULATORY STUDIES AND
                                                     Martin; CA-CAR-09-004; 12/24/2008                     REPORTING OBLIGATIONS
Flats Sequencing System: Program Status;
DA-AR-09-001; 12/23/2008                             The Postal Service’s Certification Process            Cost, Revenue, & Rates
                                                     for Non-Mail Freight Transportation Invoices;         Data Quality Issues with the City Carrier Street
Financial Reporting                                  CA-AR-09-002; 2/18/2009                               Time Study; CRR-AR-09-001; 1/21/2009
Contract Postal Unit Bonding;                        Trends and Issues in Defense Contract Audit
FT-AR-09-005; 12/10/2008                                                                                   Fiscal Year 2008 Financial Installation Audit
                                                     Agency Audit Work for Fiscal Years 2007 and
Capital Metro Distribution Office;                   2008; CA-MA-09-001; 10/6/2008                         Automated Postal Centers;
FT-AR-09-008; 1/30/2009                                                                                    FF-AR-09-029; 12/2/2008
                                                     Transportation
Supply Management                                                                                          Business Mail Entry Units;
                                                     Air Networks — Federal Express Transportation         FF-AR-09-052; 12/22/2008
Accounting System of Motorola, Incorporated,         Agreement — Southwest Area;
U.S. Federal Government Markets Division;            NL-AR-09-002; 3/3/2009                                Cumberland Post Office — Cumberland, MD;
CA-CAR-09-005; 1/15/2009                                                                                   FF-AR-09-041; 12/12/2008




                                                                                                                              October 1, 2008 – March 31, 2009 | 47
APPENDIX A




Negative Master Trust Balance at the                               Arlington Station — Jacksonville, FL;             Conway Business Mail Entry Unit — Conway, SC;
Kansas City Stamp Fulfillment Services Store;                      FF-AR-09-125; 3/19/2009                           FF-AR-09-131; 3/26/2009
FF-MA-09-001; 10/10/2008
                                                                   Asbury Park Business Mail Entry Unit —            Corbin Business Mail Entry Unit — Corbin, KY;
Post Offices, Stations, and Branches;                              Asbury Park, NJ; FF-AR-09-106; 2/27/2009          FF-AR-09-019; 11/20/2008
FF-AR-09-055; 12/26/2008
                                                                   Athens Business Mail Entry Unit — Athens, AL;     Decatur Business Mail Entry Unit — Decatur, TX;
Self-Service Postal Centers;                                       FF-AR-09-086; 2/9/2009                            FF-AR-09-113; 3/11/2009
FF-AR-09-034; 12/4/2008
                                                                   Bellingham Post Office — Bellingham, MA;          Deer Lodge Business Mail Entry Unit —
Fiscal Year 2008 Postal Service Financial                          FF-AR-09-039; 12/10/2008                          Deer Lodge, MT; FF-AR-09-122; 3/19/2009
Statement Audits
                                                                   Boerne Business Mail Entry Unit — Boerne, TX;     Denver General Mail Facility — Denver, CO;
Control Issues; FT-MA-09-002; 1/20/2009                            FF-AR-09-121; 3/18/2009                           FF-AR-09-047; 12/17/2008

Washington, DC, Headquarters;                                      BOI-Five Mile Station V — Boise, ID;              Downingtown Post Office — Downingtown, PA;
FT-AR-09-007; 1/16/2009                                            FF-AR-09-053; 12/23/2008                          FF-AR-09-069; 1/9/2009

San Mateo Information Technology and Accounting                    Bremen Business Mail Entry Unit — Bremen, IN;     Dunlevy Post Office — Dunlevy, PA;
Service Center; FT-AR-09-004; 12/9/2008                            FF-AR-09-088; 2/6/2009                            FF-AR-09-035; 12/3/2008

St. Louis Information Technology and Accounting                    Bridgeport Post Office — Bridgeport, CT;          Durham Business Mail Entry Unit — Durham, NC;
Service Center; FT-AR-09-009; 2/23/2009                            FF-AR-09-102; 2/24/2009                           FF-AR-09-091; 2/10/2009

Eagan Information Technology and Accounting                        Bryant Station — Long Beach, CA;                  El Monte Main Post Office — El Monte, CA;
Service Center; FT-AR-09-002; 11/20/2008                           FF-AR-09-110; 3/5/2009                            FF-AR-09-095; 2/17/2009

Opinion on the Postal Service’s Fiscal Year 2008                   Buffalo Business Mail Entry Unit — Buffalo, NY;   Electra Main Post Office — Electra, TX;
Special-Purpose Financial Statements;                              FF-AR-09-022; 11/20/2008                          FF-AR-09-007; 11/4/2008
FT-AR-09-001; 11/17/2008
                                                                   Cabrillo Station — Long Beach, CA;                Eugene Business Mail Entry Unit —
Postal Service Board of Governors Travel and                       FF-AR-09-030; 11/28/2008                          Springfield, OR; FF-AR-09-067; 1/8/2009
Miscellaneous Expenses for Fiscal Year 2008;
FT-AR-09-003; 11/21/2008                                           Cameron Post Office — Cameron, WV;                Fallon Main Post Office — Fallon, NV;
                                                                   FF-AR-09-031; 12/2/2008                           FF-AR-09-130; 3/26/2009
Postal Service Officers’ Travel and Representation
Expenses for Fiscal Year 2008;                                     Campobello Post Office — Campobello, SC;          Ferndale Business Mail Entry Unit —
FT-AR-09-006; 1/20/2009                                            FF-AR-09-132; 3/26/2009                           Ferndale, WA; FF-AR-09-120; 3/18/2009

Fiscal Year 2009 Financial Installation Audit                      Cape May Main Post Office — Cape May, NJ;         Ferron Main Post Office — Ferron, UT;
                                                                   FF-AR-09-020; 11/20/2008                          FF-AR-09-008; 11/5/2008
Akron Business Mail Entry Unit — Akron, OH;
FF-AR-09-119; 3/17/2009                                            Champaign Post Office — Champaign, IL;            Forest Post Office — Forest, VA;
                                                                   FF-AR-09-018; 11/20/2008                          FF-AR-09-103; 2/24/2009
Akron-Copley Branch — Akron, OH;
FF-AR-09-006; 11/3/2008                                            Champlain Business Mail Entry Unit —              Fort Lauderdale Main Post Office — Fort
                                                                   Champlain, NY; FF-AR-09-045; 12/17/2008           Lauderdale, FL; FF-AR-09-046; 12/17/2008
Alderson Business Mail Entry Unit —
Alderson, WV; FF-AR-09-070; 1/13/2009                              Charleston Business Mail Entry Unit —             Frederick Post Office — Frederick, MD;
                                                                   Charleston, SC; FF-AR-09-004; 10/31/2008          FF-AR-09-115; 3/16/2009
Alton Business Mail Entry Unit — Alton, IL;
FF-AR-09-075; 1/15/2009                                            Cincinnati Business Mail Entry Unit —             Glen Mills Business Mail Entry Unit —
                                                                   Cincinnati, OH; FF-AR-09-098; 3/26/2009           Glen Mills, PA; FF-AR-09-128; 3/25/2009
Anson Jones Station — Houston, TX;
FF-AR-09-054; 12/23/2008                                           Cobb Post Office — Cobb, CA;                      Grand Prairie Business Mail Entry Unit —
                                                                   FF-AR-09-109; 3/5/2009                            Grand Prairie, TX; FF-AR-09-049; 12/18/2008
Arkadelphia Business Mail Entry Unit —
Arkadelphia, AK; FF-AR-09-015; 11/18/2008                          Colchester Post Office — Colchester, VT;          Greensboro Business Mail Entry Unit —
                                                                   FF-AR-09-010; 11/7/2008                           Greensboro, NC; FF-AR-09-043; 12/15/2008




48 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                              APPENDIX A




Heber Main Office — Heber, CA;                    Middletown Business Mail Entry Unit —               Pittsburgh General Mail Facility Finance Station —
FF-AR-09-021; 11/20/2008                          Middletown, CT; FF-AR-09-101; 2/24/2009             Pittsburgh, PA; FF-AR-09-133; 3/31/2009

Helena Business Mail Entry Unit — Helena, MT;     Moncks Corner Business Mail Entry Unit —            Pleasantville Business Mail Entry Unit —
FF-AR-09-078; 1/23/2009                           Moncks Corner, SC; FF-AR-09-011; 11/6/2008          Pleasantville, NJ; FF-AR-09-118; 3/16/2009

High-Risk Contract Postal Units;                  Monroe Business Mail Entry Unit — Monroe, WI;       Poughkeepsie Business Mail Entry Unit —
FF-MA-09-003; 3/31/2009                           FF-AR-09-124; 3/19/2009                             Poughkeepsie, NY; FF-AR-09-108; 3/3/2009

Hinesville Business Mail Entry Unit —             Mt. Morris Business Mail Entry Unit —               Powell Business Mail Entry Unit — Powell, TN;
Hinesville, GA; FF-AR-09-105; 2/27/2009           Mt. Morris, IL; FF-AR-09-090; 2/10/2009             FF-AR-09-044; 12/17/2008

Imperial Post Office — Imperial, MO;              New Haven Business Mail Entry Unit —                Princeton Post Office — Princeton, MO;
FF-AR-09-116; 3/16/2009                           New Haven, KY; FF-AR-09-083; 2/2/2009               FF-AR-09-062; 12/30/2008

Industry General Mail Facility Business Mail      New Wilmington Business Mail Entry Unit —           Ravenswood Business Mail Entry Unit —
Entry Unit — City of Industry, CA;                New Wilmington, PA; FF-AR-09-059; 12/26/2008        Ravenswood, WV; FF-AR-09-033; 12/2/2008
FF-AR-09-068; 1/8/2009
                                                  New York Main Post Office — New York, NY;           Red Bank Business Mail Entry Unit —
LaFayette Business Mail Entry Unit —              FF-AR-09-060; 12/29/2008                            Eatontown, NJ; FF-AR-09-082; 2/2/2009
LaFayette, GA; FF-AR-09-114; 3/16/2009
                                                  Newark Business Mail Entry Unit — Newark, OH;       Rollinsville Main Post Office — Rollinsville, CO;
LaSalle Business Mail Entry Unit — LaSalle, IL;   FF-AR-09-064; 1/6/2009                              FF-AR-09-037; 12/5/2008
FF-AR-09-023; 11/21/2008
                                                  Newburyport Business Mail Entry Unit —              Salisbury Post Office — Salisbury, NH;
Latrobe Business Mail Entry Unit — Latrobe, PA;   Newburyport, MA; FF-AR-09-036; 12/10/2008           FF-AR-09-135; 3/31/2009
FF-AR-09-076; 1/15/2009
                                                  Newcastle Post Office — Newcastle, OK;              San Andreas Post Office — San Andreas, CA;
Lawtey Post Office — Lawtey, FL;                  FF-AR-09-016; 11/19/2008                            FF-AR-09-092; 2/11/2009
FF-AR-09-117; 3/17/2009
                                                  Norman Main Post Office — Norman, OK;               San Bernardino General Mail Facility
Lehigh Valley Business Mail Entry Unit —          FF-AR-09-097; 2/18/2009                             Window Service — Redlands, CA;
Lehigh Valley, PA; FF-AR-09-003; 10/31/2008                                                           FF-AR-09-009; 11/6/2008
                                                  North Dartmouth Post Office — North Dartmouth,
Linn Business Mail Entry Unit — Linn, MO          MA; FF-AR-09-056; 12/26/2008                        San Luis Rey Station — Oceanside, CA;
FF-AR-09-013; 11/14/2008                                                                              FF-AR-09-104; 2/26/2009
                                                  North Reading Business Mail Entry Unit —
Los Angeles Airport Station — Los Angeles, CA;    North Reading, MA; FF-AR-09-136; 3/31/2009          Saratoga Business Mail Entry Unit —
FF-AR-09-012; 11/13/2008                                                                              Saratoga, CA; FF-AR-09-071; 1/13/2009
                                                  Olive Branch Business Mail Entry Unit —
Lukeville Post Office — Lukeville, AZ;            Olive Branch, MS; FF-AR-09-093; 2/12/2009           Shawnee Mission Business Mail Entry Unit —
FF-AR-09-094; 2/17/2009                                                                               Shawnee Mission, KS; FF-AR-09-066; 1/7/2009
                                                  Ontario Business Mail Entry Unit — Ontario, CA;
Main Office Window Service Post Office —          FF-AR-09-065; 1/6/2009                              Sicklerville Business Mail Entry Unit —
Trenton, NJ; FF-AR-09-061; 1/8/2009                                                                   Sicklerville, NJ; FF-AR-09-074; 1/14/2009
                                                  Orange Business Mail Entry Unit — Orange, CA;
Manassas Business Mail Entry Unit —               FF-AR-09-025; 11/25/2008                            South Florida Mail Processing Center
Manassas, VA; FF-AR-09-032; 12/2/2008                                                                 Window Unit — Pembroke Pines, FL;
                                                  Palatine Business Mail Entry Unit — Palatine, IL;   FF-AR-09-107; 2/27/2009
Maquoketa Business Mail Entry Unit —              FF-AR-09-084; 2/3/2009
Maquoketa, IA; FF-AR-09-063; 1/6/2009                                                                 St. Peters Business Mail Entry Unit —
                                                  Peabody Business Mail Entry Unit — Peabody, MA;     St. Peters, MO; FF-AR-09-026; 12/3/2008
Marysville Business Mail Entry Unit —             FF-AR-09-057; 12/26/2008
Marysville, CA; FF-AR-09-073; 1/13/2009                                                               St. Petersburg Main Post Office —
                                                  Perkins Branch — Sacramento, CA;                    St. Petersburg, FL; FF-AR-09-089; 2/18/2009
Memphis Business Mail Entry Unit —                FF-AR-09-096; 2/18/2009
Memphis, TN; FF-AR-09-127; 3/23/2009                                                                  Sterling Main Post Office — Sterling, VA;
                                                  Phi-Tacony Station — Philadelphia, PA;              FF-AR-09-111; 3/5/2009
Merrifield Business Mail Entry Unit —             FF-AR-09-129; 3/26/2009
Merrifield, VA; FF-AR-09-014; 11/19/2008




                                                                                                                         October 1, 2008 – March 31, 2009 | 49
APPENDIX A




Sterling Post Office — Sterling, KS;                               PRESERVING INTEGRITY                                  Security Vulnerability Assessment of the
FF-AR-09-112; 3/10/2009                                                                                                  Automated Postal Center Infrastructure;
                                                                   Delivery                                              IS-CS-09-002; 2/25/2009
Stockbridge Post Office — Stockbridge, WI;
FF-AR-09-081; 1/28/2009                                            Management of City Letter Carriers’ Street            Service Continuity at the Information Technology
                                                                   Performance; DR-MA-09-001 ( R ); 2/23/2009            and Accounting Service Centers for Fiscal Year
Sunnyvale Business Mail Entry Unit —                                                                                     2008; IS-AR-09-003; 1/20/2009
Sunnyvale, CA; FF-AR-09-017; 11/19/2008                            Engineering
                                                                                                                         Inspection Service & Facilities
Tallahassee Business Mail Entry Unit —                             Radio Frequency Identification Technology: Asset
Tallahassee, FL; FF-AR-09-077; 1/23/2009                           Management; DA-AR-09-002; 12/24/2008                  Assessment of the Postal Inspection Service
                                                                                                                         Compliance Review Program and Follow-up to the
Tempe Main Post Office — Tempe, AZ;                                Field Financial
                                                                                                                         Newark Division Review;
FF-AR-09-100; 2/23/2009                                                                                                  SA-MA-09-001; 1/12/2009
                                                                   Fiscal Year 2008 Eastern Area
Times Plaza Automated Postal Center —                              SmartPay® Purchase Card Program;
                                                                                                                         Handling of Suspicious Mail at the Huntsville
Brooklyn, NY; FF-AR-09-058; 12/26/2008                             FF-AR-09-002; 10/21/2008
                                                                                                                         Processing and Distribution Facility;
                                                                   Fiscal Year 2008 New York Metro Area                  SA-AR-09-001; 10/31/2008
Van Nuys Main Post Office — Van Nuys, CA;
FF-AR-09-085; 2/5/2009                                             SmartPay® Purchase Card Program;
                                                                                                                         Maintenance Facility Repairs;
                                                                   FF-AR-09-028; 11/28/2008
                                                                                                                         SA-AR-09-002; 12/16/2008
Versailles Business Mail Entry Unit —
Versailles, KY; FF-AR-09-099; 2/20/2009                            Fiscal Year 2008 Northeast Area
                                                                                                                         National Leased Facility Maintenance
                                                                   SmartPay® Purchase Card Program;
                                                                                                                         Responsibility; SA-AR-09-003; 3/31/2009
Wapato Main Post Office — Wapato, WA;                              FF-AR-09-001; 10/22/2008
FF-AR-09-042; 12/10/2008                                                                                                 Sales & Service
                                                                   Fiscal Year 2008 SmartPay® Purchase Card
Waynesboro Business Mail Entry Unit —                              Program; FF-AR-09-051; 12/22/2008                     Click-N-Ship Refunds;
Waynesboro, GA; FF-AR-09-080; 1/28/2009                                                                                  MS-MA-09-003; 3/19/2009
                                                                   Imprudent Spending Using the SmartPay®
Westgate Branch Post Office — Rochester, NY;                       Purchase Card; FF-MA-09-002; 1/20/2009                Supply Management
FF-AR-09-134; 3/31/2009
                                                                   Financial Reporting                                   Controls Over Delegation of Authority for Medical
Winston Salem Business Mail Entry Unit —                                                                                 Agreements; CA-AR-09-001; 10/17/2008
Winston Salem, NC; FF-AR-09-079; 1/27/2009                         Postal Service Management Instruction —
                                                                   Expenses for Internal and External Events;            Postal Service Oversight of Extra
Womelsdorf Post Office — Womelsdorf, PA;                           FT-MA-09-001; 1/13/2009                               Highway Transportation Contract Trips;
FF-AR-09-005; 10/31/3008                                                                                                 CA-AR-09-003; 2/27/2009
                                                                   Information Systems
Yuma Foothills Station — Yuma, AZ;
FF-AR-09-126; 3/20/2009                                            Access Controls in the Enterprise Data Warehouse;
                                                                   IS-AR-09-004; 2/20/2009
Rock Springs Business Mail Entry Unit —
Rock Springs, WY; FF-AR-09-050; 12/19/2008                         Electronic Travel Voucher System Controls;
                                                                   IS-AR-09-001; 10/8/2008
Watersmeet Post Office — Watersmeet, MI;
FF-AR-09-048; 12/29/2008                                           Fiscal Year 2008 Information Systems General
                                                                   Computer Controls Capping Report;
Human Capital                                                      IS-AR-09-005; 3/19/2009

Workplace Safety and Injury Reduction Goals                        Security Policies and Procedures (Corporate-Wide)
in Selected Capital Metro Area Facilities;                         at the Information Technology and Accounting
HM-AR-09-001; 2/27/2009                                            Service Centers for Fiscal Year 2008;
                                                                   IS-AR-09-002; 11/13/2008
Statistical Tests for Fiscal Year 2008
                                                                   Security Vulnerability Assessment of Chase Insight;
Cost and Revenue Analysis;                                         IS-CS-09-001; 2/11/2009
FF-AR-09-024; 11/24/2008




50 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                            APPENDIX B




APPENDIX B
Findings Of Questioned Costs
For the period October 1, 2008 – March 31, 2009

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.

                                                                                                                                                          Unsupported Costs Included
    Description                                                                                   Number of Reports            Questioned Costs                  in Questioned Costs
    Reports for which no management decision was made at the beginning of the                                        10                $17,024,975                           $10,025,224
    reporting period
    Reports requiring management decision that were issued during the reporting period                               64               $157,980,085                          $125,011,539
    TOTAL                                                                                                           74              $175,005,060                          $135,036,763


    Reports for which a management decision was made during the reporting period (i+ii)                              71               $106,326,835                           $67,072,793
                                                       1
                 (i) Dollar Value of disallowed cost                                                                  –                $76,660,240                           $56,076,780
                 (ii) Dollar value of cost not disallowed2                                                            –                $29,666,595                            $10,996013
                                                                                           3
    Reports for which no management decision was made by the end of the reporting period                              2                $68,678,225                           $67,963,970
    Negotiations are ongoing
    Reports for which no management decision was made within 6 months of issuance3                                    1                   $169,539                                       –
    (See Note 1 for a list of individual reports)
    Reports for which no management decision was made within 1 year of issuance                                       –                            –                                     –
    (See Note 2 for a list of individual reports)
    Contract reports with significant audit finding                                                                   –                            –                                     –
    (See Note 3 for a list of individual reports)



Note 1 — Reports for which no management decision was made within 6 months of issuance:

                                                                                                                                                    Unsupported Costs Included in
    Subject                                                  Report/Case Number                Report Date             Questioned Costs                         Questioned Costs
    Vehicle Management — National Trailer                    NL-AR-08-007                      9/29/2008                           $169,539                                              –
    Lease Renewal — Southeast Area
    TOTAL                                                                                                                        $169,539                                                –


Note 2 — Reports for which no management decision was made within 1 year of issuance:
None for this report period.


Note 3 — Contract reports with a significant audit finding:
None for this report period.



1
    These amounts represent the value of recommendations agreed to by management.
2
    These amounts represent the value of recommendations that were not agreed to by management.
3
    Management has agreed to take corrective actions, but the amount of agreed monetary benefits cannot be determined until those actions are complete.




                                                                                                                                                       October 1, 2008 – March 31, 2009 | 51
APPENDIX C




APPENDIX C
Recommendations That Funds Be Put to Better Use
For the period October 1, 2008 – March 31, 2009

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that can be put to
better use by management.

Funds Put to Better Use: Funds that could be used more efficiently by implementing recommended actions.

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that can be put to
better use by management.

    Description                                                                                         Number of Reports          Dollar Value
    Reports for which no management decision was made at the beginning of the reporting period                              3        $15,053,641
    Reports issued during the reporting period                                                                             16      $240,028,711
    TOTAL                                                                                                                  19    $255,082,352


    Reports for which a management decision was made during the report period                                              17      $253,026,254
        (i) Value of recommendations agreed to by management                                                                        $211,088,516
        (ii) Value of recommendations that were not agreed to by management                                                          $41,937,738
                                                                                            1
    Reports for which no management decision was made by the end of the reporting period                                    2         $2,056,098
    Reports for which no management decision was made within 6 months of issuance1                                          1         $2,036,705
    (See Note 1 for a list of individual reports)


    Note 1 — Reports for which no management decision was made
             within 6 months of issuance:


    Subject                                                                                                  Report Number         Report Date            Recommend Funds
                                                                                                                                                            Put to Better Use
    Vehicle Management — National Trailer Lease Renewal — Southeast Area                                          NL-AR-08-007         9/25/2008                    2,036,705
    TOTAL                                                                                                                                                          $2,036,705



1
    Management has agreed to take corrective actions, but the amount of agreed monetary benefits cannot be determined until those actions are complete.




52 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                                   APPENDIX D




APPENDIX D
Reported Non-Monetary Benefits
For the period October 1, 2008 – March 31, 2009

Overview

Many of our audit reports identify areas for improvement that result in non-monetary benefits to the Postal Service. These benefits include improvements to
service, protection of assets, and improvements in the reliability of data.


                                                                                                                                    Type of Measure                          Value or Amount
 IMPROVED SERVICE
 Recommendations that address the Postal Service’s efforts to improve the quality and accessibility of its                          Number of Recommendations                                 54
 products and services
 Number of customer service audits conducted                                                                                        Number of Audits                                           14
 SAFEGUARDING ASSETS
 Assets or Accountable Items at Risk
 Inadequate internal controls put the value of assets or accountable items (such as cash and stamps) at risk of loss                Dollar Value                                  $926,429,250
 Physical Safety and Security
 Dollar value of physical assets (plant, computer equipment, vehicles, and so forth) at risk of loss due to                         Dollar Value                                                –
 inadequate physical protection
 Recommendations that address the safety and security of Postal Service employees and/or the work environment                       Number of Recommendations                                 26
 Number of employee/facility safety and security audits conducted                                                                   Number of Audits                                           15
 Information Technology Security
 Inadequate controls/protection put the value of data, IT assets (software, networks), and employee work time at risk of loss       Dollar Value                                                –
 Number of data security and /IT security audits conducted                                                                          Number of Audits                                           13
 Revenue at Risk
 Dollar value of revenue that the Postal Service is at risk of losing (mailer seeking alternative solutions for current services)   Dollar Value                                       $633,416
 Disbursements at Risk
 Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed                   Dollar Value                                     $1,209,402
 Goodwill / Branding
 An “adverse impact” on goodwill is an actual event/problem that harms the Postal Service’s reputation or a potential               Number of Issues Identified                                11
 problem that could negatively impact the Postal Service “brand name”
 RELIABILITY OF DATA
 Records at Risk
 Data at risk of corruption or loss due to inadequate internal controls and or protection                                           Number of Data Records at Risk                              –
 Dollar value of data used to support management decisions that is not fully supported or completely accurate                       Dollar Value                                                –




                                                                                                                                                              October 1, 2008 – March 31, 2009 | 53
APPENDIX E




APPENDIX E
Reports with Significant Recommendations Pending Corrective Actions
For the period through March 31, 2009

As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the end of the
reporting period.


                                                         Report Title, Recommendation Summary

                                                                      R = Recommendation number
 Report Number                    Issue Date                          TID = Target Implementation Date
 NO-AR-05-011                     6/17/2005              Efficiency of the Los Angeles International Service Center

                                                         R-1 — Reduce mail processing workhours by 85,000. TID: October 2010

 HM-AR-06-004                     5/19/2006              Postal Service’s Injury Compensation Programs’ Controversion and Challenge Process in Selected Areas

                                                         R-2 — Provide sufficient oversight of injury compensation control offices by including steps to validate the proper tracking and
                                                               monitoring of controverted and challenged claims in the Human Resource Information System and the Claim Control Register in
                                                               their Area Program reviews. TID: September 2009
 FT-AR-06-016                     3/31/2006              Postal Service’s Share of Health Insurance Premiums for Retired Employees

                                                         R-1 — Establish and communicate policies and procedures to continuously monitor the accuracy of the Postal Service’s share of
                                                               health insurance premiums paid for retires and survivors. TID: May 2009
 DR-AR-06-007                     8/9/2006               Overdrawn Express Mail Corporate Accounts

                                                         R-3 — Convert all trust Express Mail Corporate Accounts to Automated Clearing House or credit card accounts. TID: March 2009
 HM-AR-06-006                     8/29/2006              Postal Service’s Grievance-Arbitration Service Centers

                                                         R-8 — Automate the processing and payment of arbitrator invoices using an existing Postal Service electronic purchasing system.
                                                               TID: May 2009
 EN-AR-07-002                     12/5/2006              Service Implications of Area Mail Processing Consolidations

                                                         R-4 — Revise the Collection Point Management System to track changes to collection box pick-up times. TID: September 2010
 SA-AR-07-002                     3/30/2007              Postal Service Security Controls and Processes for the Capital Metro Area

                                                         R-1 — Provide consolidated standard operating procedures and guidance to assist in performing duties and responsibilities
                                                               consistently and in a timely manner. TID: December 2009

                                                         R-4 — Establish requirements for mandatory security training including periodic refresher training, for responsible security personnel
                                                               at the area-, district-, and facility-levels. TID: December 2009

                                                         R-5 — Develop performance measures to assess the achievement of security goals. TID: December 2009
 SA-AR-07-003                     5/9/2007               Postal Service Security Controls and Processes for the Pacific Area

                                                         R-2 — Develop appropriate performance measures for physical security to assess the achievement of security goals and incorporate
                                                               them into performance plans for area-, district-, and field-level security personnel. TID: December 2009
 HM-AR-07-002                     5/16/2007              Postal Service’s Workplace Safety and Workplace-Related Injury Reduction Goals and Progress

                                                         R-1 — Closely monitor conversion to the SAP Environmental Health and Safety module. Ensure the upgraded system captures costs
                                                               by facility, district/performance cluster, and area office, as well as the costs for identified key categories. TID: September 2010
 DR-MA-07-004                     6/14/2007              Management of Retail Work Hours in Relation to the Workload for Mobile Units — Triboro District

                                                         R-1 — Revise the Handbook for Retail Operations, to include standard procedures for mobile units. TID: July 2009

                                                         R-2 — Distribute the revised Handbook for Retail Operations to Area officials for implementation. TID: July 2009




54 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                      APPENDIX E




                             Report Title, Recommendation Summary

                                         R = Recommendation number
Report Number   Issue Date               TID = Target Implementation Date
IS-AR-07-016    8/20/2007    Audit of Database Administration Practices

                             R-2 — Establish policies and procedures for the protection and use of sensitive data in the test, development, and production
                                   environments. TID: June 2009
IS-AR-07-017    8/29/2007    Separation of Duties at the Eagan, MN; San Mateo, CA; and St. Louis, MO, Information Technology and
                                   Accounting Service Centers

                             R-1 — Assess the risk of the duties of all Information Technology and Accounting Service Center positions for the purpose of assigning
                                   these positions as sensitive. TID: September 2009

                             R-4 — Coordinate with the Postal Inspection Service to ensure the proper clearance level is attributed to employees. TID: April 2009
FF-AR-07-254    9/28/2007    Chicago District Financial Accountability

                             R-6 — Monitor monthly compliance with the cash deposit procedures for the Grand Crossing Station, until remediation of the issue
                                   has been maintained for 12 months. TID: March 2009
FT-AR-08-005    1/24/2008    New York International Service Center — Inbound International Mail

                             R-1 — Establish and communicate policies and procedures to address the complete processing and billing cycle for inbound
                                   international mail. TID: March 2009

                             R-3 — Direct International Accounting Branch and appropriate systems personnel to establish controls to ensure that foreign postal
                                   administrations are correctly billed for all valid dispatches, including dispatch numbers used more than once in a calendar year.
                                   TID: June 2009
CRR-AR-08-002   2/12/2008    Security Review of the Electronic Verification System

                             R-2 — Revise Publication 91, Confirmation Services Technical Guide, to require mailers to utilize a secure file transfer method when
                                   transmitting manifests for electronic verification to the Postal Service. TID: December 2009
EN-AR-08-002    2/29/2008    St. Louis Airport Mail Center Outsourcing

                             R-2 — Establish a post-implementation review program for Airport Mail Centers (AMC) that compares anticipated savings with actual
                                   results. TID: June 2009

                             R-3 — Conduct a post-implementation review for the St. Louis AMC closure and outsourcing initiative using the guidance established
                                   in recommendation 2. TID: June 2009
DR-AR-08-004    3/4/2008     City Delivery Vehicle Mileage — Base Versus Actual — National Capping Report

                             R-2 (b) — Revising the Automated Vehicle Utilization System to eliminate the possibility of negative miles being recorded by modifying
                                     the system to prevent input of the ending mileage being less than the beginning mileage. TID: July 2009
IS-AR-08-006    3/6/2008     Identity Theft Potential in Postal Service Information Systems

                             R-1 — Ensure that employees and contractors accessing identified systems have the appropriate security clearance and that the
                                   clearance status is documented with the access request. TID: June 2009

                             R-3 — Establish and implement host encryption solutions for data back-up dates prior to off-site shipping and storage. TID: May 2009
IS-AR-08-008    3/11/2008    National Accounting Oracle Financials Application Data Encryption Follow-Up

                             R-2 — Perform verification tests to ensure management identifies and adequately protects all sensitive information in accordance with
                                   policy. TID: June 2009
IS-AR-08-009    3/14/2008    Update Processes for Active Directory and CA-ACF2

                             R-1 — Review the manager roles in the two systems to determine how these roles can be integrated. TID: September 2010

                             R-2 — Review the capabilities and establish requirements for tracking employees assigned to detail positions and how to pass on
                                   timely and accurate data to another system. TID: September 2010




                                                                                                                               October 1, 2008 – March 31, 2009 | 55
APPENDIX E




                                                         Report Title, Recommendation Summary

                                                                      R = Recommendation number
 Report Number                    Issue Date                          TID = Target Implementation Date
 FF-AR-08-131                     3/19/2008              Fiscal Year 2007 Financial Installation Audits — Business Mail Entry Units

                                                         R-2 — Provide proper management oversight and instructions to schedule periodic verifications when Periodicals mailings are
                                                               received during non-business hours. TID: March 2009
 CRR-AR-08-003                    3/31/2008              Application Controls Review of the Electronic Verification System

                                                         R-1 — Re-evaluate all warning messages in the Product Tracking System to determine whether they impact the postage calculation.
                                                               TID: March 2009

                                                         R- 2 — Strengthen the edit rules in the Product Tracking System to enforce the requirements for destination entry discounts.
                                                               TID: June 2009

                                                         R-3 — Develop and implement formal procedures for sampling and monitor delinquent sampling. TID: December 2008
 CRR-AR-08-004                    3/31/2008              In-Office Cost System Telephone Readings

                                                         R-4 — Implement the expanded quality control program developed by Statistical Programs to identify and monitor data collectors with
                                                               a high number of inaccurate In-Office Cost System readings. TID: March 2009

                                                         R-5 — Follow the quality control procedures Statistical Programs has established to handle the In-Office Cost System readings that do
                                                               not meet data integrity standards to prevent such data from inclusion in national aggregation. TID: March 2009
 FT-AR-08-010                     3/31/2008              Fiscal Year 2007 Postal Service Financial Statements Audit — St. Louis Information Technology and
                                                                 Accounting Service Center

                                                         R-2 — Modify policies and procedures to include the destination facility validation in the highway extra trips payment process.
                                                               TID: June 2009
 DA-AR-08-005                     5/21/2008              Status of Intelligent Mail Enabling Infrastructure

                                                         R-1 — Clarify the 24-digit barcode requirements and funding for material handling systems. TID: May 2009

                                                         R-2 — Ensure contingency plans for the server consolidation program include extended maintenance for micro-computers or provide
                                                               for other appropriate contingency plans if deployment is delayed beyond 2009. TID: July 2009
 IS-AR-08-011                     6/3/2008               System Software Controls at the Eagan, Minnesota, and San Mateo, California Information Technology and
                                                               Accounting Service Centers for FY 2008

                                                         R-1 — Develop procedures to ensure UNIX administrators review exception reports and timely correct UNIX server settings
                                                               deficiencies to comply with hardening standards. TID: June 2009
 DA-AR-08-006                     6/4/2008               Flats Sequencing System: Production First Article Testing Readiness and Quality

                                                         R-4 — Develop a recovery schedule to ensure the Preliminary Production Baseline Technical Data Package will be available before the
                                                               production First Article Test begins. TID: March 2009

                                                         R-5 — Ensure that the initial Maintenance Diagnostic and Support System and the Program Control System functionalities are
                                                               available for First Article Testing and develop a schedule for future design releases. TID: July 2009

                                                         R-6 — Validate the supplier’s ability to provide qualified personnel to support Flats Sequencing Systems on all mail processing tours.
                                                               TID: May 2009

                                                         R-7 — Ensure that the supplier follows the quality control plan and the configuration control process and validates that the first five
                                                               production systems are built to the same drawing configuration. TID: October 2009
 SA-MA-08-002                     6/17/2008              Location of Southeast Area Office Space

                                                         R-2 — Conduct a detailed analysis to determine the optimal location for the Southeast Area office. TID: June 2009
 IS-AR-08-012                     6/25/2008              Security Vulnerability Assessment of the Electronic Travel Voucher System

                                                         R-5 — Work together to implement Triple Data Encryption Standard cryptography to encrypt credit card numbers stored within the
                                                               Electronic Travel Voucher System. TID: September 2009




56 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                        APPENDIX E




                             Report Title, Recommendation Summary

                                          R = Recommendation number
Report Number   Issue Date                TID = Target Implementation Date
EN-AR-08-004    7/16/2008    Miami Airport Mail Center Outsourcing

                             R-1 — Perform a post-implementation review to determine the cost savings from the Miami Airport Mail Center outsourcing initiative.
                                   TID: June 2009
FF-MA-08-001    7/21/2008    Fiscal Year 2008 — Use of No-Fee Money Orders

                             R-2 — Evaluate the feasibility of restricting the use of no-fee money orders for local purchases in order to reduce the Postal Service’s
                                   exposure to financial loss. TID: September 2009
SA-AR-08-008    7/23/2008    Leased Facility Maintenance Responsibility in the Great Lakes Area

                             R-2 — Require the Great Lakes Facilities Service Office to collect the $62,625 in recoverable supported questioned costs.
                                   TID: January 2013
SA-AR-08-009    7/23/2008    Postal Service Continuity of Operations for the Great Lakes Area

                             R-1 — Update contact information of key continuity of operations personnel at least semiannually, or more often as changes occur.
                                   TID: March 2009

                             R-2 — Complete continuity of operations training, including Postal Alert and Notification System training. TID: June 2009

                             R-3 — Identify and prioritize essential functions. TID: June 2009

                             R-4 — Establish a formal review process to ensure continuity of operations plans are completed, updated annually, and maintained in
                                   the Postal Alert and Notification System, as required. TID: June 2009

                             R-5 — Establish an area emergency management coordinating committee to provide oversight and assistance to district and facility
                                   Emergency Management Teams in establishing, implementing, and reviewing emergency management plans. TID: June 2009

                             R-6 — Establish specific guidance for identifying and selecting alternate facilities, to include, at a minimum, the number of alternate
                                   facilities that should be identified, and criteria regarding location, mail volume, and mail capacity. TID: March 2009

                             R-7 — Require personnel responsible for continuity of operations at primary and alternate facilities to conduct tests and exercises to
                                   ensure alternate facilities can effectively process the primary facilities’ mail. TID: June 2009
SA-AR-08-010    7/24/2008    Postal Service Continuity of Operations for the Pacific Area

                             R-1 — Establish a formal review process to ensure continuity of operations plans are completed, updated annually, and maintained in
                                   the Postal Alert Notification System, as required. TID: June 2009
MS-AR-08-005    7/31/2008    Business Mail Entry Unit Sampling and Verification Procedures

                             R-1 — Assess the placement and usage of Mailing Evaluation Readability and Lookup INstrument machines at all Business Mail Entry
                                   Units. TID: March 2009

                             R-2 —Request PostalOne! software modifications. TID: March 2009

                             R-3 — Review PostalOne! reports to determine the validity of reasons for any mailing of more than 10,000 pieces not receiving a
                                   required verification. TID: March 2009

                             R-4 — Analyze staffing and efficiency to determine staffing requirements at direct mail units and develop a procedure for assigning
                                   backup personnel as needed to perform the required verifications. TID: March 2009
DA-AR-08-009    8/7/2008     Equipment Maintenance in the Fort Worth District

                             R-1 — Establish an action plan to increase equipment maintenance completion rates at the Lubbock, Wichita Falls, and Abilene mail
                                   processing facilities. TID: August 2010

                             R-2 — Establish a shared maintenance and operational action plan for minimizing letter mail machine rejects at processing plants in
                                   the Fort Worth District. TID: September 2009




                                                                                                                                 October 1, 2008 – March 31, 2009 | 57
APPENDIX E




                                                         Report Title, Recommendation Summary

                                                                      R = Recommendation number
 Report Number                    Issue Date                          TID = Target Implementation Date
 SA-AR-08-013                     8/22/2008              Security Clearances for Postal Service Employees

                                                         R-1 — Establish and implement a policy to periodically assess the risks associated with the duties of all Postal Service positions to
                                                               determine which positions require a security clearance. TID: September 2009

                                                         R-2 — Revise the Administrative Support Manual, as appropriate, to reflect changes to the list of positions requiring a security
                                                               clearance. TID: September 2009
 CRR-AR-08-006                    8/25/2008              Controls Over the International Reconciliation System

                                                         R-2 — Ensure all significant issues identified during Customer Acceptance Test are corrected before placing the software release into
                                                               production. TID: September 2009

                                                         R-4 — Promptly incorporate edit requirements provided by the end-user into International Reconciliation System functionality.
                                                               TID: September 2009
 IS-AR-08-016                     8/29/2008              Identity Theft Potential in the Change of Address Process

                                                         R-1 — Update the Internet and Telephone Change of Address applications. TID: March 2009

                                                         R-2 — Develop and implement a plan of action, with milestones, to enhance controls for verifying that COA orders are legitimate
                                                               and authorized by the owner of the address. TID: March 2009
 NO-AR-08-007                     9/15/2008              Powered Industrial Vehicle Management System at the Raleigh Processing and Distribution Center

                                                         R-1 — Use the Powered Industrial Vehicle Management System to the fullest extent possible to manage operations and continue to
                                                               improve mail processing efficiency by reducing 9,000 workhours in tow and forklift operations by FY 2010. TID: October 2009
 EN-AR-08-007                     9/23/2008              Assessment of the Remote Encoding Center Network Consolidation Process

                                                         R-1 — Clarify the methodology used to select remote encoding centers for closure in future business cases. TID: February 2010
 NL-AR-08-006                     9/25/2008              Postal Vehicle Service Transportation Routes — Northern Virginia Processing and Distribution Center

                                                         R-5 — Analyze the use of the tractors that are nearing the end of their expected service lives, and develop an economical
                                                               requirement-based plan for their replacement, including possible replacement with surplus vehicles from other facilities.
                                                               TID: December 2009
 NL-AR-08-007                     9/25/2008              Vehicle Management — National Trailer Lease Renewal — Southeast Area

                                                         R-1 — Develop a comprehensive plan to identify trailer requirements and manage trailer inventory and use, including making use of
                                                               the installed satellite tracking devices on trailers. TID: April 2009

                                                         R-2 — Analyze the number of trailers needed to transport mail and equipment and return unneeded trailers to Postal Service
                                                               Headquarters for reallocation or return to the leasing contractor. TID: April 2009
 DR-AR-08-009                     9/29/2008              Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Great Lakes Area

                                                         R-5 — Maintain the most efficient combination of vehicle maintenances facility and commercial resources based on geographical
                                                               location and costs, and; make optimal use of the Postal Service’s national vehicle shuttle agreement or other local commercial
                                                               shuttle services, when cost effective, for transporting vehicles to and from maintenance facilities. TID: May 2009
 NL-AR-08-008                     9/29/2008              Air Networks — Federal Express Transportation Agreement — Western Area

                                                         R-1 — Use surface transportation to the extent possible for mail that does not require air transportation. TID: Not provided




58 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                        APPENDIX E




                             Report Title, Recommendation Summary

                                          R = Recommendation number
Report Number   Issue Date                TID = Target Implementation Date
MS-AR-08-006    9/30/2008    Political Campaign Mailings

                             R-1 — Consolidate the manual political mail log into the automated recordkeeping system in PostalOne! for all sites that have access
                                   to the PostalOne! system. Require sites that do not use the PostalOne! System, to maintain the manual political mail log and
                                   transmit the political campaign mailing information to their respective Business Mail Entry Units to be entered into PostalOne!.
                                   TID: December 2008

                             R-2 — Program PostalOne! to require employees to identify political campaign mailings in the system. TID: Not provided

                             R-3 — Reinforce to employees the importance of recording political campaign mail information. TID: December 2008

                             R-5 — Reinforce to employees the importance of advising mailers regarding late arriving political campaign mail. TID: December 2008

                             R-6 — Develop standard operating procedures for accepting, processing, and documenting political mail inquiries and their resolution.
                                   TID: Not provided

                             R-7 — Provide training for officials responsible for political campaign mail complaints. TID: Not provided
IS-AR-09-001    10/8/2008    Electronic Travel Voucher System Controls

                             R-1 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to arrange for lodging at the prevailing
                                   government lodging rate, whenever practical. TID: March 2009

                             R-2 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to obtain prior approval and justify exceeding
                                   the government lodging rate within the notes on the electronic voucher. TID: March 2009

                             R-3 — Customize the Electronic Travel Voucher System Controls (ETVS) to require the traveler to input a value in the room tax field
                                   (even if the room tax is zero) or provide the traveler with a check box to indicate taxes not applicable in cases where the lodging
                                   stay is tax exempt. TID: September 2010

                             R-4 — Customize the ETVS to remove the option to combine room rate and room taxes into a single entry. TID: March 2009
MS-AR-09-001    10/10/2008   Shortpaid Postage — Information-Based Indicia Priority Mail

                             R-2 — Update the Domestic Mail Manual (DMM) and other applicable manuals and handbooks to establish specific guidelines and
                                   assign roles and responsibilities for identifying shortpaid postage on Information-Based Indicia (IBI) Priority Mail, including a
                                   procedure for identifying counterfeit/duplicate IBI Priority Mail labels at mail entry points. TID: April 2009

                             R-3 — Provide formal training to employees who accept and process IBI Priority Mail. TID: October 2009

                             R-4 — Raise the level of awareness and importance regarding revenue protection by implementing a national initiative to identify and
                                   collect additional postage on shortpaid IBI Priority Mail. TID: Management working on closure request

                             R-5 — Require supervisors to conduct random verifications of postage paid on IBI Priority® Mail, ensure employees follow appropriate
                                   procedures to collect additional postage, and maintain a daily log for the random verifications results. TID: Not provided
MS-AR-09-002    10/14/2008   Shortpaid Postage — Information-Based Indicia Parcel Post Mail

                             R-2 — Update the DMM and other applicable manuals and handbooks to establish specific guidelines and assign roles and
                                   responsibilities for identifying shortpaid postage on Information-Based Indicia (IBI) Post mail, including a procedure for
                                   identifying counterfeit/duplicate IBI Post mail labels at mail entry points. TID: April 2009

                             R-3 — Provide formal training to employees who accept and process IBI Parcel Post mail. TID: October 2009

                             R-4 — Raise the level of awareness and importance regarding revenue protection by implementing a national initiative to identify and
                                   collect additional postage on shortpaid IBI Parcel Post mail. TID: Management working on closure request

                             R-5 — Require supervisors to conduct random verifications of postage paid on IBI Parcel Post mail, ensure employees follow
                                   appropriate procedures to collect additional postage, and maintain a daily log for the random verifications results.
                                   TID: Not provided




                                                                                                                                 October 1, 2008 – March 31, 2009 | 59
APPENDIX E




                                                         Report Title, Recommendation Summary

                                                                      R = Recommendation number
 Report Number                    Issue Date                          TID = Target Implementation Date
 MS-MA-09-001                     10/22/2008             Management Controls at Contractor-Operated Mail Processing Facilities

                                                         R-1 — Revise the “Representations and Certifications” section of Requests for Proposals. TID: December 2009

                                                         R-2 — Incorporate Supplying Principles and Practices Clause 1-7, Organizational Conflicts of Interest, in all requests for proposals and
                                                               contracts for outsourcing mail processing facilities. TID: March 2009

                                                         R-3 — Develop a conflict of interest mitigation plan for the current affected contracts, and develop a risk mitigation strategy regarding
                                                               potential conflicts of interest for future mail processing contracts. TID: March 2009

                                                         R-4 — Establish procedures to ensure the Postal Service reconciles mail scans captured by Surface Transfer Center and Terminal
                                                               Handling Services contractors with scans at the points of acceptance. TID: Not provided
 CA-MA-09-002                     12/1/2008              Management of Contract Changes — Flats Sequencing System

                                                         R-1 — Require contracting officers to fully document the rationale and basis for determining whether withheld payment amounts are
                                                               reasonable. TID: December 2009
 FF-AR-09-029                     12/2/2008              Fiscal Year 2008 Financial Installation Audit — Automated Postal Centers

                                                         R-1 — Develop and implement an action plan to reduce or eliminate the recurring reported deficiencies. TID: June 2009
 NO-AR-09-001                     12/3/2008              Powered Industrial Vehicle Management System at the Louisville, Kentucky Processing and Distribution Center

                                                         R-1 — Ensure the Powered Industrial Vehicle Management System at the Louisville P&DC functions as intended and produces
                                                               efficiency improvements. TID: September 2009

                                                         R-2 — Discontinue leasing Powered Industrial Vehicles by Quarter 2, FY 2009. This could produce a savings of $11,535 over 2 years.
                                                               TID: March 2009
 FF-AR-09-034                     12/4/2008              Fiscal Year 2008 Financial Installation Audits — Self-Service Postal Centers

                                                         R-1 — Develop and implement an action plan to reduce or eliminate reported deficiencies and reinforce closure policy.
                                                               TID: June 2009
 SA-AR-09-002                     12/16/2008             Maintenance Facility Repairs

                                                         R-1 — Issue supplemental guidance to ensure Field Maintenance Office personnel are aware of Postal Service policy that restricts
                                                               the use of the credit card to procure services, and include internal controls to ensure personnel comply with the policy.
                                                               TID: Management working on closure request

                                                         R-2 — Develop and implement training for Facility Maintenance Offices and Maintenance - Capable Offices on how to complete
                                                               Article 32 declinations. TID: June 2009

                                                         R-4 — Allow the accurate tracking of facility maintenance and repair orders, such as requiring maintenance personnel to include
                                                               Facility Single Source Provider call numbers on work orders in the electronic Maintenance Activity Reporting System.
                                                               TID: Management working on closure request

                                                         R-5 — Ensure that Facility Maintenance Office personnel require all Associate Office repair and alteration work, including additional
                                                               work requests performed while the Facility Maintenance Office personnel are on-site, to be generated through the Facility
                                                               Single Source Provider program. TID: March 2009
 DA-AR-09-001                     12/23/2008             Flats Sequencing System: Program Status

                                                         R-1 — Establish a risk mitigation plan for volume declines to include a reevaluation of sites scheduled to receive Flats Sequencing
                                                               System systems. TID: April 2009
 DA-AR-09-002                     12/24/2008             Radio Frequency Identification Technology: Asset Management.

                                                         R-1 — Explore opportunities to employ radio frequency identification technology to reduce the amount of losses in pallet inventories.
                                                               TID: Not provided




60 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                       APPENDIX E




                             Report Title, Recommendation Summary

                                          R = Recommendation number
Report Number   Issue Date                TID = Target Implementation Date
FF-AR-09-055    12/26/2008   Fiscal Year 2008 Financial Installation Audits — Post Offices, Stations, and Branches

                             R-1 — Develop and implement a plan to eliminate obsolete money order forms from Point-of-Service retail units. TID: April 2009

                             R-2 — Resolve the conflict between Handbook F-101 and Handbook AS-805 regarding writing down passwords. TID: June 2009

                             R-3 — Update Handbook F-101, Field Accounting Procedures, to eliminate references to Postal Service Form 1096. TID: June 2009

                             R-4 — Eliminate the electronic copy of Postal Service Form 1096 from the Postal Service Intranet. TID: June 2009

                             R-5 — Issue guidance to the field to destroy all copies of Postal Service Form 1096 and determine when all forms have been
                                   destroyed. TID: June 2009

                             R-6 — Update the Administrative Support Manual for securing and retaining Postal Service Form 5659 and Form DS-11.
                                   TID: March 2009
FT-MA-09-001    1/13/2009    Postal Service Management Instruction — Expenses for Internal and External Events

                             R-2 — Consult with senior level management to further update the Management Instruction, Expenses for Internal and External Events
                                   to require that all expenses associated with internal and external events be included in a unique general ledger account(s).
                                   TID: Not provided
DA-AR-09-003    1/14/2009    Philadelphia Metropolitan District: Overall Equipment Effectiveness

                             R-1 — Establish an action plan to increase equipment maintenance completion rates at the Philadelphia and Southeastern mail
                                   processing facilities. TID: February 2009

                             R-2 — Develop procedures to ensure compliance with letter mail operational standards for quality. TID: February 2009

                             R-3 — Ensure test decks are run while conducting preventive maintenance. TID: February 2009

                             R-4 — Establish a shared maintenance and operational action plan for minimizing Delivery Bar Code Sorter and Automated Flats
                                   Sorting Machine pieces at risk and reject rates at processing plants in the district. TID: February 2009
FF-AR-09-072    1/15/2009    Sierra Coastal District — Risk-Based Financial Audit

                             R-1 — Develop and implement an action plan with milestones to address the internal control issues at the units identified in this report,
                                   as well as the money order and stamp accountability issues district-wide. TID: March 2009
IS-AR-09-003    1/20/2009    Service Continuity at the Information Technology and Accounting Service Centers for Fiscal Year 2008

                             R-2 — Implement procedures to ensure UNIX backup tapes are stored off-site. TID: March 2009
DR-AR-09-003    1/27/2009    Vehicle Maintenance Facilities — Scheduled Maintenance Service in the Capital Metro Area

                             R-4 — Optimal use of national shuttle agreement or other local commercial shuttle services. TID: February 2009
NO-AR-09-002    1/29/2009    Timeliness of Mail Processing at the San Juan Processing and Distribution Center

                             R-1 — Monitor delayed mail on a daily basis and develop action plans, if necessary, to ensure timely processing of mail for the
                                   US Virgin Islands. TID: Not provided
DR-AR-09-004    1/30/2009    Vehicle Warranty Claims Process

                             R-1 — Modify Vehicle Maintenance Accounting System to readily identify warranty vehicles or establish an alternative method to
                                   identify warranty vehicles readily upon servicing. TID: November 2009

                             R-3 — Require district officials to periodically monitor warranty process for claims submitted and reimbursed. TID: March 2009

                             R-5 — Collaborate with vehicle manufacturer’s to ensure USPS receives detailed warranty reimbursement data to allow reconciliation.
                                   TID: November 2009




                                                                                                                                October 1, 2008 – March 31, 2009 | 61
APPENDIX E




                                                         Report Title, Recommendation Summary

                                                                      R = Recommendation number
 Report Number                    Issue Date                          TID = Target Implementation Date
 FF-AR-09-087                     2/9/2009               Bay-Valley District Financial Accountability Audit

                                                         R-1 — Develop and implement an action plan with milestones to address the disbursement, accountability, financial reporting, and
                                                               safeguarding asset issues detailed in this report for each unit, as well as on a district-wide basis. TID: May 2009
 NL-AR-09-001                     2/13/2009              Postal Vehicle Service Transportation Routes — Minneapolis Processing and Distribution Center

                                                         R-1 — Ensure managers follow prescribed fleet management procedures. TID: October 2009

                                                         R-2 — Verify elimination of the 13,562 hours that management agreed to remove. TID: August 2009

                                                         R-3 — Reassess the 9,247 hours and eliminate the hours as indicated by the reassessment or document the reasons for retaining
                                                               the hours. TID: August 2009
 CA-AR-09-002                     2/18/2009              The Postal Service’s Certification Process for Non-Mail Freight Transportation Invoices

                                                         R-1 — Develop and implement written procedures for the independent review of invoices to confirm the receipt of goods and services,
                                                               and to ensure accurate payment. TID: September 2009
 IS-AR-09-004                     2/20/2009              Access Controls in the Enterprise Data Warehouse

                                                         R-1 — Set expiration dates to match contract expiration dates. TID: July 2009

                                                         R-2 — Utilize eAccess to manage nonstandard access of contractors. TID: April 2009

                                                         R-3 — Update the Business Impact Assessment for the Enterprise Data Warehouse and recertify the system as required.
                                                               TID: August 2009

                                                         R-4 — Provide Business Impact Assessments for feeder systems to Enterprise Data Warehouse managers. TID: May 2009
 MS-AR-09-004                     2/20/2009              Cooperative Mail Rule Exception

                                                         R-2 — Communicate the new complaint process to nonprofit mailers. TID: June 2009

                                                         R-3 — Develop training for mail acceptance employees covering acceptance procedures for (Cooperative Mail Rule) CMR exception
                                                               mailings. TID: June 2009

                                                         R-4 — Provide mail acceptance training for CMR exception mailings mail acceptance procedures training for mail acceptance
                                                               employees. TID: June 2009

                                                         R-6 — Clarify existing CMR exception policies and procedures by defining cost, risk, and benefit and outlining specifics regarding the
                                                               allowed relationships between nonprofit organizations (NPOs) and for-profit organizations (FPOs). TID: June 2009

                                                         R-7 — Communicate the clarified policies and procedures to NPOs and FPOs. TID: June 2009
 HM-AR-09-001                     2/27/2009              Workplace Safety and Injury Reduction Goals in Selected Capital Metro Area Facilities

                                                         R-1 — Correct the deficiencies identified in the fiscal year 2008 Safety and Health Program Evaluation Guide evaluations for the
                                                               Curseen-Morris and Southern Maryland Processing and Distribution Centers, and the Washington Bulk Mail Center.
                                                               TID: July 2009

                                                         R-4 — Ensure area and district safety personnel receive the required safety core curriculum training as soon as possible.
                                                               TID: Not provided

                                                         R-6 — Ensure the Capital District Executive Safety and Health Committee members understand their roles and responsibilities as
                                                               outlined in Postal Service policies, that include monitoring and reviewing safety and health program activities to ensure goals
                                                               and objectives are met. TID: March 2009

                                                         R-8 — Determine if the findings in this report exist in the remaining Capital Metro Area Performance Clusters and, where necessary,
                                                               take action to ensure management implements adequate controls. TID: July 2009

                                                         R-9 — Determine if continuation of pay was made to other Capital District employees whose workers’ compensation claims were
                                                               denied by the Office of Workers’ Compensation Programs during fiscal years 2007 and 2008. Where COP errors are found,
                                                               full recoveries must be made. TID: March 2009




62 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                      APPENDIX E




                             Report Title, Recommendation Summary

                                         R = Recommendation number
Report Number   Issue Date               TID = Target Implementation Date
CA-AR-09-003    2/27/2009    Postal Service Oversight of Extra Highway Transportation Contract Trips

                             R-1 — Reiterate to Postal Service supervisors they must sign Postal Service Forms 5397, Contract Route Extra Trip Authorization, and
                                   prepare and review management reports to track the progress of extra trip costs. TID: Management working on closure request
CRR-AR-09-003   3/5/2009     Controls Over International Air Transportation Payments

                             R-1 — Identify all potential payment deficiencies in the Surface Air Support System and implement system changes. TID: March 2009

                             R-3 — Consult with Supply Management concerning the recovery of contract payments to the initial contractor. TID: June 2009

                             R-4 — Develop exception reports capable of identifying errors in payments to air carriers. TID: March 2009

                             R-5 — Implement a reconciliation process to rectify payment errors to international air carriers in a timely manner. TID: March 2009
MS-AR-09-005    3/17/2009    Shortpaid Information-Based Indicia Stealth Postage

                             R-1 — Establish specific guidelines and assign roles and responsibilities for identifying shortpaid postage on Information-Based Indicia
                                   (IBI) stealth mail, including procedures for identifying counterfeit and duplicate IBI stealth labels at mail entry points.
                                   TID: Management working on closure request

                             R-2 — Define various entry points at which Information-Based Indicia stealth postage should be verified.
                                   TID: Management working on closure request

                             R-3 — Raise the level of awareness and importance regarding revenue protection by giving regular standup talks that address how to
                                   identify and process shortpaid Information-Based Indicia (IBI) stealth mail and provide employees with examples of shortpaid
                                   IBI stealth postage. TID: Management working on closure request

                             R-4 — Provide formal training to employees who accept and process Information-Based Indicia (IBI) stealth mailpieces.
                                   TID: October 2009

                             R-5 — Integrate or retrofit the Point of Service system and handheld scanners to identify counterfeit and duplicate Information-Based
                                   Indicia stealth labels. TID: Not provided
NL-AR-09-003    3/19/2009    U.S. Virgin Islands Delayed Mail — Transportation Issues

                             R-1 — Continue to monitor transportation of mail to the U.S. Virgin Islands to ensure the Postal Service transports mail timely and
                                   meets established service standards. TID: June 2009

                             R-2 — Review surface transportation mail modes and schedules for Periodicals, Package Services, and Standard Mail to the U.S.
                                   Virgin Islands. TID: June 2009

                             R-3 — Review and revise air transportation modes and capacities to the U.S. Virgin Islands for First-Class and Priority Mail and obtain
                                   adequate capacity to ensure it meets service standards. TID: June 2009

                             R-4 — Review and revise mail transportation and distribution processes to the U.S. Virgin Islands and oversee key transportation
                                   concentration point operations to ensure minimal handling of mail. TID: June 2009

                             R-5 — Maximize sea container capacity out of Jacksonville, FL. TID: Not provided
DR-MA-09-001    3/26/2009    Management of City Letter Carriers’ Street Performance

                             R-1 — Revision of Postal Service Policies. TID: March 2010

                             R-2 — Modification of Route/Carrier Daily Performance Analysis Report. TID: March 2010

                             R-3 — Reinforcement of using management tools and reports. TID: June 2009

                             R-5 — Purchase and installation of GPS technology. TID: Not provided




                                                                                                                                October 1, 2008 – March 31, 2009 | 63
APPENDIX E




                                                         Report Title, Recommendation Summary

                                                                      R = Recommendation number
 Report Number                    Issue Date                          TID = Target Implementation Date
 NL-AR-09-004                     3/26/2009              Vehicle Management — National Trailer Lease Renewal — Great Lakes Area

                                                         R-1 — Develop a comprehensive process to identify trailer requirements and manage trailer inventory and use. TID: Not provided

                                                         R-2 — Analyze the number of trailers needed to transport mail and equipment and return unneeded trailers to the Postal Service
                                                               Headquarters for reallocation or return to the leasing contractor, saving the Postal Service about $5.4 million over the next 10
                                                               years. TID: Not provided

                                                         R-3 — Analyze storage requirements and procure storage space in the most cost-effective manner. TID: Not provided
 DA-AR-09-005                     3/31/2009              Recycling Opportunities — Pacific Area

                                                         R-1 — Provide additional recycling training to maintenance and operations personnel responsible for conducting recycling activities
                                                               and expand recycling programs throughout the area. TID: September 2009

                                                         R-2 — Improve awareness of policies and procedures that; require appropriately designated site personnel to certify the tonnage of
                                                               recyclable material and trash collected by contractors. TID: July 2009

                                                         R-3 — Improve awareness of policies and procedures that; require accurate recording of recycling revenues. TID: July 2009
 DA-AR-09-006                     3/31/2009              New York District Building Equipment Maintenance

                                                         R-1 — Define business requirements for capturing maintenance benefits associated with remote building management systems.
                                                               TID: Not provided

                                                         R-2 — Update building equipment maintenance staffing packages to reflect current staffing requirements and subsequently conduct a
                                                               cost benefit analysis to reassess the need for labor distribution code 37 positions. TID: Not provided

                                                         R-3 — Issue a Maintenance Management Order to clarify requirements for periodically reviewing and updating building equipment
                                                               maintenance staffing packages. TID: Not provided
 IS-AR-09-006                     3/31/2009              Intelligent Mail Barcode Project Planning and Application Development Life Cycle

                                                         R-1 — Establish an incremental approach for approval and funding for future project releases. TID: Not provided

                                                         R-2 — Formally appoint an Information Systems Security Representative, in writing, and ensure they are fully engaged in the business
                                                               requirements throughout the life cycle of the Intelligent Mail Barcode (IMB) Full Service-Seamless Acceptance Service
                                                               Performance application, and document their participation and concurrence on security matters. TID: May 2009

                                                         R-3 — Ensure the Certification and Accreditation process is completed and all residual risks are identified and mitigated before
                                                               deploying the IMB Full Service-Seamless Acceptance Service Performance Release 1 application. TID: Not provided
 SA-AR-09-003                     3/31/2009              National Leased Facility Maintenance Responsibility

                                                         R-1 — Establish and implement controls to ensure Postal Service personnel are aware of and follow existing written policies and
                                                               procedures for lessor maintenance and repairs. TID: Not provided

                                                         R-2 — Instruct the Facilities Service Offices to seek reimbursement for questioned costs identified during the audit. TID: Not provided




64 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                      APPENDIX E




                             Report Title, Recommendation Summary

                                         R = Recommendation number
Report Number   Issue Date               TID = Target Implementation Date
MS-AR-09-006    3/31/2009    Intelligent Mail/Seamless Acceptance Project Management

                             R-1 — Quantify strategic benefits to the Postal Service and mailers. TID: Not provided

                             R-2 — Prepare an integrated project budget and expenditure tool for future project releases to track costs and provide reports during
                                   regular status meetings. TID: Not provided

                             R-3 — Develop potential cost savings estimates to establish a baseline for comparison with realized savings for future project releases.
                                   TID: Not provided

                             R-4 — Incorporate effort-based workhour requirement estimates into work plans for future project releases. TID: September 2009

                             R-5 — Develop a risk management plan to address project risks. The plan should define a process for conducting risk management
                                   activities. TID: Not provided

                             R-6 — Develop a procurement plan consistent with the Postal Service’s purchasing guidelines to manage procurements related to the
                                   project. TID: September 2009




                                                                                                                               October 1, 2008 – March 31, 2009 | 65
APPENDIX F




APPENDIX F
Significant Management Decisions in Audit Resolution
For the period October 1, 2008 – March 31, 2009

As required by the IG Act, the following page discusses information concerning any significant management decision with which the Inspector General disagrees
and is currently in audit resolution.Status



Political Campaign Mailings
MS-AR-08-006                                                                                                                                               9/30/2008
Recommendation 1                                    Consolidate the manual political mail log into the automated recordkeeping system in PostalOne! for all sites
                                                    that have access to the PostalOne! system. Require sites that do not use the PostalOne! System, to maintain the
                                                    manual political mail log and transmit the political campaign mailing information to their respective BMEUs to be
                                                    entered into PostalOne!.

Recommendation 2                                    Program PostalOne! to require employees to identify political campaign mailings in the system.

Recommendation 6                                    Develop standard operating procedures for accepting, processing, and documenting political mail inquiries and
                                                    their resolution. The standard operating procedures should clearly define areas of responsibility and provide a
                                                    method for tracking political mail inquiries and their resolution.

Recommendation 7                                    Provide training for officials responsible for political campaign mail complaints to make them aware of the
                                                    requirements for handling political campaign mail inquiries and their resolution.


Shortpaid Postage — Information-Based Indicia Priority Mail
MS-AR-09-001                                                                                                                                             10/10/2008
Recommendation 5                                    Require supervisors to conduct random verifications of postage paid on IBI Priority Mail, ensure employees
                                                    follow appropriate procedures to collect additional postage, and maintain a daily log for the random verifications
                                                    results. Results should be consolidated at the district level to identify potential sources of abuse.


Shortpaid Postage — Information-Based Indicia Parcel Post Mail
MS-AR-09-002                                                                                                                                             10/14/2008
Recommendation 5                                    Require supervisors to conduct random verifications of postage paid on IBI Parcel Post mail, ensure employees
                                                    follow appropriate procedures to collect additional postage, and maintain a daily log for the random verifications
                                                    results. Results should be consolidated at the district level to identify potential sources of abuse.


Shortpaid Postage — Information-Based Indicia Priority Mail
MS-MA-09-001                                                                                                                                             10/22/2008
Recommendation 4                                    Establish procedures to ensure the Postal Service reconciles mail scans captured by Surface Transfer Center
                                                    and Terminal Handling Services contractors with scans at the points of acceptance.




66 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                                APPENDIX G




APPENDIX G
Investigative Statistics (OIG and Postal Inspection Service Combined)*
For the period October 1, 2008 – March 31, 2009

                                    Investigations        Arrests   Indictments/       Convictions/        Admin.               Cost     Fines, Restitution     Amt. to USPS       To Mgmt.
                                       Completed                    Informations            Pretrial       Action          Avoidance         & Recoveries     (from previous      for Admin.
                                                                                        Diversions**        Taken                                                  column)***          Action
    Mail Theft by Nonemployees
    and Contractors1                           1,196       1,280              419              1,134            49                  –                    –                  –               –
    Theft, Delay, or Destruction
    of Mail by Employees
    or Contractors                              757          195              177               220            380                  –            $176,011            $30,349             389
    Injury Compensation Fraud                       513       18                 20               16           134      $88,295,624          $427,417,889         $5,721,632             124
                               2
    Assaults and Threats                        365          138                 11               10            46                  –                                                       –
    Official Misconduct                         967           70                 62              66            552                  –          $1,352,221           $307,902             542
    Robbery                                         70        36                 14               –              –                  –                    –                  –               –
    Burglary                                        32        55                 13                1             –                  –                    –                  –               –
    Financial Fraud and
    Embezzlements                               378          118              121                102           261             $30,000         $2,349,003         $2,265,635             287
    Revenue Fraud                               149           41                 26              34             14                  –                    –                  –               –
    Contract Fraud                                  67         5                   5               1            25         $4,686,555          $8,026,820         $6,730,001               22
    Mail Fraud                                  619          550              442               584              –                  –      $5,371,749,271        $2,066,500                 –
    Identity Theft                              655          746              354                787             –                  –                    –                  –               –
                       3
    Suspicious Items                            109           28                   2              31             –                  –                    –                  –               –
    "Nonmailable, Restricted,
    and Perishable Matter4                          91        56                 31              54              –                  –                    –                  –               –
    "Suspicious Substances5                         63         8                   6               7             –                  –                    –                  –               –
    "Child Exploitation and
    Obscenity6                                  171           79                 63               78             –                  –                    –                  –               –
    Mailing of Controlled
    Substances7                                 454          651              174               464              –                  –           1,950,273                   –               –
                           8
    Money Laundering                                63        25                 19              53              –                  –              887,670                  –               –
    Vandalism and Arson                             23        34                   8               3             –                  –                    –                  –               –
    TOTAL                                    6,742         4,133           1,967               3,645         1461      $93,012,179       $5,813,909,158        $17,122,019             1,364


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.
1
    Includes theft and possession of stolen mail.
2
    Includes threats and assaults against on-duty postal employees.
3
    Includes non-threatening items, bombs, threats, hoaxes, and explosive material.
4
    Includes firearms, weapons, intoxicants, extortion threats, and miscellaneous matter.
5
    Includes non-threatening, hazardous, and hoax CBRN (CBRN refers to chemical, biological, radiological, and nuclear.)
6
    Obscenity includes mailing of obscene matter, and sexually oriented advertisements.
7
    Includes narcotics, steroids, drug-related proceeds, and drug paraphernalia.
8
    Includes postal money orders.




                                                                                                                                                          October 1, 2008 – March 31, 2009 | 67
APPENDIX H




APPENDIX H
Summary of U.S. Postal Inspection Service Actions Under 39 USC 3005 and 3007
For the period October 1, 2008 – March 31, 2009


                                                                                Consent                                Cease &
 Type of Scheme                               Complaints Filed               Agreements               FROs        Desist Orders
 Advance Fee                                                       1                         -                -              –
 Charity                                                           3                         3                –              3
                                                                                                                                  Financial Reporting On Investigative
 Contests/Sweepstakes                                              –                         –                –              –
 Coupon Fraud                                                      1                         1                –              –    Type
 False billings                                                  15                          1                –              5    Personnel                          $147,270,644

 Internet Auction                                                  –                         –                –              –    Nonpersonnel                        $25,210,992

 Lotteries (Foreign and Domestic)                                  5                         5                –              5    TOTAL                            $172,481,636
 Merchandise:                                                                                                                     Capital obligations                  $1,564,992

   Failure to furnish                                              9                         8                2              7
   Failure to pay                                                  –                         –                –              –
   Misrepresentation                                               4                         3                –              4
 Miscellaneous                                                   31                        25                 1             35
 Telemarketing                                                     –                         –                –              –
 Work at home                                                    11                          9                –              9
 TOTAL                                                           80                        55                 3             68


 Other Administrative Actions
 Administrative Action Requests                                                                                             80
 Temporary Restraining Orders Requested                                                                                      1
 Temporary Restraining Orders issued                                                                                         –
 Cases Using Direct Purchase Authority                                                                                       –
 Civil Penalties (Section 3012) Imposed                                                                                      –
 Test Purchases                                                                                                              –
 Withholding Mail Orders Issued                                                                                              7
 Voluntary Discontinuances                                                                                                   –


Administrative Subpoenas Requested by the Postal Inspection Service:
 Defendant                                              Violation                                                                                Date Issued       Date Returned
 09-001                                                 39 USC 3005; 3016
 Harmon Bay (21st Century Offices)                      Sweepstakes scheme                                                                              12/17/08         12/24/08
 09-002                                                 36 USC 3005; 3016
 Key Bank                                               FR – Solicitation in the guise of a bill or invoice                                             12/5/08          12/15/08
 09-003                                                 39 USC 3005;3016
 Publishing Corp. of America                            FR – Solicitation in the guise of a bill or invoice                                             12/5/08          12/15/08
 09-004                                                 39 USC 3005;3016
 REGUS                                                  FR – Solicitation in the guise of a bill or invoice                                              2/5/09           2/12/09




68 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                                  APPENDIX I




APPENDIX I
Closed Congressional and Board of Governors’ Inquiries
For the Period October 1, 2008 – March 31, 2009

This appendix lists the Congressional and Board of Governors inquiries the OIG and Postal Inspection Service closed during this reporting period. The Joint Legal
Services Center (JLSC) reviewed these inquiries to help identify systemic issues and to determine the need for future Postal Service-wide audits. Inquiries are
listed in the chronological order of receipt.

Inspector General Investigations (26)
 Requestor             Allegation/Concern                                             Major Findings                                                                            Closure Date
 Three separate        Whistleblower reprisal after reporting improper                An OIG investigation showed the case did not meet the four necessary elements of              12/1/2008
 requests: Senator,    grievance procedures; hostile work environment                 whistleblower reprisal. An OIG Workplace Environment review did not substantiate
 North Carolina;       created by management.                                         allegations of hostile work environment. District management took the additional
 Representative,                                                                      step of assembling a Threat Assessment Team to investigate the matter.
 North Carolina; and
 Representative,
 North Carolina.
 State Senator,        Letter Carrier allowed unauthorized persons to sign            The investigation revealed the Letter Carrier acted contrary to postal procedure              12/9/2008
 New York              and receive Certified Mail.                                    and improperly delivered certified package to an individual other than the intended
                                                                                      addressee. Findings were forwarded to management.
 Senator, New York     Mail tampering and theft.                                      The investigation uncovered no evidence of mail tampering or theft by                         12/9/2008
                                                                                      postal employees.
 Representative,       Retaliation by management after an altercation with            Complainant did not respond to communications from Special Agents,                           11/24/2008
 Tennessee             fellow postal employee.                                        preventing a formal investigation into the allegation.
 Representative,       Mail tampering by a supervisor at a Tennessee facility.        The investigation revealed the employee's supervisor opened a confidential letter             10/2/2008
 Tennessee                                                                            addressed to the postal employee. The OIG forwarded findings to management.
 Representative,       Postal employee requested assistance in obtaining              Investigation revealed the employee had not provided proper documentation to                 12/11/2008
 Virginia              resolution to workers' compensation claim problem.             the DOL and as a result her claim had not been accepted.
 Senator, Illinois     Harassment by fellow postal employees; OIG Special             The investigation did not substantiate the allegations.                                       10/6/2008
                       Agents assisted in the harassment.
 Senator, Kansas       Special Agents harassed and threatened subject of              The employee dropped his allegations of harassment and threat by Special Agents;              10/6/2008
                       an investigation.                                              internal review showed no other misconduct.
 Senator, Georgia      International package disappeared in transit and from          During the investigation, Special Agents located the package at a Mail Recovery              10/14/2008
                       the Postal Service electronic tracking system.                 Center and ensured it was delivered to the customer. No cause for the delay
                                                                                      was determined.
 Representative,       Leave and workers' compensation claim forms were               Investigation revealed that employees mistakenly made changes to the leave form               10/6/2008
 Florida               altered by postal employees.                                   and corrections to the claim form, but all changes made complied with postal
                                                                                      regulations. Postal Service worked with the complainant to resolve the concern.
 Representative,       Falsified Express Mail scans to meet deadlines at              The investigation substantiated the allegations at some of the facilities. The findings       1/13/2009
 Virginia              multiple Post Offices in Virginia.                             were forwarded to management.
 Senator, Iowa         Mail tampering.                                                The investigation uncovered no evidence of mail tampering by postal employees or               2/9/2009
                                                                                      mail tampering in general, and noted that damage to the mail was consistent with
                                                                                      damage from automated machinery.
 Senator, Iowa         Falsified Express Mail scans at a Post Office in California.   The investigation substantiated that employees had falsified scans but did not find           2/17/2009
                                                                                      upper level management had encouraged this practice. The findings were forwarded
                                                                                      to management.
 Senator, New York     Mail tampering, delay, and destruction by a                    The investigation did not substantiate allegations but determined multiple change of           3/4/2009
                       postal employee.                                               address forms complainant submitted caused the problem.
 Senator, Illinois     Unsatisfactory investigation by Special Agents.                An internal review did not substantiate the allegations.                                     11/19/2008




                                                                                                                                                            October 1, 2008 – March 31, 2009 | 69
APPENDIX I




 Requestor                 Allegation/Concern                                            Major Findings                                                                         Closure Date
 Senator, Illinois         Race and injury-based discriminatory management               The investigation did not substantiate allegations, however, employee's                   2/17/2009
                           practices in an Illinois Post Office.                         concern of future retaliation as he attempts to return to return to work was
                                                                                         referred to management.
 Senator,                  Mail theft.                                                   The investigation revealed multiple addresses on the package as a possible reason         3/16/2009
 North Carolina                                                                          for the delay. Special Agents alerted postal Mail Recovery Center of the package so
                                                                                         they can forward it to the complainant, if found.
 White House               Violations of the Americans with Disabilities Act,            The investigation did not substantiate allegations but showed the complainant's            2/9/2009
                           threats and intimidation, breach of contract, dereliction     circumstances made delivery of mail difficult, Special Agents were able to remedy
                           of duty, and mail theft by a Letter Carrier at an Indiana     the situation to ensure mail delivery.
                           Post Office.
 Senator, Alaska           Damaged mail parcels.                                         Special Agents determined damage resulted from extreme environmental and                  1/26/2009
                                                                                         operational conditions along with the remote location of delivery. Numerous
                                                                                         companies and individuals handling and processing the parcels also contributed
                                                                                         to the damage.
 Senator, California       Whistleblower reprisal; wrongful termination.                 The investigation revealed that the complainant failed to show that a protected          12/30/2008
                                                                                         communication was the basis for the personnel action. The removal was based on
                                                                                         legitimate business reasons.
 Representative,           Delay restitution for a gift card stolen by a former          The investigation revealed that after the former employee failed to make the             12/31/2008
 Pennsylvania              postal employee.                                              restitution payment, the Postal Service paid the complainant.
 Senator,                  Mismanagement by officials in the Western Area and            OIG reported findings to management.                                                      3/23/2009
 South Dakota              Dakotas District.
 Representative, Texas     Mismanagement by officials in the Western Area and            OIG reported findings to management.                                                      3/23/2009
                           Dakotas District.
 Representative,           Status of investigation of a Postal Inspector.                The investigation substantiated the allegations. We forwarded our findings to Postal      3/18/2009
 Florida                                                                                 Inspection Service management.


 Postal Inspection Service Investigations (31)
 Requestor                 Allegation/Concern                                            Major Findings                                                                         Closure Date
 State Representative,     Lost or missing mail from a 2007 political campaign.          Because Postal Inspectors could not locate evidence of the mailings they could not        11/3/2008
 Illinois                                                                                undertake a full investigation.
 Senator, Texas            Check fraud in nationwide scam compromising personal          Postal Inspectors advised complainant directly of findings and the continued             11/10/2008
                           business checks.                                              investigation into this type of fraud.
 Senator, Maryland         Mail tampering; potential compromise of financial and         A review uncovered no evidence of any intentional misconduct.                             11/3/2008
                           personal information.
 Representative,           Unsolicited mail and collect phone calls.                     A review found no violation of postal laws or regulations.                                11/3/2008
 California
 Representative,           Mail fraud.                                                   Postal Inspectors determined this is part of an international lottery fraud scheme.      11/20/2008
 Indiana                                                                                 The Spanish UP is cooperating in efforts to interdict this mail. Postal Inspectors
                                                                                         informed complainants it is unlikely the will recover the funds.
 State Senator,            Mail tampering; affixing postage from other mail.             An evaluation substantiated allegations; complainant agreed to cease and desist           2/10/2009
 Nebraska                                                                                from affixing used postage to correspondence.
 Senator, Wisconsin        Authority of the Postal Inspection Service to investigate     An internal review confirmed complainant was incorrectly given discount rates for          2/3/2009
                           receiving mailing discounts to which complainant was          distributing a publication and Postal Inspectors acted in accordance with procedure
                           not entitled.                                                 in recovering funds. The complainant eventually offered to settle the dispute by
                                                                                         voluntarily returning the overcompensation to the Postal Service.
 Representative,           Suspected mail fraud in winnings checks for a contest         Review of the complaint showed there is a current investigation into a similar mail      12/17/2008
 California                complainant did not enter.                                    fraud scheme.
 Senator, Pennsylvania     Unsolicited mail believed to be part of a lottery scheme.     Review of the complaint showed there is a current investigation into a similar mail       2/26/2009
                                                                                         fraud scheme.




70 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                                APPENDIX I




Requestor               Allegation/Concern                                            Major Findings                                                                          Closure Date
Representative,         Mail fraud; solicitation in form of a government authority.   Review showed the mailings potentially violated the mail fraud statute. Findings were       1/26/2009
California                                                                            documented for future investigations.
Senator, Michigan       Threatening behavior by a postal employee; the Postal         Findings of a prior investigation into employee threats did not warrant federal               1/5/2009
                        Inspection Service improperly handled the investigation.      prosecution. Postal Inspectors forwarded the findings to the local postmaster for
                                                                                      action deemed appropriate. An internal review of the investigation showed it was
                                                                                      thorough and presented no evidence of misconduct.
State Attorney          Theft of federal stimulus check.                              Postal Inspectors informally investigated the matter and planned to report any              3/11/2009
General, Pennsylvania                                                                 findings to local police and prosecutors.
Senator, Pennsylvania   Inappropriate statements made by Postal Inspector.            After review, no evidence of misconduct found.                                             12/31/2008
Representative,         Inappropriate statements made by Postal Inspector.            After review, no evidence of misconduct found.                                             12/31/2008
Pennsylvania
Senator, Texas          Threatening requests for work by a postal contractor;         Postal Inspectors assessed and provided advice. An OIG investigation did not                1/28/2009
                        misuse of postal credit cards by a postal employee.           substantiate allegations of credit card misuse.
Representative,         Mail theft and tampering.                                     Review showed the case was previously handled by the Memphis Police Department              1/27/2009
Tennessee                                                                             and adjudicated.
Senator, Maine          Threatening mail seek to extort money.                        Review found no Postal Inspection Service jurisdiction in the matter.                        2/3/2009
Senator,                Internet fraud.                                               Postal Inspectors were unable to intercept a package mailed internationally after            2/9/2009
South Carolina                                                                        discovering the fraudulent scheme. The Postal Inspection Service added the
                                                                                      complaint to the CISC database to be monitored by Postal Inspectors and potentially
                                                                                      developed into an investigation.
Senator, Ohio           Intercept and delay of federal income tax refund check.       A review did not substantiate the allegation.                                               2/12/2009
Representative,         Cross-border advanced fee international shipping              Evaluation revealed the scheme originated in Canada and forwarded the information           3/11/2009
Colorado                scheme.                                                       to Canadian authorities in hopes of recovering the loss funds.
Representative,         Unauthorized change of address made for complainants          Review and interviews showed that former employees of the complainant submitted             3/19/2009
Arkansas                place of business.                                            change of address (COA) forms in error. Individuals are not allowed to submit
                                                                                      COA forms for a business. Postal Inspectors met with management to resolve
                                                                                      the problem.
Senator, Virginia       IRS fraudulently cashed a checked mail to                     Review found human and automation error occurred. Such misdelivery of mail by a             3/19/2009
                        another recipient.                                            government agency did not warrant criminal investigation. The IRS reimbursed the
                                                                                      complainants' funds.
Representative,         Suspected mail fraud scheme.                                  Review showed the mailing was legitimate.                                                   3/16/2009
Pennsylvania
Representative, Illinois Mail fraud scheme.                                           Review did not substantiate the allegations, finding the complainant simply                 3/18/2009
                                                                                      displeased with the quality of merchandise purchased, and found no jurisdiction over
                                                                                      the claim.
Representative,         Potential identity theft, based on mailings to                Review did not substantiate allegations.                                                    3/17/2009
Missouri                complainant's address.
Senator, Pennsylvania   Unauthorized use of complainant's mailbox.                    Review did not substantiate allegations.                                                    3/25/2009
Senator, Missouri       Return of documents provided for a Postal Inspection          Documents returned.                                                                         3/23/2009
                        Service investigation.
Senator, Vermont        Mail and internet fraud; complainants mailed a check to       An investigation into related allegations is underway. This complaint has been added        3/26/2009
                        a merchant as payment but they never received the coins       to the case file.
                        they purchased.




                                                                                                                                                          October 1, 2008 – March 31, 2009 | 71
APPENDIX I




 Joint Legal Services Center (23)
 Requestor                 Allegation/Concern                                             Major Findings                                                                            Closure Date
 Representative,           Hostile work environment at an Arizona Post Office;            The JLSC reviewed three postal inquires into the allegations and found instances            10/15/2008
 Arizona                   insufficient prior investigation into such matters by postal   where postal methods were not followed but that the inquiries were sufficiently
                           District Management.                                           thorough and objective. The JLSC noted continuing allegations of potentially abusive
                                                                                          behavior and; we provided information to for action deemed appropriate.
 Representative,           Improper sharing of a postal employee's protected              The JLSC review found such information was needed by management as it pertains              10/31/2008
 Michigan                  medical information.                                           directly to workplace issues; use of such information is routine during the normal
                                                                                          course of business.
 Senator, Texas            Harassment and retaliation by management at a                  Complainant dropped claim; however JLSC reviewed workplace issues generally and             11/20/2008
                           Texas facility.                                                determined no systemic issues or areas of concern.
 Representative,           Unfair labor practice and creation of a hostile work           Review found management to be taking appropriate steps towards resolving                    10/22/2008
 North Carolina            environment in a North Carolina facility; whistleblower        concerns. The review found individual issues subject either to union grievance or
                           retaliation for filing EEOC complaints.                        EEO processes and declined further work.
 Representative,           Unfair labor practice and creation of a hostile work           Review found management to be taking appropriate steps towards resolving                    10/22/2008
 North Carolina            environment in a North Carolina facility; Whistleblower        concerns. The review found individual issues subject either to union grievance or
                           retaliation for filing EEOC complaints.                        EEO processes and declined further work.
 Representative,           Irregularities in pay.                                         Review of similar issues prompted JLSC to refer inquiry to management for review.           11/19/2008
 North Carolina
 Representative, Texas     FOIA request for an investigative report.                      Review found the request was previously denied by the OIG FOIA office and affirmed          10/28/2008
                                                                                          upon appeal. The Appeals Officer stated such appeals decisions are subject to
                                                                                          review only in federal court.
 Senator, Pennsylvania     Receipt of unsolicited mail.                                   Review did not find any violation of deceptive mailings law.                                 11/3/2008
 Representative,           Failure of Postal Service to reinstate an employee to          JLSC review showed the complainant was not entitled to restoration to his former              1/2/2009
 Missouri                  previous position.                                             position but confirmed his entitlement to some back pay under a Merit Systems
                                                                                          Protection Board ruling. We referred the latter to management for resolution.
 Representative,           Postal officials have not provided adequate responses to       We noted a pending formal grievance and declined action.                                    11/10/2008
 Georgia                   grievances and safety reports regarding delivery vehicles.
 Representative,           Postal Service employee unfairly discharged                    We confirmed the employee did not meet security criteria for postal contractors.            11/18/2008
 Missouri                  after background check required by the Postal
                           Inspection Service.
 Senator, Mississippi      Abuse of power and position, waste of funds, preferential      The JLSC was unable to provide a substantial response because of the lack of                11/20/2008
                           treatment of personnel by postal executives; request for       specificity and complainant's unwillingness to provide details.
                           audit of postal executive expenses. The OIG failed to act
                           on allegations previously intimated.
 Senator, Illinois         Unfair employment practices.                                   Review found the employee had a pending EEO compliant, JLSC therefore declined              11/18/2008
                                                                                          further work.
 Representative,           Postal Inspector neglected to investigate a complaint.         Postal Inspector previously discussed matter with complainant and awaits                    12/11/2008
 Alabama                                                                                  more information.
 Representative,           Contractor terminated HCR driver after                         We confirmed the employee did not meet security criteria for postal contractors.            12/23/2008
 Michigan                  background investigation administered by
                           the Postal Inspection Service.
 Representative,           The Postal Inspection Service should adjudicate                This is a matter of prosecutorial discretion and outside the jurisdiction of the Postal      1/21/2009
 Virginia                  complainant's mail fraud case in federal court.                Inspection Service.
 State Attorney            Postal Customized Package program might expose                 Review showed no record of complaints resulting from the program, however,                    2/3/2009
 General, Connecticut      minors' personally identifiable information to predators.      we added it to the database for systemic review in the future.
 Senator, Georgia          Inconsistencies in the Priority Mail screening                 The Postal Inspection Service declined the offer as such testing is part of the OIG's         2/6/2009
                           measures; offer by the complainant to assist in                law enforcement mission and performed solely by law enforcement personnel.
                           testing the security measures.                                 Forwarded to the OIG's Office of Audit for review.




72 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                                                               APPENDIX I




Requestor               Allegation/Concern                                          Major Findings                                                                            Closure Date
Senator, Kentucky       Receipt of threatening mail package; Postal Inspectors      The packages described did not fall under jurisdiction of the threatening mail statute.       3/4/2009
                        did not assist in locating evidence of the sender.          Investigation found video of the subject no longer available due to video surveillance
                                                                                    system storage settings. Allegations of insufficient response from the Postal
                                                                                    Inspection Service were not substantiated.
Representative,         Defaced mail collection boxes.                              After review, Postal Service Field Maintenance Operations cleaned or replaced all             3/3/2009
District of Columbia                                                                defaced boxes.
Representative, Texas   Legality of a law enforcement officer opening a             Review of Postal Service Administrative Services Manual showed law enforcement               3/11/2009
                        residential mail box and looking at mail to verify the      agencies are expected to request access to this information in writing. No person
                        identity of a resident.                                     may search, inspect, read, or disclose information obtained from the mail or its
                                                                                    contents, unless permitted under certain activities or circumstances.
Senator, Maryland       Inconsistencies in the Priority Mail screening rules.       After review, the information was forwarded to the OIG's Office of Audit for use in           3/5/2009
                                                                                    audit work now underway.
Representative, Texas   Mail delivery issues.                                       The JLSC learned through the Fort Worth Consumer Affairs Office that the mail                3/19/2009
                                                                                    piece was misplaced in equipment and delivered after discovery.


Postal Inspector General Audits (4)
Requestor               Allegation/Concern                                          Major Findings                                                                            Closure Date
Representative,         Request for review of mail services to the U.S. Virgin      Processing and transportation issues were causing extensive delays and damaging              3/26/2009
Virgin Islands          Island, now experiencing extraordinary length of delivery   mail. Allegations of staffing levels and service standards were not substantiated.
                        time for various classes of mail; receiving damaged         Communication between the Postal Service and U.S. Customs and Border Patrol
                        mail; mail not being delivered; inadequate staffing at      needs to be addressed. The OIG forwarded findings to management.
                        postal facilities; inadequate service standards; and lack
                        of communication between the Postal Service and law
                        enforcement agencies.
Senator, Oregon         Wasteful spending in the Postal Service, specifically a     Postal Service restructuring efforts were made in accordance with the Postal                 10/9/2008
                        recent increase in senior management positions              Accountability Act to segment products and services to maximize profitability.
Representative,         Report all open recommendations from prior audits and       The OIG provided findings as requested.                                                     12/30/2008
California              monetary benefits associated with them; indentify the
                        three open recommendations with largest monetary
                        benefits associated.
Representative, Ohio    Audit upcoming consolidation of Canton facilities.          Office of Audit added the Canton Consolidation to the FY 2009 audit plan.                    3/30/2009


Referrals
Requestor               Allegation/Concern                                          Referred to                                                                               Closure Date
Senator, Illinois       Abusive treatment by management.                            Government Relations Office.                                                                10/16/2008
Senator, Missouri       Removal of Automated Postal Center and other vending        Government Relations Office.                                                                10/22/2008
                        machine in a Missouri Post Office.
Representative, New     Sourcing of Postal Service vehicle parts.                   Government Relations Office.                                                                10/15/2008
Jersey
Senator, Missouri       Mismanagement at a Missouri Post Office.                    Government Relations Office.                                                                10/15/2008
Representative,         Receipt of unsolicited mail after requesting to be          Government Relations Office.                                                                 11/3/2008
Florida                 removed from a mailing list.
Representative,         Mail being delivered incorrectly to a neighbor.             Government Relations Office.                                                                 11/3/2008
Florida
State Representative,   Unsolicited mail; potential scam.                           Criminal Investigations Service Center.                                                     11/10/2008
Pennsylvania
Senator, Texas          Unsolicited mail; potential scam.                           Criminal Investigations Service Center.                                                     11/10/2008




                                                                                                                                                         October 1, 2008 – March 31, 2009 | 73
APPENDIX I




 Requestor                 Allegation/Concern                                            Referred to                               Closure Date
 Representative,           Mail fraud.                                                   Criminal Investigations Service Center.     11/18/2008
 Florida
 Representative,           Political mailings delayed.                                   Government Relations Office.                 12/3/2008
 Pennsylvania
 Representative,           Mail fraud scheme seeking personal information.               Criminal Investigations Service Center.      12/9/2008
 Pennsylvania
 Representative,           Mail fraud scheme.                                            Criminal Investigations Service Center.     12/10/2008
 Massachusetts
 Senator, New York         Internet fraud.                                               Criminal Investigations Service Center.     12/15/2008
 Senator, Illinois         Check fraud scheme.                                           Criminal Investigations Service Center.     12/23/2008
 Senator, New York         Check fraud scheme.                                           Criminal Investigations Service Center.       1/5/2009
 Representative,           Check fraud scheme.                                           Criminal Investigations Service Center.      1/12/2009
 Mississippi
 State Attorney            Insured mail piece not delivered.                             OIG Hotline.                                  2/9/2009
 General, Pennsylvania
 Representative,           FOIA Request for a Report of Investigation.                   OIG FOIA Appeals Office.                      2/9/2009
 Michigan
 Representative,           Suspension of mail delivery service through a PostNet         Honolulu Consumer Affairs Office.            3/25/2009
 Guam                      franchise.
 Representative,           Mail fraud scheme.                                            Criminal Investigations Service Center.      2/10/2009
 Pennsylvania
 Representative,           Mail offer to receive government funds.                       Criminal Investigations Service Center.      2/12/2009
 California
 Representative,           FOIA Request for a Report of Investigation.                   OIG FOIA Office.                             2/24/2009
 New York
 Senator, New York         Postmaster refused to forward mail of the complainant's       Long Island Consumer Affairs Office.         3/11/2009
                           deceased relative to the complainant.
 State Attorney            Mail fraud scheme.                                            Criminal Investigations Service Center.       3/5/2009
 General, Pennsylvania
 State Attorney            Mail fraud scheme.                                            Criminal Investigations Service Center.       3/5/2009
 General, Pennsylvania
 Representative,           Postmaster refused to forward mail of the complainant's       Long Island Consumer Affairs Office.         3/11/2009
 New York                  deceased relative to the complainant.
 Representative,           Postmaster refused to postmark tax returns on a specific      Richmond Consumer Affairs Office.            3/12/2009
 Virginia                  date.
 Representative,           Mail fraud scheme.                                            Criminal Investigations Service Center.      3/16/2009
 New Jersey
 Representative,           Request for assistance in postal employee's transfer to       Government Relations Office.                 3/23/2009
 Virginia                  new work facility.




74 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                           FREEDOM OF INFORMATION ACT/ WORKPLACE ENVIRONMENT




SUPPLEMENTAL INFORMATION
Freedom of Information Act                                                        Workplace Environment
Beginning in FY 2009, the Freedom of Information Act (FOIA) functions             The Joint Legal Services Center (JLSC) Workplace Environment unit
for the Postal Inspection Service and OIG were combined under the Joint           reviews workplace environment and operational issues that may affect the
Legal Services Center. The office operates independently of, but frequestly       workplace climate in postal facilities throughout the country. The OIG Hotline
coordinates with, its counterpart at the Postal Service. The FOIA Office          is the usual source for complaints, but occasionally members of Congress,
receives requests for records from the public, the media, and Postal Service      the Governors, and postal management will raise concerns or forward
employees. The Freedom of Information Act, according to the Department of         complaints appropriate for review by the unit. Complaint topics range from
Justice, “generally provides that any person has a right, enforceable in court,   sexual harassment and discrimination to workplace safety. Workplace
to obtain access to federal agency records, except to the extent that such        Environment reviews are designed to identify systemic, rather than
records (or portions of them) are protected from public disclosure by one of      individual, issues and foster postal management’s efforts toward providing
nine exemptions.”Activities                                                       employees a stress — and adversity — free work environment.

For the period October 1, 2008 – March 31, 2009                                   The unit accepts complaints from any postal employee, including OIG and
                                                                                  Inspection Service staff, providing an alternative to grievance and Equal
                                                                                  Employment Opportunity (EEO) processes. Reviews may result in fact-finding
 Requests                                              Number of Requests         reports to management or referral for specific suggested action, such as
 Carryover from prior period                                               21     climate assessments.
 Received during period                                                   301
 Total on hand during period                                              322      Activities
                                                                                   For the period October, 1, 2008 – March 31, 2009
 OIG Actions                                           Number of Requests
 Processed during the period                                              285
                                                                                   Complaints received                                                                   Total
             Requests released in full                                     11
                                                                                   Carryover from prior period                                                              26
             Requests partially granted                                    90      Complaints received from OIG Hotline, Congress, Governors,
                                                                                                                                                                          305
             Requests not granted                                          48      Management, Internal, and Other

             Requests referred to another agency                           56      Total on hand during this period                                                       331

             No Records                                                    46
                                                                                   Workplace environment actions                                                         Total
             Not proper FOIA requests                                       7
                                                                                   Complaints closed during this period                                                   297
             Refusal to comply                                             19
                                                                                                Referred to Postal Service management                                      163
             Other                                                          8
                                                                                                Referred to OIG Office of Investigations                                    12

 Balance                                               Number of Requests                       Referred to OIG Office of Audit                                              –

 Balance at the end of the period (pending)                                37                   Referred to the Joint Legal Services Center                                  1
                                                                                                Summary of findings reported to Congress/BOG/
                                                                                                                                                                             2
                                                                                                Postal Service management
 Processing Days                                            Number of Days
                                                                                                Conducted limited inquiry into allegations/issues                          112
 Median processing days to respond to a FOIA request                        7
                                                                                                Referred to database for statistical analysis and possible
                                                                                                                                                                             6
                                                                                                systemic reviews
                                                                                                Fact-finding reports issued to OIG management                                1
                                                                                   Referrals pending at the end of the period                                              34




                                                                                                                                           October 1, 2008 – March 31, 2009 | 75
PARIS MODEL




PARIS Model
This is OA’s Performance Analyses And Risk Indicator Scans (PARIS) model that examines selected risk indicators for each Postal Service district, provides a drill
down capability into the detailed data, and provides assessments of Postal Service facilities and operations.

 PARIS Model                    Performance Indicator                Indicator Description
 Operations Model
                                Overnight Service                    Measures the percentage of First-Class Mail that was delivered within the overnight standard. The percentage is representative of
                                                                     the number of IBM test mail pieces delivered on-time.
                                Two-Day Service Indicator            Measures the percentage of First-Class Mail that was delivered within the 2-day standard. The percentage is representative of the
                                                                     number of IBM test mail pieces delivered on-time.
                                Three-Day Service Indicator          Measures the percentage of First-Class Mail that was delivered within the 3-day standard. The percentage is representative of the
                                                                     number of IBM test mail pieces delivered on-time.
                                Plant Delays                         The number of pieces of mail that were not dispatched out of the plant on the day needed to make delivery standards. This number
                                                                     includes all classes of mail.
                                Transportation Delays                The percentage of trucks that leave the plant late between the hours of 4 a.m., and 9 a.m.
                                Breakthrough Productivity Index      The productivity percentage represents how many hours a plant is using versus how many hours a plant should be using based
                                                                     upon meeting targeted goals.
                                Delivery Overtime                    The percentage of hours used by letter carriers in an overtime status.
                                Customer Service Delays              The number of pieces of mail that were not delivered by the delivery unit on the day needed to make delivery standards. This
                                                                     number includes all classes of mail.
                                Delivery Point Sequence              The percentage of letter mail sent from the plant to a delivery unit in walk sequence. It represents the total amount of letter mail in
                                                                     walk sequence divided by total letter volume.
                                Mail Processing Overtime             The percentage of hours used in mail processing that was in an overtime status.
                                Letter Carriers Returning            The percentage of letter carriers that returned to the station from delivering the mail past 5 p.m. Determined by the total number of
                                After 5 p.m.                         letter carriers returning after 5 p.m., divided by total letter carriers.
 Financial Model
                                Revenue                              All revenue (income) associated at a unit.
                                Local Purchases                      Purchases made for supplies and services using cash or no-fee money orders for supplies and services.
                                Refunds                              Refunds can be made for postage, fees, and other services at a customer’s request.
                                Miscellaneous Expenses               Include bank deposit differences and other discrepancies.
                                Non-Local Purchases                  All expenses for local units paid centrally through the San Mateo Accounting Service Center such as cleaning and utilities.
                                Clerk Cash Management                Measures whether units are complying with requirements over clerk's cash, including whether cash is counted at the prescribed
                                                                     frequency and whether the amount of cash clerks maintain is within limits prescribed by Postal Service policy.
                                Office Cash Management               Measures whether units are maintaining the amount of cash required by Postal Service policy.
                                Employee Related Items               Includes amounts owed to the Postal Service for salary and travel advances. This also includes shortages and overages resulting
                                                                     from clerks' stamp and cash counts.
                                Customer Account Management          Measures districts with the highest percentage of customer account balance differences comparing source data to
                                                                     accounting records.
                                Retail Stamp Stock Management        Amount of stamp stock a post office can maintain for sale to the public, and the frequency the stock should be counted.
                                Overall Unit Stamp                   The total amount of stamp stock in excess of authorized levels, which is calculated based on prior year sales according to Postal
                                Stock Management                     Service policy. This includes the amount directly sold to the public and the amount held in the inventory.
                                Contract Postal                      Measures the number of units with the most contract postal unit stock at risk. A contract postal unit is a privately operated entity
                                Units Management                     providing most postal retail services.
 Maintenance Model
                                Overall Equipment Effectiveness      Measuring and analyzing equipment effectiveness can help improve mail flow and reduce machine rejects.
                                Equipment Underutilization           Identifying available time can help identify marketing opportunities and reduce over-production by fully loading employees for
                                                                     affected operations.
                                Building and Custodial Maintenance   Tracking overtime can help lower costs given these are non-specialized functions that can be outsourced.




76 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
                                                                                                                                  JURISDICTION AND LAWS




Jurisdiction and Laws
More than 200 federal laws are enforced by Postal              Narcotics and Controlled Substances
Inspectors and OIG Special Agents through investigations       (21 USC 841, 843, 844; 18 USC 1716)
of crimes that impact the Postal Service. A wide array of      Postal Inspectors initiate investigations related to
federal statutes are used to ferret out fraud, waste and       transporting and distributing narcotics through the
misconduct in government agencies, including the Postal        mail when employees are not involved. Special Agents
Service. Generally, crimes related to the U.S. Mail are        investigate the sale or distribution of illegal narcotics by
covered in Title 18, United States Code, Sections 1691-        employees in the postal workplace or while on duty.
1737, while others affecting the Postal Service are codified
under Title 39. Shown here are some of the most important      Delay, Destruction or Obstruction of Mail
areas of jurisdiction.                                         (18 USC 1700, 1701, 1702, 1703)
Assaults (18 USC 111, 1114)                                    Both agencies uphold federal statutes aimed at securing
                                                               customers’ mail, including statutes related to the
The protection of Postal Service employees is one of the       desertion, obstruction, delay, or destruction of mail.
Postal Inspection Service’s most important responsibilities.   Special Agents investigate incidents involving postal
Postal Inspectors promptly investigate assaults and threats    employees and contractors. Postal Inspectors investigate
that occur while postal employees are performing official      incidents involving outsiders.
duties or as a result of their employment.
                                                               Electronic Crimes
Bombs (18 USC 1716)                                            (18 USC 1029, 1030, 1037, 1343, 2701)
Although a rare crime, Postal Inspectors give high             Both agencies investigate electronic or “cybercrimes.”
investigative priority to the mailing of bombs, due to the     Postal Inspectors protect customers from fraud schemes
severe impact it can have on postal customers, employees,      and other crimes that may occur online and involve the
and operations.                                                misuse of the mail or of the Postal Service. Special Agents
                                                               investigate intrusions into the Postal Service computer
Burglary (18 USC 2115)
                                                               networks or misuse of those systems by postal employees.
The Postal Service experienced 57 burglaries in the
first half of FY 2009. Postal Inspectors respond to and        Embezzlement, Theft or Destruction of Public Money,
investigate these incidents                                    Property or Records (18 USC 641, 1711)
                                                               The OIG investigates theft or embezzlement of postal funds
Child Exploitation
                                                               by postal employees is investigated.
(18 USC 1470, 2251- 2254, 2422-2425)
The Postal Inspection Service is recognized as one of          Extortion (18 USC 873, 876, 877)
the leading federal law enforcement agencies combating         Postal Inspectors investigate extortion and blackmail when
the production, distribution, receipt, and possession of       demands for ransoms or rewards are sent through the mail.
child pornography and other crimes related to the sexual
exploitation of children through the mail and the Internet.    False Statements (18 USC 1001)
Contract Fraud (18 USC 201, 440, 441)                          Both agencies use this statute in their investigations.
The OIG aids the Postal Service by aggressively                Forfeiture (18 USC 981, 982)
investigating allegations of fraud, waste, misconduct
                                                               Agents from both agencies use criminal and civil forfeiture
and other contract improprieties in the thousands of
                                                               statutes, when appropriate, to seize assets associated with
postal contracts.
                                                               criminal acts.
Credit Card Fraud
                                                               Identity Fraud (18 USC 1028)
(15 USC 1644; Access Device Fraud: 18 USC 1029)
                                                               Identity fraud victimizes millions of Americans each year.
Both agencies investigate credit card fraud, and often work
                                                               Both agencies play a role in investigating this crime. The
jointly on cases involving postal employees and outsiders.
                                                               Postal Inspection Service investigates identity theft and
Special Agents investigate postal employees who misuse
                                                               account takeovers when there is a nexus to the mail or the
government credit cards or steal cards from the mail
                                                               Postal Service. Special Agents investigate cases where a
and use them or sell them to others. Postal Inspectors
                                                               postal employee steals mail to obtain personal information.
investigate cards stolen from the mail by outsiders.




                                                                                                                              October 1, 2008 – March 31, 2009 | 77
JURISDICTION AND LAWS




                                              Injury Compensation Fraud (18 USC 287, 1919, 1920)                  monetary transactions. They identify and seize criminals’
                                              Schemes by healthcare providers and postal employees                assets, denying violators the proceeds of their crimes.
                                              to defraud the workers’ compensation system cost the
                                                                                                                  Money Orders, Counterfeit Stamps, and Related
                                              Postal Service millions of dollars annually. Special Agents’
                                                                                                                  Crimes (18 USC 500, 501, 503, 1720)
                                              investigative work saves the Postal Service millions in long-
                                              term costs and deters others from abusing the system.               Postal Inspectors pursue criminals who forge, alter, or
                                                                                                                  counterfeit postal money orders, postage stamps, and other
                                              Kickbacks, Bribes and Gratuities                                    stamp products. Special Agents investigate employees who
                                              (41 USC 51-53; 18 USC 201)                                          manipulate postal money orders or funds.
                                              Special Agents investigate contract irregularities and
                                                                                                                  Obscenity and Sexually Oriented Advertising
                                              frauds — including kickbacks, bribes, and gratuities to
                                                                                                                  (18 USC 1461, 1463, 1735 and 39 USC 3010)
                                              postal employees.
                                                                                                                  Postal Inspectors follow court-established guidelines to
                                              Lotteries (18 USC 1301, 1302, 1303 and 39 USC 3005)                 uphold obscenity standards, which prohibit “obscene,
                                              Postal Inspectors protect consumers by strictly enforcing           lascivious, indecent, filthy, or vile” mailings. Customers who
                                              all laws related to importing, transporting, and mailing            wish to halt mailings of sexually oriented advertisements
                                              lottery tickets. Under the false representations and lottery        or similar solicitations may complete and submit PS Form
                                              statute (3005), Postal Inspectors are authorized to instruct        1500, available at Post Offices or online.
                                              Postmasters to withhold from delivery and return to sender
                                                                                                                  Robbery (18 USC 2114)
                                              any mail that violates the law.
                                                                                                                  Postal Inspectors respond promptly to robberies of postal
                                              Mail Fraud                                                          employees, facilities, vehicles and postal contractors.
                                              (18 USC 1341, 1342, 1345 and 39 USC 3005, 3007)
                                                                                                                  Theft of Mail (18 USC 1708, 1709)
                                              The Postal Inspection Service is committed to protecting
                                              postal customers from being defrauded through the mail.             Theft of mail is a primary investigative responsibility of both
                                              Postal Inspectors place special emphasis on mail fraud              agencies. Postal Inspectors investigate external incidents,
                                              scams related to advance fees, boiler rooms, health care,           including Postal Service contractors who transport mail to
                                              insurance, investments, deceptive mailings, and other               postal facilities. Special Agents investigate thefts by postal
                                              consumer fraud — especially when it targets the elderly or          employees and contractors.
                                              other vulnerable groups.
                                                                                                                  Theft of Postal Property (18 USC 1707)
                                              Mail or Mailbox Destruction (18 USC 1705)                           Misconduct by postal employees is investigated by Special
                                              The Postal Inspection Service is committed to ensuring the          Agents and includes theft, destruction, or misuse of Postal
                                              safety of the nation’s mail by securing letter boxes or other       Service property or equipment.
                                              receptacles for U.S. Mail. To this end, Postal Inspectors
                                              aggressively pursue individuals who willfully or maliciously        Whistleblower Protection
                                              injure or destroy such receptacles.                                 (Employee and Labor Relations Manual 666.18, 666.3 et. seq.)
                                                                                                                  This rule protects postal employees from reprisal resulting
                                              Money Laundering (18 USC 1956, 1957)                                from disclosure of information evidencing a violation of law
                                              Special Agents and Postal Inspectors investigate criminals          or regulation; waste, mismanagement, or abuse; or danger
                                              who attempt to conceal the proceeds of illegal acts through         to public health or safety. Special Agents investigate
                                                                                                                  reprisal allegations.



                                              The following are among the many trademarks owned by the United States Postal Service: United States Postal
                                              Service®, U.S. Postal Service®, USPS®, First-Class Mail®, usps.com®, Click-N-Ship®, Automated Postal Center®,
                                              APC®, Express Mail®, Priority Mail®, Standard Mail®, Parcel Post®, Media Mail®, Customized MarketMail®, Intelligent
                                              Mail®, Parcel Select®, Express Mail International®, Quick, Easy, Convenient®, United States Postal Service Office of
                                              Inspector General™, Post Office™, Postal Service™, Signature Confirmation™, Certified Mail™, Delivery Confirmation™,
                                              Registered Mail™, ZIP Code™, Carrier Pickup™, Priority Mail International™, First-Class Mail International™, Premium
                                              Forwarding Service™, Forever Stamp™ and Postmaster General™. The Sonic Eagle Logo, Round Top Collection Box
                                              design, Letter Carrier Uniform design, and the Mail Truck design are also trademarks belonging to the United States
                                              Postal Service.




78 | Semiannual Report on the Audit, Investigative, and Security Activities of the United States Postal Service
The United States Postal Service
has two law enforcement agencies
with distinct areas of investigative
responsibility to serve the needs
of stakeholders, postal employees,
and the American public.



Who do I call?
Postal Inspection Service                 Office of Inspector General
■   Security of employees, facilities,    ■   Theft, delay, or destruction of mail by
    and equipment                             employees and contractors
■   Revenue and postage fraud             ■   Injury compensation fraud
■   International mail security           ■   Embezzlements and financial crimes
■   Violent crimes:                       ■   Contract fraud
    - Threats and assaults of employees   ■   Kickbacks
    - Buglaries and robberies
                                          ■   Computer crimes
■   Mail theft by nonemployees
                                          ■   Narcotics
■   Dangerous mail and bombs
                                          ■   Employee misconduct
■   Mail fraud
                                          ■   Internal affairs and executive
■   Identity theft                            investigations
■   Narcotics in the mail                 ■   Whistleblower reprisals
■   Child pornography and obscenity

Contact: 877-876-2455                     Contact: 888-USPS OIG
http://postalinspectors.uspis.gov/        www.uspsoig.gov
http://postalinspectors.uspis.gov/
U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL
1735 N. Lynn Street, Arlington, VA 22209-2020
703.248.2100 Fax: 703.248.2291 www.uspsoig.gov

U.S. POSTAL INSPECTION SERVICE
475 L’Enfant Plaza SW, Washington, DC 20260-2112
1.877.876.2455 http://postalinspectors.uspis.gov/
